<html>
<title> - IRAQ'S TRANSITION--THE WAY AHEAD [PART I]</title>
<body><pre>[Senate Hearing 108-645]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-645

                    IRAQ'S TRANSITION--THE WAY AHEAD
                                [PART I]

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



96-371 PDF      U.S. GOVERNMENT PRINTING OFFICE
                      WASHINGTON : 2005
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Armitage, Hon. Richard L., Deputy Secretary of State, U.S. 
  Department of State, Washington, DC............................    11
    Prepared statement...........................................    13
    Responses to additional questions for the record from Senator 
      Lugar......................................................    80
    Responses to additional questions for the record from Senator 
      Biden......................................................    92
    Responses to additional questions for the record from Senator 
      Feingold...................................................   104

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    30

Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    20

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1

Wolfowitz, Hon. Paul, Deputy Secretary of Defense, U.S. 
  Department of Defense; accompanied by: Lt. Gen. Walter L. 
  Sharp, Director, Strategic Plans and Policy, Joint Chiefs of 
  Staff, U.S. Department of Defense, The Pentagon, Washington, DC     4
    Prepared statement of Deputy Secretary Wolfowitz.............     5
    Responses to additional questions for the record from Senator 
      Lugar......................................................    86
    Responses to additional questions for the record from Senator 
      Biden......................................................    96

                                 (iii)

  

 
                    IRAQ'S TRANSITION--THE WAY AHEAD
                                [PART I]

                              ----------                              


                         TUESDAY, MAY 18, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
SD-106, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Brownback, 
Voinovich, Alexander, Coleman, Sununu, Biden, Sarbanes, Dodd, 
Feingold, Boxer, Bill Nelson, and Corzine.


        OPENING STATEMENT OF SENATOR RICHARD G. LUGAR, CHAIRMAN


    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. Today, the Committee on Foreign 
Relations meets to continue our ongoing oversight of American 
policy toward Iraq. The Coalition intends to hand over 
sovereignty to an Iraqi government 6 weeks from tomorrow.
    We're pleased to welcome Richard Armitage, Deputy Secretary 
of State; Paul Wolfowitz, Deputy Secretary of Defense; and 
Lieutenant General Walter Sharp, Director of Strategic Plans 
and Policy for the Joint Chiefs of Staff. We look forward to a 
wide-ranging discussion that further clarifies United States 
plans for the Iraqi transition.
    This is the nineteenth hearing on Iraq the Foreign 
Relations Committee has held since January 2003, and the fifth 
in this past month. Tomorrow we will hold another hearing on 
Iraq that will feature several expert witnesses from outside 
our government. Within the substantial bounds of Congress's 
oversight capacity, we are attempting to illuminate United 
States plans, actions, and options with regard to Iraq, both 
for the benefit of the American people and to inform our own 
policymaking role.
    I am convinced that the confidence and commitment 
demonstrated by the pronouncement of a flexible but detailed 
plan for Iraq is necessary for our success. With lives being 
lost and billions of dollars being spent in Iraq, the American 
people must be confident that we have carefully thought through 
an Iraq policy that will optimize our prospects for success. 
Moreover, a detailed plan is necessary to prove to our allies 
and to Iraqis that we have a strategy and that we are committed 
to making it work. If we cannot provide this clarity, we will 
risk the loss of support of the American people, the loss of 
potential contributions from our allies, and the 
disillusionment of Iraqis.
    As the June 30 transfer of sovereignty draws closer, 
violent attacks on Coalition forces have increased, and power 
struggles between Iraqi factions have intensified. The lack of 
security has hampered political and economic development in key 
parts of Iraq. Many non-governmental aid organizations have 
pulled out of Iraq. Adding to the difficulties, the appalling 
revelations of our prisoner abuse in Iraq have repulsed 
Americans and hurt our reputation in the international 
community. In dealing with this scandal, we need to establish 
absolute accountability and stay true to our values without 
reducing our efforts to overcome terrorism.
    At this critical junction, the committee and the American 
people need to hear directly from the administration. Are U.S. 
plans for building Iraq shifting to address the new realities 
on the ground? And have sufficient resources been identified to 
carry through with our plans?
    The Senate confirmed Ambassador John Negroponte, to be 
Ambassador to Iraq, on an expedited basis to ensure that he and 
his team would be in place quickly. We are interested in 
knowing how the State Department plans to staff, house, and 
secure what will be one of the largest embassies in the world. 
Under Secretary Marc Grossman has testified that the embassy 
could cost more than a billion dollars, but these funds were 
not included in fiscal year 2005 budget request. The 
administration recently requested an additional $25 billion in 
contingency funds for Iraq and Afghanistan, but this amount 
does not apparently include any funding for the new embassy. 
Our diplomatic forces, as well as our military forces, must 
have what they need to succeed.
    I am especially interested in details surrounding the use 
of the $18.4 billion provided for Iraq by the emergency 
supplemental signed last November 6, 2003. In this bill, 
Congress gave broad authority to the President to control these 
funds through the Office of Management and Budget. The OMB 
report submitted last month showed that only $2.3 billion of 
the $18.4 billion has been obligated by March 24, 2004. Given 
the urgency of reconstruction efforts in Iraq and the role that 
they play in a successful outcome for the United States, it is 
perplexing that only about 12 percent of the money has been 
obligated. Committee inquiries indicate that reconstruction 
projects have been slowed by a long bureaucratic contracting 
process overseen by the OMB and the Department of Defense. In 
addition, the OMB report lacks specificity. In many cases, the 
report fails to identify the agency responsible for carrying 
out reconstruction projects. Our committee needs to be 
reassured that Congress's intent is being fulfilled and that 
there is no unnecessary delay in reconstruction efforts.
    In Iraq, we are perceived more as an occupation force by 
some than as a friend helping to nurture a new nation. Delays 
in reconstruction undercut United States credibility and 
increase suspicions among Iraqis who are impatient for 
improvements. Without tangible progress in reconstruction, 
Iraqis will perceive little benefit in the U.S. military 
presence. Achieving a transfer of sovereignty on June 30, 2004, 
was always going to stretch our capabilities. But since we are 
firmly committed to that date, we should be attempting to 
accelerate stabilization and reconstruction in every possible 
way.
    We are hopeful that Ambassador Lakhdar Brahimi will be 
successful in his work to construct an Interim Iraqi 
Government. The Iraqis themselves must reach internal political 
consensus and balance among competing Sunni, Shia, and Kurdish 
factions and their thoughts. Once the new government is named, 
the transition to sovereignty should begin immediately. If 
possible, in my judgment, we should establish the United States 
Embassy before the June 30 transfer, and bring Ambassador 
Negroponte in early. Ambassador Bremer has provided 
extraordinary service, but, at this stage, he will begin to 
take on lame-duck status.
    Under Secretary Grossman testified, on April 22, about the 
importance of engaging an Interim Iraqi Government as soon as 
it is selected. We cannot simply turn on the lights in the 
embassy on June 30 and expect everything to go well. We must be 
rehearsing, with Iraqi authorities and our Coalition partners, 
how decisionmaking and administrative power will be distributed 
and exercised. It is critical, therefore, that Ambassador 
Negroponte and his team be put in place at the earliest 
possible moment. We also should be accelerating negotiations to 
complete a United Nations Security Council resolution to give 
international legitimacy to the new Iraqi government and to 
define new security arrangements. In addition, the United 
Nations and the new interim government should consider 
accelerating the elections scheduled for January 2005 and 
December 2005 for the Transitional and Permanent Iraqi 
governments.
    We are especially appreciative to have our witnesses with 
us today. Now, let me just say, as a point of personal 
privilege and, likewise, history, that about 19 years ago, in 
1985, when I was a newly anointed Chairman of the Foreign 
Relations Committee, on the first occasion, Paul Wolfowitz and 
Rich Armitage came before the committee on that occasion to 
talk about the Philippines. Their testimony was farsighted and 
courageous. In a chapter in a book that I wrote about the 
situation, I stated my admiration for their testimony, for 
whatever it's worth, because it was remarkably prescient with 
regard to events that occurred throughout 1985 and the 
elections in February 1986 and subsequently. My admiration for 
these two gentlemen has remained unabated ever since. I 
appreciate especially your coming today at this important time 
for our committee, and for our colleagues, and for the American 
people who will witness this hearing.
    Senator Biden has been delayed by train difficulties, pure 
and simple. He will be here, and when he arrives, I will call 
upon him, of course, for his opening statement and comment. 
And, at some stage, we will have, the committee knows, a 
rollcall vote at approximately 11:15. We will try to continue 
the hearing throughout that time. I will slip over to the floor 
and vote as rapidly as possible, and call upon one of my 
colleagues to chair the meeting so we may continue with our 
deliberations.
    We thank the witnesses for coming. We look forward to 
hearing from them, first of all, in the order in which they are 
listed in our agenda, which would be Secretary Wolfowitz, then 
Secretary Armitage.
    Secretary Wolfowitz, we're delighted that you are here and 
we would be pleased to hear your testimony.

STATEMENT OF HON. PAUL WOLFOWITZ, DEPUTY SECRETARY OF DEFENSE, 
U.S. DEPARTMENT OF DEFENSE; ACCOMPANIED BY: LT. GEN. WALTER L. 
 SHARP, DIRECTOR, STRATEGIC PLANS AND POLICY, JOINT CHIEFS OF 
        STAFF, U.S. DEPARTMENT OF DEFENSE, THE PENTAGON

    Mr. Wolfowitz. Mr. Chairman, I'm delighted to have the 
opportunity to come here to talk about the very important 
questions that you've outlined in your opening statement. I 
want to thank you for the kind words that you just spoke about 
the role that Rich Armitage and I played some 20 years ago, not 
quite 20 years ago, but you were unduly modest, because you 
yourself played a more important role and with considerable 
courage, both in taking on an assignment that nobody else 
wanted to do, and then carrying it forward in the face of a 
great deal of pressure. And I think our country and the 
Philippine people have a lot to thank you for that great 
leadership.
    Mr. Chairman, I have a somewhat long statement, which you 
can read and I would like to put in the record. I would just 
like to put it aside and make a few brief comments about the 
overall situation in Iraq.
    The Chairman. Your statement will appear in the record in 
full, and, likewise, that of Secretary Armitage.
    Mr. Wolfowitz. Mr. Chairman, members of the committee, the 
great men and women who wear the uniform of the United States 
have already accomplished amazing things in Iraq. They have 
removed a regime that was a threat to the United States and to 
the entire Middle East, a regime that sponsored terrorism and 
then developed and used weapons of mass destruction. In the 
process, they have also liberated a nation of 25 million 
talented people, most of them Muslims, from the grip of one of 
the most cruel and sadistic tyrants in modern history. But 
their work is not done. The enemy that was defeated in major 
combat a year ago continues to sow death and destruction in the 
effort to prevent the emergence of a new Iraq. They and their 
terrorist allies from inside and outside Iraq understand that 
real defeat for them will come when Iraqis achieve the ability 
to govern themselves in freedom and to provide for the security 
of their own country. That is why the enemy realizes that the 
next year or year and a half will be so critical, because that 
is the time it will take to stand up Iraqi security forces that 
are fully trained, equipped, and organized, and to elect a 
representative Iraqi government after 40 years of tyranny and 
abuse.
    Already more than 775 American military have died in this 
noble cause, and many more have suffered grievous wounds. Brave 
civilians have been killed, as well. More than a hundred of our 
Coalition partners have given their lives for this cause. And 
by our own count, which is probably far from complete, 350 
Iraqi policemen, civil defense fighters, and other security 
forces have given their lives for the cause of a new Iraq in 
the last year, and that doesn't count the thousands of Iraqis 
who have died fighting that evil regime for the last several 
decades, nor does it count the many brave Iraqi civilians who 
have stepped up to lead Iraq into the future and who were 
gunned down and murdered for that reason alone. Just this week, 
a second members of the Iraqi Governing Council, Izzedine 
Salim, was brutally assassinated, the second member of the 
Iraqi Governing Council, along with that brave woman, Akila al-
Hashimi, to give their lives for the cause of Iraqi freedom. We 
owe it to these noble Americans, to the Iraqi and Coalition 
partners, and, indeed, to ourselves and to the world, to finish 
the work that they have so nobly advanced.
    Today's hearing, like many other hearings in this 
distinguished body, will be listened to by the entire world. In 
recent weeks, we have been sending many messages to the world 
about our shock and horror at the abuse of Iraqi prisoners, 
messages of regret and remorse, messages of outrage and horror, 
messages of American commitment to correct our mistakes, to 
find the truth, and to punish the guilty. It is entirely proper 
that we should do so. Most of all, we are sending the message 
that in democracies abuses are not tolerated or covered up, but 
revealed and punished. That is a very important message for the 
Iraqi people and a lesson, as well, as they seek to build a 
government that would be the first of this kind in the Arab 
world.
    But it is even more important that the Iraqi people hear an 
additional message from this great body and from the American 
people, the message that we will win in Iraq, and that we are 
determined to win, and that we understand that winning means 
giving their country back to them, but also sticking with them 
until they have a reasonable chance to establish a government 
that represents them and creates security forces that can 
protect them.
    Mr. Chairman, the enemies of a free Iraq are tough and 
determined killers and terrorists, but they have nothing 
positive to offer the Iraqi people--only fear and death and 
destruction. Our weapon is not fear, but hope. But it is a hope 
that is shared by millions of Iraqis. In the coming months, 
they and we will be the targets of the killers who hope to 
block the progress to Iraqi self-government and Iraqi self-
defense. They need to know that we will stand with them as they 
stand up for a free Iraq.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wolfowitz follows:]

               Prepared Statement of Hon. Paul Wolfowitz

                              INTRODUCTION
    Mr. Chairman and Members of the Committee:
    I thank you for the opportunity to come and brief you today on the 
Defense Department's role in the upcoming transition to Iraqi 
sovereignty. I am heartened by the numerous statements from members of 
this Committee recognizing the importance of Operation Iraqi Freedom 
and the ongoing reconstruction mission in Iraq to our nation's 
security. Such statements send a strong message of America's resolve to 
those who oppose our efforts to help the Iraqi people rehabilitate 
their nation after 35 years of unimaginable tyranny under Saddam 
Hussein.
    I would also like to thank the members of this Committee for their 
continued support to the men and women of our Armed Forces. Our prayers 
are with all our people currently serving in Iraq and Afghanistan. 
Whether members of Active Duty, Reserve, or National Guard units, these 
heroes embody the best ideals of our nation--serving so that others may 
be free--and we thank them all for the sacrifices they make.
    I would also like to pay tribute to the hard work and sacrifices of 
all the civilians and Foreign Service officers in the Coalition 
Provisional Authority and various NGOs. Their tireless efforts and 
heroism have been vital to our mission in Iraq, and they have been as 
fine a group of ambassadors for this nation as we have ever sent 
abroad.
    Finally, we also owe a sincere debt of gratitude as well to the 
roughly 25,000 men and women from our Coalition partners, who are 
serving the cause of freedom in Iraq. This coalition is neither 
``illegitimate'' nor ``window dressing.'' Thirty-four of our closest 
friends have troops that are bravely fighting alongside us in Iraq, 
spearheaded by the two multinational divisions led by the British and 
the Poles. British, Italians, Bulgarians, Thais, Poles, Danes, 
Estonians, Ukrainians, and Spanish have been killed while trying to 
advance freedom and democracy in Iraq. Just recently, one of our 
smallest allies, El Salvador, has been singled out for the valor of its 
troops in countering the recent violence in Iraq. Most significantly, 
the largest partner of this Coalition is the Iraqis themselves, tens of 
thousands of whom are already fighting for a new Iraq. The number of 
Iraqi Security Forces may exaggerate their capability at this time, but 
not their determination to rebuild their country, as more than 300 
Iraqi Security Forces have been killed in action, and close to 700 
wounded.
    The horrible abuses at Abu Ghraib prison have been, as Secretary 
Rumsfeld characterized it, a body blow for all of us. These actions are 
a betrayal of what thousands of Americans have risked their lives to 
achieve in Iraq. But these actions do not represent America, nor do 
they represent American values. We will uncover the truth. We will 
punish the guilty. And we will act to prevent such abuses from 
recurring in the future. The Iraqi people will see that a free 
democratic system functions and operates transparently. Americans are 
human and we make mistakes, but when we do, we work to correct them. 
And it was not a mistake to free the Iraqi people and the world from 
one of the most abusive dictators in history.
 the coalition's strategy to achieve victory in iraq: capacity building
    We need to continue to move forward on all fronts implementing the 
coalition's strategy to set conditions that will ensure a free Iraq 
that is stable and at peace with its neighbors. Our strategy involves 
three interdependent lines of operations to build indigenous Iraqi 
capacity and transition responsibilities from the Coalition to Iraq 
rapidly, but not hastily. While the lessons to be learned from the 
violent events of the past few weeks affect the way we pursue these 
three lines of operation, these are still the three key elements that 
will bring success in Iraq.
    The first element involves building capable Iraqi security forces 
to achieve stability. Accordingly, we have redoubled our efforts to 
recruit, train, equip and, most importantly, mentor Iraqi security 
forces--Police, Iraqi Civil Defense Corps, Army, Border Police, and the 
Facilities Protection Service. Over the next few months our aim is to 
be able to certify the ability of these forces, as they become ready to 
assume greater responsibilities from coalition forces. Also, through 
technical assistance and mentoring by U.S. prosecutors, we are helping 
to build the capacity of the Iraqi criminal justice sector.
    The second element involves nurturing Iraq's capacity for 
representative self-government, with the aim of creating a government 
that can assume sovereignty on behalf of the Iraqi people. June 30 is 
not a magical date on which the Coalition Provisional Authority (CPA) 
will suddenly transition all of its responsibilities to a new Iraq 
government. It is actually just one step, albeit a very important one, 
in a process. Free Iraqis have been gradually assuming responsibility 
for governmental functions for quite some time. Eleven Iraqi ministries 
already report to the Governing Council rather than the CPA. Iraq now 
has a functioning judiciary to provide equal justice for all. At the 
local and provincial levels, elected assemblies are up and running. 
When the Interim Government assumes sovereign authority on June 30, its 
most important task will be to prepare the way for elections to 
establish the Transitional Government in January of 2005. That 
government in turn facilitate the drafting of a permanent Iraqi 
Constitution which will pave the way for the election of a fully 
constitutional government at the end of 2005.
    The third element of the strategy involves the reconstruction of 
Iraq's infrastructure and the restoration of essential services that 
are providing better lives for Iraqis and putting people back to work. 
Iraq has tremendous potential. Iraq has well-educated and industrious 
people. It has fertile land and water resources and it has abundant 
natural resources. Our strategy aims to put Iraq on course to realizing 
that potential and to setting conditions for Iraqis to prosper in the 
future.

                    IRAQ'S PROGRESS SINCE LIBERATION
    The recent violence in Iraq is aimed at obstructing the progress 
that is being made toward building a new Iraq and to create chaos that 
will permit the return of the old tyranny or the imposition of a new 
one. Despite this assault, after 35 years of living through the 
nightmare of Saddam's cruelty and misrule, Iraq is slowly beginning to 
realize its long-suppressed potential. Given its talented people, 
fertile land, and natural resources, Iraq should have been a wealthy 
nation. Yet Iraq's economy was moribund due to state control, rampant 
corruption, and Saddam's misallocation of resources. Money earmarked 
for life-saving medicines was used to buy means to end life. Money 
available to maintain Iraq's infrastructure instead maintained Saddam's 
palaces. Schools that should have been centers of learning became 
command centers and ammunition bunkers.
    Today, the Iraqi economy is on the path to recovery and prosperity. 
Unemployment has fallen by nearly one-half over the past year. 
Inflation is a quarter of what it was before the war. Iraqi 
marketplaces are filled with consumer goods for the first time in 
decades. All of this is occurring despite ongoing security concerns, 
and before the full effect of the $18.4 billion in reconstruction 
grants and more than $15 billion in international aid is felt.
    Iraqi essential services have also seen significant improvement in 
the past year. Electricity generation has surpassed prewar levels and 
is more evenly distributed. Iraqi schools are no longer propaganda 
factories for Saddam's cult of personality and Ba'ath party fascism. 
Health care spending in Iraq is 30 times greater than its pre-war 
levels.
    Iraqis are also experiencing unprecedented political freedoms as 
well. The Transitional Administrative Law, the document that will 
govern Iraq's transition period beginning June 30 and which was signed 
by all members of the Iraqi Governing Council, is the most liberal 
basic governance document in the Arab world, with assurances that 
include:

  <bullet> Freedom of Religion;

  <bullet> Freedom of Expression;

  <bullet> Freedom of the Press; and

  <bullet> Freedom of Assembly.

    The TAL calls for equal rights for all citizens of Iraq regardless 
of ethnicity, denomination, or sex. Over ninety percent of Iraqi towns 
and provinces have local councils. More than half of the Iraqi 
population is active in community affairs, and one in five belongs to a 
non-governmental organization.

                            SECURITY IN IRAQ
    Although these achievements are far from trivial, they take place 
against the background of continuing violence. The past month has been 
as costly to us as any since the liberation of Iraq a year ago. We are 
facing a pivotal moment in the battle for Iraq's future, making sober 
reflection on where we stand and where we are heading in Iraq critical.
    This reflection begins with recognizing who the enemy is in Iraq. 
Among the groups in Fallujah the U.S. Marines have been fighting are 
the murderers and torturers of the Fedayeen Saddam and Mukhabarat who 
melted away without engaging our forces a year ago. Reports indicate 
that Iraqi officers of the so-called ``Special Operations and 
Antiterrorism Branch,''--a truly Orwellian designation--also known as 
M-14, are responsible for planning roadway improvised explosive devices 
and some of the larger car bombs that have killed Iraqis, Americans, 
and other foreigners. Their campaign of terror and intimidation springs 
not from frustration with the Coalition's occupation of Iraq, but from 
their desire to dominate and brutalize their fellow Iraqis. Captured 
documents reveal that these members of Saddam's secret service were 
making plans for urban guerrilla warfare even before the fall of 
Baghdad, and took steps such as preparing explosives-laden vests for 
suicide attacks before the war. In order to destroy the last vestiges 
of Saddam's tyranny, it was always necessary that we defeat these 
forces. They are joined by domestic and foreign terrorists, including 
the notorious Abu Musab al-Zarqawi, who moved to Iraq after the fall of 
Afghanistan and who claims credit for personally beheading Nicholas 
Berg and is responsible for conducting many of the worst terrorist 
bombings in Iraq, and he is connected to a number of plots in Europe 
and possibly elsewhere.
    In the Shi'a community, Muqtada al Sadr's power grab has not 
succeeded. A February poll by Oxford Research International showed that 
only one percent of Iraqis name al Sadr as the national leader they 
trust most. This number seems to be declining as the Shi'a clerical 
establishment influences their community against him. U.S. and Iraqi 
forces have launched numerous attacks against Sadr's gang of thugs in 
the past week, further limiting his efforts to intimidate his way into 
power.

                  LESSONS LEARNED AND CHALLENGES AHEAD
    It is well known that no pre-war prediction will unfold perfectly, 
and that there will be setbacks that require adjustments in both 
objectives and courses of action. In war, plans are at best the basis 
for future changes. This Coalition has repeatedly demonstrated that it 
can be flexible when necessary. Examples of this flexibility include:

  <bullet> Creating a new type of indigenous force (the Iraqi Civil 
        Defense Corps) to fill the gap left by the Iraqi police 
        service, many of whose members turned out not to be as well 
        trained as we had supposed.

  <bullet> Requesting a large amount of supplemental funds when the 
        requirements for Iraqi reconstruction became clear.

  <bullet> Responding to Iraqi demands for an earlier resumption of 
        sovereignty by developing the idea of a transitional government 
        that could take power before a permanent constitution is 
        ratified.

  <bullet> Dropping the ``caucus plan'' for selecting the transitional 
        government, when it turned out to be unpopular with Iraqis, and 
        substituting a two-step process involving an interim government 
        that can take power before legislative elections.

  <bullet> Revising the mechanisms for implementing the de-
        Ba'athification policy to address complaints that the appeals 
        process was not working as intended, and to respond to the 
        Sunni minority's fears of marginalization.

    Similarly, events of the past month have taught us several lessons 
that have influenced our policy decisions. We are focusing intently on 
the Iraqi Security Forces, whose performance during the recent spike in 
combat activity has been mixed. Approximately half of the security 
forces stood their ground, and in Fallujah some ICDC units fought 
bravely and well. Iraqi commandos from the Iraqi Counter Terrorist 
Force were instrumental in expelling Sadr's militia from the Mukhaiyam 
Mosque in Karbala. However, other units, however, did not face the 
enemy or avoided contact altogether, and a small proportion cooperated 
with the enemy.
    Our disappointment with the security forces has to be tempered with 
realism. Overall, they were not capable by themselves of deterring or 
withstanding the recent attacks, and that fact should not surprise us. 
We have been fielding Iraqi security forces as fast as we could, but we 
never expected Iraqi security forces to take over responsibility for 
Iraq's security on June 30th, much less April 5th. Our plan was--and 
is--for Iraqi forces to develop strength, capability, and experience 
under the security umbrella of the Coalition, while the Coalition 
retained overall security responsibilities. Recent events provide 
lessons we can apply to increase the impact of what we are doing.
    The first lesson is the need for stronger leaders in the security 
forces. We will build on the leaders whose units fought and we will 
replace those whose units did not. We will integrate Iraqi officers 
with Coalition forces and we will embed Coalition officers with the 
Iraqi security forces. This arrangement provides liaison, which 
produces mutual confidence, and it also helps us develop Iraqi 
leadership. Similarly, we need police liaisons and specialized trainers 
to get down to police stations around the country to provide confidence 
and set the example.
    Second, the Iraqi security forces need more and better equipment. 
We had not planned for them to be fully equipped at this point, but 
some police and ICDC units were outgunned in recent action, so we are 
reexamining the equipment requirements. We have also incurred some 
delays in equipping the Iraqi security forces. Part of the delay has 
been caused by challenges in the contracting process, and we hope those 
problems have been fixed. We need to make up for lost time, but any 
delay is unacceptable.
    Third, it is clear that the members of the security forces, most of 
whom are Iraqi patriots, need an Iraqi rallying point. They need to 
understand they operate under an Iraqi chain of command, and that at 
the top of that chain of command is a lawfully constituted Iraqi 
government. The chain of command is being put in place now. A defense 
minister has been named, along with a commander in chief of the armed 
forces and a chief of staff. A new interior minister has also taken 
office. We need to fill in the rest of the chain, but Iraqis in the 
security forces can see today that there are Iraqis at the top.
    The greatest factor in the mixed performance of the security forces 
was an intangible: fear. The enemies of a democratic future for Iraq 
have so terrorized the cities of central Iraq that many members of the 
security forces doubt that they or their families can be protected from 
the retribution that may follow their participation in operations 
alongside the Coalition. Until Iraqis are convinced that Saddam's 
regime has been permanently and irreversibly removed, and until a long 
and ghastly part of their history is put to rest and overcome, that 
fear will remain. Convincing them of this truth--that Saddam and the 
Saddamists are finished--will continue to require investments of our 
time and our resources and our precious men and women in uniform, to 
continue to build trust among the Iraqi people. That is why it is so 
important in this time of stress to show that our commitment to their 
freedom is rock-solid.

                  POLITICAL PROGRESS AND THE WAY AHEAD
    The timing of the current violence was not entirely unexpected. 
President Bush warned that we could expect increased violence in the 
months leading up to the transition to Iraqi sovereignty. We knew that 
the enemies of democracy in Iraq would do everything they could to 
disrupt the transition to sovereignty. This expectation was confirmed 
when we intercepted a letter from Abu Musab Zarqawi to his Al Qaeda 
colleagues in Afghanistan. In this letter, Zarqawi recognized that the 
fast-approaching turnover of sovereignty would further weaken his 
cause, saying:

          With the spread of the [Iraqi] army and the police, our 
        future is becoming frightening. The problem is you end up 
        having an army and police connected by lineage, blood and 
        appearance to the people of the region. How can we kill their 
        cousins and sons and under what pretext, after the Americans 
        start withdrawing? This is the democracy . . . we will have no 
        pretext.

    Zarqawi's letter strongly suggests that we are seeing an upsurge in 
violence precisely because the terrorists and extremists in Iraq 
believe we are winning and that their time to derail democracy in Iraq 
is running out. The same political situation that is driving such 
attacks also is a source of optimism for the Iraqi people and their 
Coalition partners.
    The reason the enemy believes its time is running out is because 
Iraqis, as reflected in the Transitional Administrative Law, have 
established a clear way forward for drafting and ratifying a permanent 
constitution for Iraq and the election of a government in accordance 
with its terms. This political transition is scheduled to evolve over 
three phases:

  <bullet> Phase I (June 30, 2004)--Iraqi Interim Government

  <bullet> Phase II (January 2005)--Iraqi Transitional Government

  <bullet> Phase III (January 2006)--Iraqi Government under Permanent 
        Constitution

    According to the timeline laid out in the TAL, the Iraqi Interim 
Government will take power on June 30. This Interim Government is being 
selected based on intensive consultations among Iraqis, led by 
Ambassador Brahimi, the UN Secretary General's Special Advisor on Iraq. 
Under this plan, the UN will appoint an Iraqi executive consisting of:

  <bullet> A President;

  <bullet> Two Deputy Presidents;

  <bullet> A Prime Minister; and

  <bullet> A Ministerial Cabinet.

    In accordance with the TAL, the interim Government will assume full 
sovereignty on June 30th, And in July a national conference will be 
convened to select a ``consultative'' council. Ambassador Brahimi 
currently is in Iraq where he is consulting closely with Iraqis and 
U.S. officials to produce a list of names by the end of May.
    We believe the ideas put forth by Mr. Brahimi are promising and we 
look forward to more details from the UN. U.S. officials remain in 
close contact with Mr. Brahimi, members of the Iraqi Governing Council 
and other Iraqis as these procedures are finalized.
    This Administration has made a major effort from the start to 
involve the United Nations in the reconstruction of Iraq. The 
Coalition's ongoing efforts in Iraq have been endorsed by three 
Security Council Resolutions: UN Security Council Resolution 1483--
passed May 22, 2003--supports the formation of the CPA and an Iraqi 
Interim Administration. UNSCR 1500--passed August 14, 2003--welcomed 
the establishment of the Governing Council. UNSCR 1511--passed October 
16, 2003--authorizes a multinational force under U.S. command. All 
three of these resolutions were unanimously endorsed by the UN Security 
Council.
    The Administration has worked closely with the United Nations 
Secretary General throughout the past year. Before his tragic murder by 
terrorists, UN envoy Sergio Viera de Mello was instrumental in 
establishing the Iraqi Governing Council. Since the tragic bombing of 
the UN Headquarters in Baghdad last August--which Zarqawi boasts was 
his doing and which was clearly aimed at driving out the UN--security 
for the UN has been a major challenge. However, the UN representative 
for Security Coordination's Office has been in Baghdad since mid-
January. A UN Election Assistance Team headed by Carina Perelli 
continues to work with the Iraqi people to help them create the legal 
and institutional structures for direct national elections by the end 
of January 2005. And as noted, we have welcomed the proposals of the 
new UN envoy, Lakhdar Brahimi, regarding the creation of the Iraqi 
Interim Government.
    The Interim Government will serve until the Transitional National 
Assembly, or TNA, is elected in either December 2004 or January 2005. 
The TNA will then elect a three-person Presidency Council consisting of 
a President and two Deputies, who will appoint by unanimous vote the 
Prime Minister and, on the Prime Minister's recommendation, a Council 
of Ministers. The Prime Minister and Council of Ministers must obtain a 
vote of confidence from the TNA before taking office. Together, the 
TNA, the Presidency Council and the Council of Ministers will comprise 
the Iraqi Transitional Government.
    In addition to being the legislature, the TNA will also draft a 
permanent constitution for Iraq, which will be submitted for popular 
ratification by October 15, 2005. Elections under this new constitution 
are to be held by December 15, 2005, and the newly elected government, 
operating under the permanent constitution, will take office by 
December 31, 2005.
    Now, I cannot sit here today and predict the exact form of the 
permanent government. Iraqis will decide the exact provisions of their 
permanent Iraqi constitution, and who will emerge as the leaders of the 
new Iraq. After 35 years of totalitarian dictatorship, it is a 
complicated task to build new political institutions and it cannot 
happen overnight.
    Since the liberation of Iraq a year ago, Iraqis have conducted 
themselves extraordinarily well for a nation so long exposed to Saddam 
Hussein's unique level of sadism. In a remarkably short period of time, 
Iraqi leaders have overcome many differences to demonstrate the arts of 
political compromise and their commitment to the goal of a new Iraq.
    Americans of all people should understand that democracy does not 
guarantee specific outcomes, it opens ideas up for debate. One need 
only look back at our own Constitutional Convention to be reminded that 
with any attempt to establish rule for the people by the people, there 
is always a great deal of uncertainty and controversy, even after the 
ink has dried. We should not expect Iraqis to achieve immediately what 
we and the British, for example, have labored to accomplish over the 
course of centuries. But even an imperfect Iraqi democracy will be an 
enormous improvement for a country that has suffered so much over the 
past 35 years.
    An early end to the occupation is essential to our political 
strategy to defeat the terrorists. A sovereign Iraqi government will be 
better able to marginalize its extremist opponents politically while 
Coalition forces defeat them militarily. As the letter from Zarqawi 
demonstrates, such a transformation is the worst possible scenario for 
those who oppose the emergence of democracy in Iraq. They fear it, and 
that's why they are trying so hard to derail it.
    Moving ahead is important to inspire Iraqi confidence that the 
transition is moving forward and that their country will not be 
occupied indefinitely. The transfer of sovereignty will also help to 
create the national rallying point for the Iraqi Security Forces I 
alluded to earlier. But it is important also to make clear that we 
believe that there will continue to be an urgent need for coalition 
forces to remain in Iraq after June 30, as there will still be serious 
threats to security in Iraq. But, on July 1, Iraq will be governed by 
an Iraqi government. This is in accordance with the expressed wishes of 
the Iraqi people.
    We will have a legal basis for continued MNF operations in Iraq. 
The TAL provisions relevant to security arrangements provide the 
appropriate framework for implementing our security strategy in Iraq 
after this transition. Article 59(B) of the TAL states that Iraqi armed 
forces will be ``a principal partner in the multinational force 
operating in Iraq under unified command pursuant to'' UNSCR 1511. 
Article 59(C) states that the elected Iraqi Transitional Government 
``shall have the authority to conclude binding international agreements 
regarding the activities of the multinational force,'' and that 
``nothing in this Law shall affect rights and obligations . . . under 
UNSCR 1511 . . . which will govern the multinational force's activities 
pending entry into force of those agreements.'' And perhaps most 
importantly, Article 26(C) ensures that CPA orders and regulations 
``shall remain in force until rescinded or amended by legislation duly 
enacted and having the force of law.''
    While it is important not to view the accomplishments in Iraq 
through rose-colored glasses, it is also harmful to give way to 
excessive pessimism. The American people need to know what their forces 
are accomplishing in Iraq, how the efforts of our servicemen and women 
are transforming the lives of 25 million Iraqis for the better, and 
transforming a region that has for too long accommodated despotism to 
the detriment of its freedom starved populations. And both our friends 
and our enemies in Iraq need to know that we have the will and resolve 
to accomplish our objectives.
    They also need to know that the Defense and State Departments share 
the same objectives in Iraq. Today as we face the challenge of 
executing the transition from the Coalition Provisional Authority to a 
sovereign Iraqi government 45 days from now, we must also plan for U.S. 
representation in Iraq to be conducted by a U.S. Embassy. Fortunately, 
planning for this transition has been well underway within the Defense 
and State Departments for some time. LTG (USA, Ret.) Mick Kicklighter 
and Ambassador Frank Ricciardone lead Transition Teams for the two 
Departments, and they have worked hand in glove with the CPA and 
Defense and Army staffs since early January to make the transition a 
success. They have formed an Interagency Transition Planning Team 
(ITPT) and provide the State and Defense leadership for drafting an 
Operations Plan for the transition. Experts from 16 subject matter 
sectors (such as Security, Human Resources and Personnel, Facilities, 
Finance, Medical and Health Services, etc.) from State and Defense 
coordinate closely to draft the highly detailed, time-phased plan. The 
ITPT as a whole meets almost daily, with sector leads meeting with 
their teams more often as required. General Kicklighter and Ambassador 
Ricciardone meet several times each week to ensure that planning and 
implementation of the plan are on track.

                               CONCLUSION
    When the President declared the end of major combat operations last 
year, he noted that ``We have difficult work to do in Iraq. . . . The 
transition from dictatorship to democracy will take time.'' This 
prediction has turned out to be correct, although the specific nature 
of some of the challenges we have encountered could not have been 
foreseen a year ago. But it is important to remember how large the 
stakes are and that fortitude and steadfastness are essential for 
success.
    Iraqis seem to understand this and are less prone to pessimism in 
the face of setbacks than we are half a world away. Despite all the 
violence and uncertainty caused by the enemies of a free Iraq, Iraqis 
sense dramatic improvement in their everyday lives and anticipate much 
more.
    Iraqis recognize the challenges they face and embrace them as a 
revolutionary opportunity to build a free nation and to better their 
lives. Recently, Nesreen Berwari, the woman serving as the Iraqi 
Minister of Municipalities and Public Works said: ``On April 9, 2003, 
Iraqis were offered the opportunity to begin to dream their future. 
Before April 9, 2003, we were not allowed to dream. We could not 
imagine life with the kinds of positive challenges we face today.'' 
Minister Berwari's optimism persists even though she recently survived 
a second assassination attempt on her life which killed her bodyguard.
    There is an old Chinese saying, ``May you live in interesting 
times.'' This saying is intended as a curse not a blessing. There are 
some days when it is tempting to view events in Iraq this way.
    But overall, I think we are in fact blessed with the opportunity 
and the capability to help the Iraqi people to realize their goal of a 
stable and representative government. And with this Committee's help, 
we will begin to make this a reality with the transition to Iraqi 
sovereignty next month. Recently in Houston, seven Iraqi businessmen 
were fitted for artificial hands. Saddam had ordered their hands 
amputated, to make them scapegoats for Iraq's economic failure. As one 
of those businessmen said, ``The age of tyrants is over, the age of 
good remains. God willing. Good is coming in Iraq.''

    The Chairman. Well, thank you very much, Secretary 
Wolfowitz.
    Secretary Armitage.

  STATEMENT OF HON. RICHARD L. ARMITAGE, DEPUTY SECRETARY OF 
                STATE, U.S. DEPARTMENT OF STATE

    Mr. Armitage. Thank you, Mr. Chairman and members. I'll try 
to respond, rather than going through my opening statement, 
which you've kindly submitted for the record, to the individual 
items you brought up, Mr. Chairman, and I'll do it very 
briefly.
    I want to echo Paul's comments about your kind comments 
regarding us. It's been a pleasure to serve with you and in 
front of you many times, through the Philippines and other 
different foreign policy activities. And we're proud again to 
be here today.
    You mentioned that you want to see things move to autonomy 
as rapidly as possible. Eleven of the Iraqi ministries right 
now are autonomous, and two more this week will become 
autonomous. And that means their ministers make all the 
decisions, prepare the budgets, are responsible for all of the 
programs, et cetera. And the CPA folks who have been in those 
ministries revert to the position of senior advisor, and we 
will attrit these away when the ministers themselves tell us 
that they feel that they no longer need senior advisors. That's 
a story, I think, that has been untold--13 of the 25 ministries 
this week are autonomous.
    You talked about John Negroponte. Thank you very much, and 
your other Senate colleagues, for being so rapid in conducting 
a hearing, and confirming the nomination.
    Now, I understand the desire to have John out in Iraq as 
soon as possible, but let me explain our reason. We want to 
make sure that there's a clean break between Ambassador Bremer 
and Ambassador Negroponte. Ambassador Negroponte is not Mr. 
Bremer's successor. He is the first U.S. Ambassador to a 
sovereign Iraq, and we're trying to make that point 
dramatically. We also want John's expertise as we move forward 
to another U.N. Security Council Resolution, which I will get 
to. But we've tried to meet you halfway, sir. We chose, as the 
DCM, our ambassador to Albania, who is a decorated Vietnam 
combat officer. We chose him for that reason, as well as his 
overall leadership skills, because we wanted to send him out 
early. And he's there now. He's arranging the embassies. He's 
putting together the different political shops, governance 
shops, et cetera, right now. We thought it was very helpful to 
have someone who, frankly, spoke the same language as our 
military colleagues and one who has walked the walk, as well as 
talking the talk. Jim Jeffrey is there now. He is getting the 
job done for us.
    You mentioned funding. We're going to need about $483 
million for the fourth quarter of the fiscal year, and that is 
from July until September. Right now, I can lay my hands on 
$477 million. The $6 million that I don't quite have, I plan to 
get by charging other agencies for their billeting, et cetera, 
with the State Department. We have these cross-servicing 
agreements, so that's not a particular problem. We do estimate, 
as Marc Grossman told you, that it will be a little over a 
billion dollars to run an embassy for fiscal year 2005, and 
this money, I'm pleased to say, will be coming forward, 
requesting, at the beginning of the year in a supplemental, an 
administration-wide supplemental, a State and foreign 
operations supplemental.
    I do want to be clear, however, the President has very 
kindly requested, and DOD has acceded, to continue to supply to 
the U.S. Embassy what we call the LOGCAP, the Logistics 
Civilian Augmentation Program, and security. And this, over a 
year, amounts to about $800 million. So when I finally come 
forward to you with a supplemental, then it will be, I think, 
somewhat less than a billion dollars to operate the embassy.
    We've got three properties that are in the process of 
renovation. They will be completed by the 15th of June. One is 
a residence, which will serve as a chancery. It's inside the 
Green Zone. The palace, which Ambassador Bremer is in now, will 
be an annex. And Ambassador Negroponte will move into the 
residence which Ambassador Bremer now occupies.
    A little bit about the UNSC. We desire to move ahead as 
rapidly as possible, and we've had informal consultations in 
New York and, most recently, with the G-8 foreign ministers 
here in Washington on Friday. There's not a piece of paper that 
we have put forward. We have gleaned and garnered all the ideas 
of those who are most interested. We do want to await the 
outcome of the Brahimi consultations. Then we would have an 
actual government which we would want to support in that 
resolution.
    But we want to accomplish several other things, as well. We 
want to make it very clear that occupation is over. Sovereignty 
is Iraqis'. The assets gained from the sale of oil belong to 
Iraqis now. Those type things.
    We also want to talk about the security arrangements moving 
forward. We do feel, under Security Council Resolution 1511 and 
other associated memoranda, we have sufficient basis to 
continue to operate in Iraq. However, we would want, and many 
of our partners are desirous of having, a further U.N. Security 
Council Resolution which makes this fact well known.
    So I've tried to respond to several of your items. One, if 
I may, about funding. I said, I've got about $477 million; $196 
million of that will come from the OMB fourth-quarter 
apportionment, $97 million of it comes from 2003 and 2004 
moneys which have already been appropriated, and the $184 
million remaining would be out of the so-called ``one-percent 
funds,'' which, following the law, the Iraq reconstruction and 
redevelopment fund, up to 1 percent of the money was allowed to 
be used for administrative costs. So I think we've got a pretty 
good handle on that, and I hope you will agree with me by the 
end of the hearing.
    So I'll stop there, sir, and look forward to questions.
    [The prepared statement of Mr. Armitage follows:]

             Prepared Statement of Hon. Richard L. Armitage

    Mr. Chairman, Senator Biden, Members of the Committee, it is always 
an honor to engage with you in a dialogue about the foreign policy 
challenges and opportunities facing our nation. The transition to 
sovereignty and democracy in Iraq is the pivotal opportunity and 
challenge for our nation at the moment, so I especially appreciate the 
chance to discuss this subject with you today.
    In 44 days, the Department of State takes the lead in managing and 
representing U.S. interests to a sovereign Iraqi government. At this 
point, you have confirmed Ambassador Negroponte, who is well prepared 
for this work. We have selected a very capable Deputy Chief of Mission 
in Jim Jeffrey, our current Ambassador to Albania, who already has 
moved to Baghdad to smooth the transition. Nearly all of the 140 State 
Department staff positions have been filled, and a number of Coalition 
Provisional Authority (CPA) staff will stay on for a period to ensure 
continuity of operations. We already have a number of the 155 Locally 
Employed Staff the State Department will hire here in Washington for 
training. Combined with personnel from other U.S. Government agencies, 
the U.S. Mission will total up to 1,000 permanent American staff, as 
well as a total of approximately 500 Locally Employed Staff. Our 
temporary chancery will be ready by July 1st, and we have chosen a site 
for a permanent embassy.
    Of course, the Department of Defense (DOD) will also continue to 
support a sizeable force in Iraq after June 30th. An Interagency 
Transition Planning Team, headed by Ambassador Frank Ricciardone and 
General Mick Kicklighter, is working out how our two agencies will work 
together, including how our roles, missions, resources, 
responsibilities, and authorities will complement and support each 
other. With the ongoing primacy of security concerns, this will 
obviously continue to be an important issue, and a top priority for 
Ambassador Negroponte and Lieutenant General Sanchez. Indeed, the 
security of our mission itself is a top priority in our transition 
planning; we already have 32 Diplomatic Security staff in Iraq defining 
and implementing measures to protect our staff. A total of 48 
Diplomatic Security agents will serve in the mission as of July 1st.
    As for funding the U.S. Mission, we are working with CPA and DOD to 
project start-up and fourth quarter operating costs, as well as to 
develop FY 2005 requirements. For FY 2004, the costs to stand up and 
operate the U.S. mission are around $480 million. We believe these 
costs are covered by the funding available from CPA's fourth quarter 
operating budget, the one percent transfer of Iraq Relief and 
Reconstruction Funds (IRRF) available under the law, and the funding 
directly appropriated to the Department of State from FY 2003 and FY 
2004 supplemental appropriations. Our rough estimate of FY 2005 
operating costs for the new mission amount to approximately $1 billion, 
exclusive of capital facility costs for a new embassy compound. Of this 
total, State Department costs for personnel and administrative support, 
IT, provincial teams, and to maintain a strategic communications 
capability total about $112 million. The largest cost components are 
logistics and security contracts that are being managed by DOD. It is 
our expectation that DOD will continue to cover logistics and security 
costs until Ambassador Negroponte and his team have time to assess the 
actual needs and provide an estimate we can include in a 2005 
supplemental request. We plan to meet the remaining FY 2005 
requirements through funds requested by the Department in the FY 2005 
budget, as well as potential cost allocations to other agencies, 
potential carryover from FY 2004, and the IRRF for any appropriate 
reconstruction expenses.
    Overall, this transition presents both opportunities and 
challenges, as I noted. We have the opportunity to help secure our 
long-term interests in seeing a stable, peaceful, and economically 
vital region. At the same time, we have the challenge of helping a 
country emerge from decades of tyranny, divide and rule tactics, 
propaganda, and opprobrium. Of course, the revelations about the 
terrible treatment of detainees in Iraq have complicated our challenges 
and our opportunities.
    The diplomats of the Department of State are accustomed to telling 
the world about the strengths of our country, and that is usually an 
easy task--our strengths are manifestly obvious. It is in times of 
trouble, however, that the world sees the strength of our system 
actually tested. With all eyes transfixed on the images of American 
soldiers abusing Iraqi prisoners at Abu Ghraib, it is one of those 
times.
    Americans are human beings; we are not above injustice and sin. But 
because we are American, we can also say that we are not above the 
law--no one is above the law. We will hold every person who bears 
responsibility for the human rights violations in Iraq accountable. As 
President Bush has said, we will compensate those who suffered. In his 
meetings with Iraqis, Ambassador Bremer has expressed deep remorse and 
the resolve to address these violations. And while accountability for 
individual soldiers is necessary, that alone is insufficient. As 
General Abizaid has noted, we are also correcting the system that 
accommodated such abuses in the first place.
    The Department of State is also taking measures to deal with the 
damage these violations have brought to our country, particularly to 
our efforts in Iraq. We are engaging in an open dialogue with other 
nations and with the news media, with a focus on the Islamic world. I 
want to underscore, however, that our outreach goes beyond a frank 
discussion of Abu Ghraib. There are hundreds of thousands of Americans 
around the world who are engaged every day in positive and productive 
actions to strengthen human rights, democracy, and open economies, to 
give aid to people in need of help, as well as to protect the security 
of this country.
    I believe we all have a responsibility, as official representatives 
of this government, to provide a balanced picture. Personally, in the 
course of the past week alone, I have tried to do so in interviews with 
a roundtable of Arabic print media, Al-Ikhbariya TV, and Lebanon's an-
Nahar newspaper. In the past few days, Secretary Powell has talked to 
al-Arabiya and the World Economic Forum in Jordan. As for gaining the 
good opinion of Iraqis and the international community about our 
efforts in Iraq, Ambassador Bremer and his team, along with Ambassador 
Blackwill, are meeting with government officials, civil leaders, 
clerics, tribal leaders and many others from across Iraqi society to 
talk about American policy and intentions and to seek input.
    Ultimately, however, our overall strategy for success in Iraq will 
be the most persuasive proof of our good intentions. That strategy is 
entirely sound, even in light of shifting events on the ground: we must 
succeed in helping Iraq to become a stable and successful independent 
state with a democratic, representative government and the seeds of a 
strong economy. That will require progress on the political, economic, 
and security fronts, so allow me to turn now to the ``way ahead.''
    The United States and coalition countries have spent the last year 
preparing Iraq to assume sovereignty by building up the political 
system, from the ground up and the top down. First, we have provided 
the training, advice, equipment, and facilities to help construct 
local, regional, and national governing structures. Indeed, as of our 
last count, there are 18 governorate councils, 90 district councils, 
194 city councils, and 445 neighborhood councils. At the national 
level, there are 11 Ministries already under direct Iraqi control; and 
more will be transferred in the coming weeks leading up to June 30. We 
will, however, continue to provide some 155 liaison officers to these 
Ministries after the transition. We also supported Iraqis as they 
drafted and adopted clearly defined principles and targets for the 
national government in the Transitional Administrative Law (TAL), which 
will be in effect as of July 1st and will stay in effect until a 
constitutionally-based, elected government takes office.
    The Interim Iraqi Government is taking shape. At the invitation of 
the Iraqi Governing Council and with full U.S. support, the United 
Nations has played a leading role in advising and assisting Iraqis in 
forming this interim government and preparing for elections. Ambassador 
Lakhdar Brahimi, who successfully helped steer the Bonn process and 
political transition in Afghanistan, is continuing his broad 
consultations with Iraqi leaders across the country. We welcome his 
proposal to establish by early June an interim government led by a 
Prime Minister, along with a President, and two Deputy Presidents. A 
Council of Ministers would report to the Prime Minister. An Advisory 
Body, selected in July by a National Conference, would serve alongside 
the Executive, but with no legislative authority. We have full 
confidence in Ambassador Brahimi, and not just because of his 
demonstrated competency in this area. We also have confidence because 
we are working in cooperation for the same ends.
    The Iraqi Interim Government (IIG) will have full sovereignty, but 
as spelled out in the TAL, it will serve for a limited term. The main 
focus of this interim government will be to take the country to an 
elected government in early 2005. The IIG will also take charge of the 
daily administration of the country, including the security and safety 
of the Iraqi people and continued progress in the economic recovery.
    As for the economy, the Coalition Provisional Authority reports 
important progress. Electric power production has exceeded pre-war 
levels, and more to the point, is now being distributed more widely and 
equitably across the country. Under the previous regime, much of the 
distribution had been concentrated on the Baghdad and Tikrit areas. 
Less than half of the population had access to potable water before the 
war; now two-thirds has access. Wheat production in the fertile 
Central-South region is up by 60 percent. Oil production has surpassed 
prewar levels. More than 5 million children are back in school, many of 
them vaccinated for the first time. The port and airport are fully 
functional for the first time in years and the Central Bank is fully 
operational. Of particular significance in a country where unemployment 
and underemployment together may be as high as 50 percent, the CPA has 
helped create nearly half a million jobs. The foundation for a healthy 
economy is in place and our efforts will continue. The Secretary of 
State, through the Chief of Mission, will assume ultimate authority for 
all of the projects and contracts as of 1 July.
    As we saw yesterday with the assassination of Iraqi Governing 
Council President Izzedin Saleem, security will continue to be the 
seminal challenge for a sovereign Iraqi government. For that reason, 
the TAL spells out an Iraqi desire to keep the Multi-National Force 
(MNF) in place, with an Iraqi security force at its core. Both the TAL 
and UN Security Council Resolution 1511 provide the legal framework for 
that ongoing presence. In addition, the TAL gives the elected 
transitional government the authority to conclude additional, binding 
international agreements relevant to the MNF. We have already begun 
consultations on a new UN Security Council resolution, as well, but 
want to be careful not to get ahead of the political process within 
Iraq.
    We will continue to recruit and train Iraqi forces to eventually 
take responsibility for security, and all security assistance will 
continue to be under DOD authority after June 30th with the policy 
guidance of the Chief of Mission. I would like to express our high 
level of confidence in Major General David Petraeus, who will be 
leading the effort to train and equip the Iraqi military. He has 
already demonstrated, in his command of the 101st Airborne, a high 
degree of success and skill in this environment, and we look forward to 
working with him.
    In addition, Ambassador Bremer, Ambassador Blackwill and their 
colleagues, as well as Mr. Brahimi, are also consulting widely with 
Iraqis on security issues, a pattern that Ambassador Negroponte and the 
coalition military commanders in theater will strengthen and deepen. 
Indeed, dialogue and cooperation with Iraqi leaders about the 
situations in Fallujah and Najaf has been essential in moving toward 
resolution in both places. In both situations, a sovereign Iraqi 
government would stand to inherit the same security challenges with 
which we are now confronted. Antipathy to the occupation may have 
generated some popular sympathy, but I believe most Iraqi citizens 
recognize that these lawless, violent groups do not represent their 
interests.
    The antipathy is understandable. Iraqis are a proud people who have 
endured a great deal of hardship. They have wanted their freedom for 
many years, and now they want their sovereignty. The sacrifice of brave 
Iraqis, such as Izzedin Saleem, is testament to the will of so many 
Iraqis to secure a better future. So while I recognize that there are 
still details to be worked out over the course of six short weeks, I 
believe our ability to see progress in our overall strategy for Iraq 
hinges on sovereignty.
    I am confident that on July 1st Ambassador Negroponte will take the 
reins of a large Embassy, with a highly experienced Deputy Chief of 
Mission and an eager country team. There will be more than 100,000 U.S. 
forces in the country, working alongside the forces of at least 32 
other nations, including Iraq. When the Ambassador calls on the Iraqi 
leadership, he will meet with the Prime Minister and President of a 
sovereign nation.
    There will be much to accomplish, of course. The country will still 
be immersed in all the confusion of a dramatic transition: elections 
will need to be held; a constitution will need to be drafted; and 
economic reconstruction will need to continue. The U.S. commitment to a 
strategy of success also will continue unabated, and we will continue 
to define success as a democratic and prosperous Iraq, at peace within 
itself and with its neighbors. I appreciate the support this Committee 
already has given the Department of State in reaching for that success, 
and I look forward to discussing our strategy with you today.

    The Chairman. Thank you very much, Secretary Armitage.
    We'll try to have a 10-minute question round at this point. 
We have good attendance. I will proceed with questions.
    I appreciate your response to some of the questions that I 
had raised in the opening statement. I'm going to ask that you 
respond, both of you, to questions that will be submitted for 
the record. We have gotten into a detailed list of questions 
regarding the $18.4 billion. These are too voluminous for a 10-
minute question-and-answer period, but it is important that you 
have an opportunity to detail what is being done with the $18.4 
billion, or what will be done, and what problems have occurred 
in terms of our bidding, contracting, and so forth.
    Ambassador Brahimi will soon name Iraqi leaders. What is 
our plan, or what should be our plan, for Mr. Jeffrey if he is 
onboard in Baghdad, or for General Abizaid, General Sanchez, to 
visit with these people? My thought, as I've expressed in other 
hearings, is that it would be very helpful to have some 
rehearsal offstage before the curtain opens on the 1st of July, 
specifically about these issues of putting an Iraqi face on 
both governance and security, and what that means. What I 
suspect it may mean, in terms of many Iraqis, is that they will 
want to take more responsibility, and we may wish that that was 
the case. Clearly, in Fallujah, we have had a step forward that 
was very substantial in terms of both the vetting of the 
general and the troops. Mr. Bremer has pointed out that this 
should not serve as a model of how things may go elsewhere, but 
it certainly is interesting as an instructive, pragmatic 
example currently in the security area. As for governance, it's 
never been quite clear what sovereignty meant. And, really, as 
you pointed out, Secretary Armitage, 11 of the 25 ministries, 
as I understand it, are presently passed over and are moving, 
but, Mr. Bremer points out, we probably won't get to the end of 
the 25 list before June 30. Can either of you describe, in the 
security area or in the governance area, how these new leaders 
are coming together, so that there is at least, if not a smooth 
transition, some modus vivendi for people to talk, as opposed 
to a public row as to who does what and push-back by the 
Iraqis? Would you have a go at this to begin with?
    Mr. Armitage. I'd be glad to, Mr. Chairman. First of all, 
what Ambassador Brahimi is doing is finally coming up with a 
list that will be winnowed down to 30 names, and his suggestion 
is for a President, two Vice Presidents, Prime Minister, and 26 
Ministries, because it will include the Ministry of Defense, as 
well. He is also going around the country--he was in Irbil 2 
days ago, with the late Izzedine Salim, as a matter of fact--
talking with Iraqis about various lists of names, and winnowing 
them down. We've seen some of them. We haven't seen them all. I 
don't think it does any good to talk about them publicly, 
because what matters is not so much what I think or Paul 
thinks; it's what Iraqis think about those names.
    Once they are named, and we hope to have that done by the 
end of the month of May, perhaps the first week of June--and 
then the TAL annex, which we have spoken about in the past, the 
pen is held by Mr. Pachachi, and he and his colleagues will 
write the TAL annex, which will document the responsibilities 
of the Iraqi Interim Government.
    I don't expect that document to be extraordinarily 
voluminous, because this is not an elected government. Mr. 
Brahimi and Ayatollah al-Sistani and others have spoken about 
the need to run the day-to-day business of government, and not 
to be involved in long-term negotiations between the long-term 
agreements internationally, et cetera. So I would say that we 
have a month or so, roughly, to work with the Iraqi Interim 
Government, to make it very clear what sovereignty means. And 
it's not limited. They are sovereign. This will be encompassed 
or spoken to in the U.N. Security Council resolution.
    The Chairman. Secretary Wolfowitz.
    Mr. Wolfowitz. I don't have a lot to add to that. I agree 
with all of it. We view moving forward in security areas 
definitely as something that's going to be a partnership. So as 
soon as we know who our counterparts are, I think the kind of 
dialog that you describe is something that should take place, 
and hopefully before the actual date that the government takes 
over.
    You correctly said Iraqis look forward to taking more 
responsibility. I think you suggested that we look forward to 
them taking more responsibility. That's part of this whole 
process.
    One of the limitations, of course, is that this will not be 
an elected government. There will be an elected government at 
the end of this year, and I think Iraqis probably want this 
government to take more responsibility, but not too much.
    To be helpful, Mr. Chairman, we have an easel chart that 
lists some of the specific powers and responsibilities that 
would flow to this interim government, according, at least, to 
the Transition Administrative Law, and I think it bears out 
what Rich Armitage said, they are very extensive administrative 
responsibilities. But the most important task they have is to 
help organize and run elections for an elected Transitional 
Government at the end of this year.
    [The chart referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Chairman. On the point of elections, there would be 
some virtue, I would think, in having elections for somebody 
even prior to December. By that, I mean, a constitutional 
assembly. It might be persons with some regional powers. But it 
appears to me, at this point, that the legitimizing of Iraqi 
leadership through people voting for it--we have some votes on 
the board here--may be very important, despite the formality 
that we've been talking about, in December and January and then 
the following December and what have you, so that, in fact, 
there is a sense of sharing. If there are insurgents, if there 
are terrorists who don't like this situation, they're going to 
be shooting at Iraqis as well as Americans. There are going to 
be some Iraqi people up front with the supporting cast of 
Americans and the security and the governance situations, as 
opposed to the other way around. And it seems to me, without 
knowing precisely who the new leaders are going to be, what 
kind of responsibilities they have contemplated, how we could 
use the U.N. food rolls that the press may be more rough and 
ready than the fastidious work that we would like to see later 
on. Have either of you thought about that? And what comment do 
you have?
    Mr. Armitage. Mr. Chairman, the U.N. Representative for 
Electoral Processes, Carina Perelli, has been in Iraq since 
April, and she has been trying to set the atmosphere for these 
elections. The first task that she has undertaken is, again, 
garnering nominations from Iraqis themselves for the post of 
what we call Federal Election Commissioner, they would call 
Iraqi Election Commissioners, seven of them. And there will 
eventually be seven. She's winnowing down those names. They 
will be chosen by an international group of experts in 
electoral law. There will also be three Directors General, for 
a total of ten people. This is the first step in getting to 
where you want to be and where we all want to be in late 
December, early January 2004/2005.
    She has noted, as you have noted, that there's something 
contradictory about the ballot and the bullet, but she's also 
noted that in the spirit that she sees among the Iraqi people, 
that when they see that they actually are going to have a buy-
in and--that means a vote, a say--that their desire for this 
becomes much greater than the ability of enemies to defeat 
them. And she has noted past U.N. experiences in Timor and 
other places where elections took place in an atmosphere of 
some violence.
    There are many municipal elections and neighborhood council 
elections which are being held with stunning regularity, and 
I've got the number in this book, and I can't memorize the 
whole book--I think it's about 60,000 Iraqis hold some sort of 
elected position, some sort of position or another, not just in 
the Kurdish area, where you'd expect it, but throughout Iraq. 
And it's not a position that comes without some danger, because 
some of them have been assassinated, because they look like 
they might be leaders who could stand on a larger stage. So 
some of what you suggest is ongoing.
    The Chairman. Let me intrude before my time is up. To what 
extent will the Transitional Administrative Law that has been 
promulgated by the Governing Council now--that suggests 25 
percent participation by Iraqi women, as a minimum, the 
freedom-of-speech and the freedom-of-religion clauses, as well 
as other things that are very important, we hope, to Iraqis, 
and very important to us--what's going to happen to that? Is 
this the law as we proceed?
    Mr. Armitage. The so-called TAL, the Transitional 
Administrative Law, will be the law of the land, and it 
embodies a stunning array of rights never before held by the 
Iraqis, and it will last and cannot be amended except by a 
Transitional Government, which would be in place with the 
election of a 275-person National Assembly in January. They 
have the ability to amend laws. Now, I'm not going to say that 
it's perfect and I can guarantee you that women's rights and 
religious rights will be respected as we'd want them. But we've 
faced this in Afghanistan, we've faced it earlier this year, 
and we prevailed. And I believe we prevailed not because of the 
wisdom and the strength of our arguments, but because Iraqis 
hold their religion very dear, but they also hold the idea of 
secular government to be something very worthy. So I have some 
optimism we'll prevail.
    Mr. Wolfowitz. Mr. Chairman, if I might emphasize a point 
you made at the end of your question, that this is a key part 
of winning the military battle, as well. And, in fact, page 7 
of my statement, I got this quote from that notorious letter 
from that notorious terrorist, Mr. Zarqawi, where he says, 
``The problem is, you end up having an army and police 
connected to the people. How can we kill their cousins and sons 
after the Americans start withdrawing? This is the democracy. 
We will have no pretext.'' And then elsewhere he refers to that 
as ``suffocation.'' It's winning for us, it's losing for them.
    And, if I might add, too, the point Secretary Armitage made 
about elections, it was a very interesting report recently in 
the Guardian of London, that in some, I believe it was, 15 
local elections in southern Iraq, in most of those the 
Islamists lost the election, and I think that tells you 
something, also, about what Rich said, that these are very 
religious people, but that doesn't mean they want a religious 
tyranny imposed on them.
    The Chairman. Good point.
    Senator Feingold.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    First I want to thank the chairman and the ranking member for 
holding this important hearing, and to thank our witnesses for being 
here today.
    It is vitally important that this committee seek out and insist on 
answers from the administration about just where the path of current 
U.S. policy is leading us in Iraq, about what additional commitments of 
American resources will be made to this endeavor, and about whether we 
have a viable political strategy in Iraq and a plan for increasing 
burden-sharing. I want to hear about all of these issues today. I want 
to hear about the implications of the sarin-filled artillery shell 
found over the weekend, and the murder of the President of the Iraqi 
Governing Council yesterday. I want to hear about where we stand in 
getting a transitional government in place in time for next month's 
transition. Most importantly, I want to hear about how U.S. policy in 
Iraq is affecting our capacity to protect our national security and 
pursue our national interests overall. So in many senses I eagerly 
await the testimony of our witnesses.
    But there are a few things I don't want to hear today. I don't want 
to hear that attacks on our troops and terrible instability in Iraq are 
actually somehow positive indicators that we are on the right track. 
And I don't want to hear that reasonable estimates of the scope and 
scale of the U.S. commitment in terms of troops, timelines, and 
taxpayer dollars are utterly unknowable. We have heard all of that 
before, and the American people--especially the brave men and women in 
uniform who are making great sacrifices on the ground--deserve so much 
better than obfuscation or misguided, wishful thinking. The stakes are 
terribly high, the current indicators are deeply troubling. Getting our 
policy right must start with honesty about what is wrong. We cannot 
afford to wait another day.

    Senator Feingold. Thank you, Mr. Chairman.
    Let me first thank all of you, and especially Secretary 
Armitage and Secretary Wolfowitz, for being before us today. It 
has always been important for you to appear before this 
committee as often as possible, but let me suggest that I hope 
this is the beginning of a pattern. The American people, as you 
know, are extremely irate and concerned about what is happening 
in Iraq, and I think I can honestly say it goes all the way 
across the political spectrum. There has never been a time when 
we need your answers and your guidance more, and I am hoping 
this is the beginning of a very regular opportunity to have 
contact with you and ask these kinds of questions.
    Secretary Wolfowitz, I want to ask you again how long we 
can reasonably anticipate needing a substantial U.S. troop 
presence in Iraq. I know that you can't give me an exact 
timeframe. We've been through this before. But since our forces 
are on the ground training Iraqi security forces and, 
therefore, we are in an excellent position to judge their 
capacities and to estimate how long it will be before they can 
provide for their own security, I would think you would be able 
to give me at least a reasonable estimate. We've seen that 
slap-dash efforts to train and deploy Iraqi security forces can 
lead to dangerous failures and instability. So I guess what I 
want to know is, how long will it take to properly train Iraqis 
such that they'll be able to provide for their own country's 
security? And for how long will security be primarily the 
responsibility of U.S. forces?
    Mr. Wolfowitz. Senator, you know, because you've said it in 
your question, the course of war is simply not something one 
can determine. We can say, I think, with reasonable confidence, 
that we have a plan underway to train and equip and organize 
very substantial Iraqi security forces by the end of this year. 
We finally have the various obstacles to funding, I think, 
unblocked. I hope that's true. There have been some critical 
delays that have done harm. We have unity of command for doing 
this, all the five Iraqi security forces will be--training and 
equipping and organizing of them--will be the responsibility of 
a single lieutenant general, who happens to be the general who 
commanded for a year up in Mosul in Northern Iraq, with Iraqi 
security forces. In fact, it performed impressively in the 
fighting in the last month. So I think we're on a course to 
substantial Iraqi security forces by the end of this year. But 
I can't tell you how strong the enemy will be. I can't tell 
you--predict exactly how things will go. But our goal is to put 
responsibility in their hands as quickly as we can, and not too 
rapidly to create problems.
    Senator Feingold. So if I were to look at a memo where 
you're planning your goals, and the goal was stated that by the 
end of this year the United States will no longer be primarily 
responsible for the security, is that a realistic goal?
    Mr. Wolfowitz. Senator, that's more than what I just said. 
What I said is, there will be substantial capable Iraqi 
security forces by the end of this year, we believe. That's our 
plan. How much they will still need help from the United 
States, I can't predict. We want it to be as little as 
possible. And I'll give you, sort of, real examples. In some of 
the fighting in recent weeks, Iraqi security forces have 
performed well, have been able to do things like going into 
mosques to seize weapons supplies. That's something that we 
would always prefer be done by Iraqis and not by Americans. In 
the fighting I referred to up in Mosul, where the enemy 
attacked the government house, the Governor, who, by the way, 
is a Sunni Arab, stayed there through the night, through the 
fighting. The police initially left, because they were 
outgunned. The Iraqi Civil Defense Corps stayed and fought, 
fought off the enemy. The police came back. Through all of it, 
they were in touch with General Ham, who commanded the American 
forces there. And I'm quite sure that the knowledge that 
General Ham was there to back them up if needed probably 
emboldened them and gave them courage. And that's the kind of 
arrangement we need to have.
    We're in this to win, as I think you agree, and winning 
means having the Iraqis take as much responsibility as they 
possibly can, but also not putting them too far, so far out in 
front that they fail.
    Senator Feingold. Thank you, Mr. Secretary.
    Let me ask a question about the transition. Let me start 
with Secretary Armitage. When the CPA ceases to exist, what 
authority will take over the implementation of the $20 billion 
reconstruction program that has been financed by the U.S. 
taxpayer? Who's going to be in charge of that? And I'd like to 
also hear Secretary Wolfowitz's feelings on it.
    Mr. Armitage. All appropriated U.S. moneys, sir, the Chief 
of Mission, John Negroponte, will have the responsibility for 
it. For Iraqi money, which will be theirs, and they'll have 
responsibility, and they can contract with whomever they like.
    Senator Feingold. So the Ambassador will be in charge of 
the entire $20 billion?
    Mr. Armitage. Correct.
    Senator Feingold. Secretary Wolfowitz, do you concur with 
that?
    Mr. Wolfowitz. I do. I'd point out that Iraqi funds are 
very substantial.
    Senator Feingold. So the State Department will now have 
authority over the reconstruction funds. That's correct, isn't 
it?
    Mr. Armitage. That's correct.
    Senator Feingold. Secretary Armitage, when do we expect to 
see a new Security Council Resolution on Iraq, and what will 
be, in your view, the substance of the resolution?
    Mr. Armitage. We and our friends on the Security Council 
are desirous of moving forward shortly after we find the shape 
and the names of a new Iraqi government. We think it would be 
very important to have as one of the elements of the U.N. 
Security Council Resolution support for that Iraqi Interim 
Government [IIG]. Other elements which may very well find 
themselves in this will be end of occupation, make a 
declaration of sovereignty for Iraq, make it clear that Iraqi 
assets, particularly oil assets, belong to Iraqis and would be 
managed by them, discuss security, though we don't feel we need 
more, if you'll allow me to use the term, ``international 
cover,'' and we think it's a very good thing and it'll be very 
helpful for many of the other Security Council Members to have 
a specific reference to security arrangements in Iraq during 
the time of the Interim Iraqi Government. Those are some of the 
things. There might be other elements. Everyone's got different 
ideas. But I'm pleased to say in the consultations informally 
in New York, and more recently that Secretary Powell had with 
the G-8, there was a pretty good comity of views. So I find 
everybody's within a certain box, and I think we'll be able to 
do this pretty well.
    Senator Feingold. Thank you, Mr. Secretary.
    Followup to Secretary Wolfowitz, there are reports that 
Iraq, our troop strength in Iraq, will remain at about 135,000 
troops until the end of 2005. Is that report inaccurate?
    Mr. Wolfowitz. We don't know what it'll be. We've had 
changes, as you know, month by month, we have several different 
plans to be able to deal with the different levels that might 
be required. Our current level is higher than we had planned 
for at this time this year. I have no idea what it'll----
    Senator Feingold. So it could well be accurate, then.
    Mr. Wolfowitz. It could be. It could be more, it could be 
less, Senator.
    Senator Feingold. Thank you.
    Secretary Armitage, I've served, as you know, on this 
committee and on the Subcommittee on African Affairs for almost 
12 years. One name that keeps coming up and is very familiar is 
the name of Victor Bout, because he appears at the center of 
illicit arms trafficking that has fueled devastating conflicts 
in Angola, Sierra Leone, Liberia, and elsewhere. Is Victor 
Bout, or any firm associate with Victor Bout, providing air 
freight services for Coalition forces in Iraq, as the Financial 
Times alleged in an article published yesterday? Has the United 
States opposed, including Bout on an asset freeze list being 
compiled by the United Nations, which targets individual who 
were involved with the criminal regime of former Liberian 
President Charles Taylor? And if so, why?
    Mr. Armitage. As you, I have seen the name Victor Bout. I 
believe he's a Ukrainian arms merchant, merchant of death. I 
certainly hope what you suggest is not true. And as far as I'm 
concerned, he ought to be on any asset freeze list and anything 
else you can do to him.
    Senator Feingold. So would you followup with me on any 
awareness of that, that might be available from the State 
Department?
    Mr. Armitage. Of course.
    Senator Feingold. Mr. Secretary Wolfowitz, do you know 
anything about the question I just asked with regard to Mr. 
Bout? Has he been involved with providing air freight services 
for Coalition forces in Iraq?
    Mr. Wolfowitz. I don't know more than what you and 
Secretary Armitage know, but I share your concern about it, and 
I will work with Secretary Armitage to look into it and try to 
fix the problem if there is one.
    [The following information was subsequently provided:]

                         United States Department of State,
                                Washington, DC 20520, June 2, 2004.

The Honorable Russ Feingold,
Committee on Foreign Relations,
United States Senate.

    Dear Senator Feingold:

    Deputy Secretary Armitage has asked that I respond to your question 
of May 18 regarding the U.S. position on including Victor Bout on a UN 
asset freeze. We support the designation of Bout for the asset freeze 
in accordance with UN Security Council Resolution 1532, as well as his 
designation under any other applicable sanctions measures.
    Resolution 1532 was adopted unanimously on March 12 to prevent 
former Liberian President Charles Taylor, his immediate family members, 
senior officials of the former Taylor regime and Taylor's close allies 
or associates from using misappropriated funds and property to 
interfere in the restoration of peace and stability of Liberia. Bout 
was a major supplier of arms to former Liberian President Taylor and, 
as noted by a recent UN experts' report, it would be possible to 
reactivate quickly the former weapon supply networks, a step which 
would have ``grave implications for peace in Liberia.'' We believe that 
designating Bout as subject to the assets freeze will impair Taylor's 
potential access to arms, and assist in the restoration of peace in 
Liberia.
    With regard to your question on whether Viktor Bout or any 
enterprise associated with Viktor Bout is providing air freight 
services for coalition forces in Iraq, we are researching Department of 
State procurement records to look at any air freight services we have 
contracted in this regard. Preliminary results of this research into 
Iraq freight contracts are negative, but we have not yet completed this 
effort and are sending a cable to overseas posts to be certain we have 
complete information. We will update you when we have completed our 
investigation of State records. We cannot speak for DOD/CPA, which 
handle the larger portion of contracting for Iraq.
    In connection with our data search, however, we would like to 
inform you that we did identify two cases in which a freight forwarder 
under contract to the Department subcontracted without our prior 
knowledge, for freight service to destinations outside of and 
unconnected to Iraq, with air charter services believed to be connected 
with Viktor Bout. In view of this, we will send instructions to posts 
and Despatch Agencies overseas to ensure that contracts with freight 
forwarders preclude any use of entities connected to Bout. Should you 
require further information, we would be happy to arrange for a 
classified briefing.
    I hope this information is helpful to you.

            Sincerely,
                                     Paul V. Kelly,
                                       Assistant Secretary,
                                               Legislative Affairs.

    Senator Feingold. Thank you.
    Mr. Wolfowitz, in the lead-up to the war in Iraq, I 
repeatedly raised questions which I felt were never 
satisfactorily answered about what exactly the plan was for 
dealing with weapons of mass destruction in Iraq. And given the 
number of troops we had on the ground when Baghdad fell, and 
the wide-scale looting that ensued, I have remained uncertain 
that a viable plan for securing this material ever existed. 
Lately, concerns about WMD in Iraq have fallen out of favor in 
the administration's remarks about Iraq, because, at least as 
far as we could tell, we've not found what was advertised. But 
yesterday, as you know, we learned that an artillery round 
containing sarin gas was employed as an IED near Baghdad 
International Airport. I'm wondering what this means to you, in 
terms of what we did and what plans we had for securing any 
weapons of mass destruction as we entered Iraq and entered 
Baghdad.
    Mr. Wolfowitz. Well, in fact, as I think--I know we've 
briefed the Armed Services Committee in detail, and we had very 
extensive plans that transformed into what was called the Iraq 
Survey Group to find the weapons of mass destruction, to locate 
them, to make sure, to the best of our ability, they didn't 
leak out elsewhere. And when David Kay stepped down, one of the 
reasons why we felt it was very important to continue the work 
of the Iraq Survey Group is not only to find out what may have 
happened to those things, but also to secure them if they're 
around. And I would note, also, according to Stuart Cohen, at 
least, who was the national intelligence officer who prepared 
the NIE, that some 2,000 Iraqi officers were deliberately 
looting files and hard drives and so forth during the fall of 
Baghdad. So there was some pretty active work on their side, 
apparently, at trying to destroy at least records. I don't know 
any more than what you've read in the newspapers about this 
device that has been discovered. It is obviously something that 
we're very concerned about, and we're going to try to find out 
about it as much as we can.
    Senator Feingold. Mr. Chairman, I'm sure my time's up. Let 
me just conclude by saying a number of us started, in late July 
and early August of 2002, to raise these very questions, to ask 
what was the plan with regard to a possible negative reaction 
from the Iraqi people, and also, specifically, what was the 
plan with regard to securing any weapons of mass destruction. 
I, frankly, feel we were never given real answers to that, and 
I have a feeling it's because there wasn't a serious plan. And 
I think, at this point, we're paying a serious price for it.
    But I do thank the witnesses for their answers. And, 
Secretary if you'd like to respond----
    Mr. Wolfowitz. Senator, there was a serious plan I'd be 
happy to give you for the record, the full table of 
organization and the number of people that were planned to do 
it. A lot of thought went into it. It may not have been 
perfect, but there was a lot of work done on it.
    Senator Feingold. Well, I wish that we had been told about 
these plans, because whenever we made an effort to ask about 
it, we were just told to trust you, and we didn't get the 
assurance that we needed. But I would like to receive those 
materials.
    [The following information was subsequently provided:]

    The material provided was classified. [Deleted]

    Senator Feingold. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Gentlemen, welcome.
    Secretary Armitage, going back to the question Senator 
Feingold asked regarding a new U.N. resolution, how necessary 
is a new U.N. resolution as we move toward June 30?
    Mr. Armitage. It's very desirable. It's not exactly 
necessary, except in political terms. I think politically this 
will find great favor with our major Security Council partners, 
both the P5 and the elected ten, and I think it makes a rather 
dramatic point to the Iraqi people, sir.
    Senator Hagel. Well, politically speaking, as we all know, 
that's the essence of the effort here. If we lose the Iraqi 
people, we've lost.
    Mr. Armitage. Exactly.
    Senator Hagel. So I would hope that there is serious work 
being done now on working with our allies on getting a new U.N. 
resolution. You can assure this committee that's being done.
    Mr. Armitage. I'll assure the committee, I'll assure you 
personally it is being done, and it's being done almost on a 
daily basis.
    Senator Hagel. Thank you.
    What additional resources could we expect from our 
partners, those not now participating in the effort in Iraq, 
if, in fact, we were able to get a new U.N. resolution? 
Resources, meaning troops, meaning money, meaning training. Are 
we anticipating that?
    Mr. Armitage. Let me parse it, if I may, Senator. We would 
be desirous of getting greater NATO involvement, although 17 of 
the 26 NATO countries are on the ground with us in Iraq. There 
aren't large numbers of ground forces in NATO. Only the French 
have large ground forces. I think it's very unlikely that they 
may be involved.
    One possible involvement for them on the ground might be if 
the U.N. Security Council resolution there's a call to provide 
forces to protect the U.N. as they go about their business of 
elections, et cetera, and that might be something that might 
find some favor.
    We would be desirous of engaging NATO in greater talks, 
particularly about providing headquarters, perhaps where the 
Polish division has been, something of that nature. But I 
think, in candor, it's a little premature.
    A new U.N. Security Council resolution could possibly 
encourage some of the South Asian nations to step up a little 
more, and that would certainly be a target of opportunity.
    Senator Hagel. What about Middle Eastern countries?
    Mr. Armitage. I think it's unlikely. We've had discussions 
recently with King Abdullah, and I went around to the gulf, who 
didn't specifically ask for forces, but there's a lot of 
neuralgia that exists in Iraq evolving around the neighbors, 
and I think it might be a little premature.
    Senator Hagel. Thank you.
    Mr. Wolfowitz. Senator, I might add that we've been asking 
NATO for help, actually going back to December 2002--I did when 
I was in Brussels--and specifically said even those countries 
that may not support the war could contribute afterwards to 
reconstruction. But as Secretary Armitage said, their capacity 
has, unfortunately, declined substantially over the last 10 
years, and even in Afghanistan, where NATO has an important 
role and has made a lot of commitments, they're having some 
trouble meeting some of their commitments, even in Afghanistan.
    Senator Hagel. Thank you. Let me take that point, Mr. 
Secretary, and ask about the reports, which I understand are 
accurate, that we will be moving 3,600 American troops from 
Korea into a brigade, the second division, into Iraq. Was that 
planned?
    Mr. Wolfowitz. It was--let me put it this way, we have been 
discussing for some time with our Asian colleagues, with the 
Congress, the whole restructuring of the U.S. global footprint. 
We have already made some adjustments to our posture in Korea, 
in both directions. We've moved troops off of the DMZ, where, 
frankly, they were performing nothing except a kind of useless 
and, indeed, I would say, counterproductive trip-wire function. 
We are investing a great deal in increasing our capability to 
reinforce Korea, to the tune of, I believe the number is--well, 
it's over $10 billion of various force improvements. But it was 
concluded, over a year ago, that it was long overdue to reduce 
the strain on our Army that comes from having these continuous 
1-year unaccompanied tours in Korea. So we had planned on some 
reductions. We need a brigade, an extra brigade, in Iraq, and, 
in fact, the brigade in Korea is ideally suited for that.
    Senator Hagel. My understanding is that this will mean 
that, for this brigade moving to Iraq from Korea, it's an 
additional 12-month commitment in addition to the unaccompanied 
12-month commitment they have just finished. Is that right?
    Mr. Wolfowitz. Do you know, General Sharp?
    General Sharp. It will be a 12-month commitment, sir. As 
you know, we rotate troops into Korea on a continuous basis, so 
about half of them will have been in Korea already 6 months. So 
some of the tours will be very short, they will be 12 months; 
others will go up to a maximum of 23 months.
    Senator Hagel. Thank you.
    So this was discussed with the Congress, the possibility of 
moving a combat brigade from Korea into Iraq. Is that what you 
just said, Mr. Secretary?
    Mr. Wolfowitz. With the leadership of the committees, yes.
    Senator Hagel. So Senator Warner and Senator Levin were 
consulted on this, and they knew about it.
    Mr. Wolfowitz. Either they or their staffs were, yes.
    Senator Hagel. They or their staffs knew about it?
    Mr. Wolfowitz. I have been told that, yes, sir. And I 
consulted with several Senators.
    Senator Hagel. Thank you.
    Mr. Wolfowitz, how will prisoners, detainees, be handled 
after the transition of government in Iraq?
    Mr. Armitage. May I, Senator?
    Senator Hagel. Secretary Armitage.
    Mr. Armitage. Right now, two classes. There are prisoners 
of war, and there are criminals. Criminals are handled right 
now by Iraqis. The management of the military prisons is that 
the U.S. military is working with the Ministry of Justice and, 
after the turnover, it is my understanding that we want, as 
rapidly as possible, to put those into the hands of Iraqis.
    Senator Hagel. As rapidly as possible. Do we have any idea 
what that means?
    Mr. Armitage. I don't have that, sir.
    Senator Hagel. Does anybody?
    Mr. Wolfowitz. I don't.
    Senator Hagel. It's a fairly significant issue, as we all 
know. There's been a little attention brought to this issue the 
last few weeks, and I would have thought that this government 
would put some time into this, especially what we've just been 
through the last 2 weeks. Can someone get back to the committee 
with some plan?
    Mr. Wolfowitz. We absolutely will. We agree with you on the 
importance of it, Senator.
    [The following information was subsequently provided:]

                         United States Department of State,
                               Washington, DC 20520, June 18, 2004.

The Honorable Chuck Hagel,
Committee on Foreign Relations,
United States Senate.

    Dear Senator Hagel:

    I would like to follow up on an exchange between you and Deputy 
Secretary Armitage at the May 18 SFRC hearing on Iraq. You asked for 
more information on how detainees will be handled after the June 30 
transition.
    There are several categories of detainees currently under Coalition 
control, the most important of which are High-Value Detainees (HVD's) 
and security internees. HVD's number less than 100 and are comprised 
primarily of former regime officials, including Saddam Hussein. A small 
number of foreign fighters have also been captured. Security internees 
are individuals detained by coalition forces in the course of counter-
insurgency operations. There are currently several thousand security 
internees; they comprise the majority of detainees in Iraq.
    The Multinational Force (MNF-I) will have sufficient legal 
authority under international law to detain suspected insurgents after 
the June 30 transition. However, we believe that, as a matter of 
principle, the incarceration of Iraqis on Iraqi soil is a matter for 
which Iraqi government authorities should assume responsibility. 
Therefore, as Mr. Armitage told you in the hearing, we are working to 
develop a process for the orderly transfer of authority over detainees 
to the Iraqi government.
    Both the CPA and Major General Miller are working hard in Iraq to 
build Iraq's capability to manage detainees, including training guard 
forces and putting in place judicial mechanisms to ensure internees are 
subject to due process. For Saddam and other senior Iraqi implicated in 
atrocities against the Iraqi people, we are working with the JIG to 
identify a suitable holding facility or, if necessary, construct one.
    Our approach to working through these complexities is based on 
three principles. First, we need to respect Iraq's sovereignty and the 
inherent responsibility for its citizens. Second, those who have 
committed crimes against the Iraqi people or the Coalition should face 
justice in an Iraqi-led process. Third, the continuing safety and 
security of the Iraqi people and the MNF forces is paramount.
    We are engaging PM Allawi and his government to develop a 
coordination mechanism between the MNF and the Iraqi government 
officials on transferring detainee operations to Iraq based on the 
three principles listed above.
    I hope you find this information useful. More details will take 
shape as we discuss transitional arrangements in the coming weeks with 
the newly appointed government. We will gladly keep you and your staff 
apprised.

            Sincerely,
                                     Paul V. Kelly,
                                       Assistant Secretary,
                                               Legislative Affairs.

    Senator Hagel. Thank you.
    Secretary Wolfowitz, Secretary Armitage, you know, about 
the latest Washington Post stories regarding polls. Now, I 
don't subscribe completely to polls, but just for everyone's 
quick review here, last week the Washington Post reported, on a 
recent poll conducted by the CPA, 80 percent of Iraqis lack 
confidence in the CPA, 82 percent disapprove of the United 
States and allied militaries in Iraq; furthermore, 45 percent 
of those polled in Baghdad, 67 percent polled in Basra, said 
they backed Muqtada al-Sadr. This was before the prison abuse 
issue. Then there was a subsequent poll taken, as well. How 
concerned are you with these numbers? Do you believe these 
numbers?
    Secretary Wolfowitz.
    Mr. Wolfowitz. I think we are concerned about them. And, in 
fact, the reason why we have wanted to move toward Iraqi self-
government is so that the Iraqis feel that its their people who 
are running their country, it's their security forces that are 
dealing with their country. As you say, it's hard to know the 
reliability of polling data, and especially in a country where 
people are, to put it mildly, not used to telling the truth to 
anyone, although it is striking how some of these polls do seem 
to show important things. One of them is a poll that I've seen 
that shows very rapidly declining approval of our forces, but 
pretty steady confidence in Iraqi security forces. I think it 
says that we're on the right track in moving as rapidly as we 
can to Iraqi self-government and Iraqi self-defense. We don't 
have an infinite amount of time, though.
    Senator Hagel. Thank you.
    Secretary Armitage.
    Mr. Armitage. As with Paul, I'm very concerned about it. I 
would note, though, usually if you look at the question a 
little more closely, it's, ``We'd like you out of here, but not 
now.'' Our forces, who are operating around Najaf anaconda-
like, closed in a bit on Muqtada al-Sadr, have found the people 
coming out thanking them for these activities. So we're very 
concerned, but I think it's a more complicated picture than 
that poll would represent.
    Senator Hagel. Let me ask you both this. Do you believe a 
rising sense of nationalism in Iraq, if that's happening, is a 
result mainly of a target of the United States or an anti-
American sense as much as anything else that may be occurring?
    Mr. Armitage. My understanding of Iraq historically is 
they've always had a good sense of themselves and their place 
in the region, in the world, and at one time as the center for 
science and alphabets and things of that nature. So I don't 
think it's a direct result of this.
    Senator Hagel. Just the anti-Americanism.
    Mr. Armitage. The reputation of the Arab----
    Senator Hagel. You don't think is an anti-Americanism.
    Mr. Armitage. No, I don't. I think it's the reputation in 
the Arab world has historically been a very scrappy, tough 
people.
    Senator Hagel. Thank you.
    Secretary Wolfowitz.
    Mr. Wolfowitz. I would agree with that. And I think 
overwhelming numbers of them are nonetheless, whatever their 
feelings about our staying in Iraq, grateful that we helped 
them to remove a terrible dictator.
    Senator Hagel. Let me ask a question about sovereignty 
which you have both noted. A couple of pieces. One, what will 
be the role of the Department of Defense, come July 1? And the 
second part of that is, what, in fact--and I see your charts 
here--but what, in fact, is the power of this new government 
yet to be determined, undefined--we don't know who they are--as 
to security? I see, in the Washington Post this morning, a good 
friend of the Defense Department, Ahmed Chalabi, who is an 
Iraqi Governing Council member, says the Iraqi government must 
have exclusive and complete control over the army and all 
security services of Iraq, come July 1. So if you would both 
handle each of those parts.
    Secretary Armitage.
    Mr. Armitage. Yes, Senator, thank you.
    Iraqi forces will work for an Iraqi general, who will work 
for the Ministry of Defense. They will work in partnership with 
Coalition forces, under the unity-of-command theory, for a U.S. 
general. The real question that you're asking is: Can they opt 
out of an operation if they don't want to, or something of that 
nature? And the answer has to be yes.
    But, if I may, this is not very unusual to us. If you can 
think back to a fellow you all know, by the name of Wes Clark, 
who in Kosovo, when told the Russians were heading for the 
Kosovo Airport, told his British counterpart who worked for him 
to go stop them. The British said, ``No, I think I'll check 
with headquarters for guidance on that issue,'' and he didn't 
do it. So there will be a lot of management, sort of, alliance/
coalition/partnership management as we go forward, but they are 
sovereign, and they'll be in charge of their forces.
    Senator Hagel. Thank you.
    Secretary Wolfowitz.
    Mr. Wolfowitz. I agree exactly with what Rich just said.
    Senator Hagel. OK, well, that makes it easy, thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you very much, Senator Hagel.
    We welcome now the distinguished ranking member of the 
committee, and we're grateful he has surmounted the obstacles 
presented to him this morning.
    Senator Biden. This is a hearing on funding for Amtrak, 
isn't it?
    All the trains out of New York, Mr. Chairman, today, were 
exceedingly late, and I do apologize, because it is a very 
important hearing, and I appreciate you calling it and our 
witnesses being here.
    May I have permission to make my opening statement and then 
to save my questions until the next round so I do not use my 
time for a statement at this point?
    The Chairman. Please proceed.
    Senator Biden. And I apologize, gentlemen, for not hearing 
your statements. You, as well, general.

           OPENING STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.,
                             RANKING MEMBER

    Senator Biden. From my point of view, notwithstanding the 
meeting last week with the President, which I truly 
appreciated, I don't think things are going all that well in 
Iraq, notwithstanding that our people have performed miracles 
opening schools and hospitals and restoring some oil production 
and setting up local councils. But these successes, I think, 
have been dwarfed by two towering deficits that the 
administration created--a security deficit and a legitimacy 
deficit. And the result, I think we're losing support, as 
Senator Hagel suggested, although I'm not associating him with 
my remarks--I don't want to get him in trouble. But we're 
losing the support of the Iraqi people.
    When I get a round of questioning, have an opportunity, I'd 
like to know what our strategy is to erase those deficits, the 
deficits in security and legitimacy, because I think both are 
needed to be erased in order to build a successful plan.
    Success, in my judgment, and this is what I told the 
President, would be a stable Iraq--secure within its borders, 
with a representative government that doesn't threaten its 
neighbors or threaten us. I'm convinced that we can defeat the 
insurgent forces. But while military superiority is essential, 
I don't think, quite frankly--and I don't think you all do 
either--it's enough. We also need an effective political 
strategy. And based on a very brief briefing I got from my 
staff on your opening statements, although I'm sure they were 
necessarily truncated, my chief concern is, first, whether we 
have one, and my second concern is, we appear to have lost the 
Iraqi people.
    As Senator Hagel said, 82 percent of the Iraqi people 
oppose our presence, although some pockets may very much want 
us to stay. They're in a conundrum, as the President said in a 
different context. He can understand why they'd chafe at 
occupation. They know they have to have these forces in order 
to prevent a civil war from occurring, but they don't like the 
forces being there. And only 23 percent support the Iraqi 
Governing Council. At the same time, as Senator Hagel pointed 
out, al-Sadr gets alarmingly high marks at least in two major 
cities. And I would suggest these numbers would be worse if 
this poll had been taken after the debacle at the prison.
    So my question is, how do we reverse this downward dynamic? 
I think we have to go back to first principles. The first is, 
and I'm sure we agree, we can't want freedom for the Iraqi 
people more than the Iraqi people want it, and that's what the 
silent majority in Iraq seeks, I believe--freedom. I believe 
the polls all show, as well, that they neither want an Iranian-
style theocracy, nor do they want another strongman. But after 
being brutalized for three decades, they've learned to keep 
their heads down, that middle, that 65 to 80 percent of the 
people, if it's that high. It seems to me we have to create the 
conditions that encourage them to raise their heads. The Iraqi 
people must have more security in their daily lives, and they 
must believe that there is a legitimate plan to return 
sovereignty to them, and that it makes sense.
    Second, it seems to me we have to square the circle between 
the need for significant international support for years to 
come, both political, economic, and security, and their growing 
frustration with U.S. occupation, or any occupation, for that 
matter. And I think that requires investing our European and 
Arab allies more heavily in Iraq today and working with them to 
prepare Iraqis to take back their country tomorrow. As it 
stands, the Iraqis are going to wake up on July 1, after the 
so-called transfer--and I'm not belittling that--of some form 
of some sovereignty to a group of people whom they don't know. 
There's going to be no single national figure. There's going to 
be no George Washington, there's no Madison, there's no 
Benjamin Franklin as part of this. And so they're going to wake 
up, and the bulk of the Iraqi people are not going to know the 
bulk of the people in this new government, although I believe 
it will be viewed regionally as more legitimate. They're going 
to see 140,000 troops, Americans, with American patches on 
their shoulders still patrolling the streets, and a new super-
Ambassador, who they're going to suspect, I think, is going to 
be the one pulling the strings in a cast, as I said, of 
unelected and relatively unknown political figures. That's not 
in any way to denigrate the capacity or the integrity of those 
who will be chosen.
    And it seems to me we have to change that dynamic. And in 
order to do that, the President has to articulate a single 
overarching goal that everybody can understand. And I think 
this presents a significant opportunity for the President to 
state a goal that everyone can rally around, and a rationale. 
And the goal should be that our job, and the international 
community's job, is to hold successful elections in November of 
2005. We want a civil election and not a civil war in December 
2005. And I believe these elections should be the rallying 
point within Iraq--and, quite frankly, outside of Iraq--to 
build security and legitimacy. I think it's a rationale for 
European leaders who know they have a great stake in success or 
failure in Iraq to be able to justify to their people why 
they're there, with an implied end date to it. Not a literal 
end date, an implied end date. I believe it provides a 
rationale as well for Arab leaders to join in the effort. I 
also believe that it provides a rationale for the Interim Iraqi 
Government to be able to speak to interlocutors to actually 
cooperate with this new military force, this old military force 
hopefully with a new face.
    Because I asked the President in our meeting, I said, Mr. 
President, we're all just plain old politicians. Imagine if 
you're about to be appointed to an interim government, and you 
want to be a permanent, or at least an elected, official 
running that country 13 months from now, or 16 months now, and 
82 percent of the people say, I hate the outfit that you're 
dealing with. What are you going to do? I'm just a plain old 
politician, Mr. Secretary. You ain't gonna talk to 'em. You're 
not going to be seen as cooperating with them. It will 
guarantee your defeat.
    Now, this is the only thing I probably do know more than 
all you guys, just plain old politics. And so we've got to 
provide them a rationale. Why are they going to be cooperating 
with, no matter what the face is, a U.S.-led and dominant U.S. 
presence. And I think this election process as a rationale for 
our staying cannot be repeated enough, in my view.
    I also think it would be a strategy that the American 
people could understand, and could understand that there's an 
end date. Not a definite date, not a date to say, we're out of 
here by such and such, but there is a strategy that is able to 
be articulated that the American people are smart--and they can 
understand. We had a hearing here last summer after the report 
done by John Hamre, the former controller of the Defense 
Department, on the closing window of opportunity in Iraq, 
meaning the Iraqi people. The three of us said basically, ``The 
window of opportunity in America is closing.'' In America, it's 
closing.
    And, fellows, we're all about the same generation. Once the 
folks decide this ain't gonna work, I don't care how brilliant 
any of us are, I don't care how wonderful any plan we have is, 
it ain't gonna work without the informed consent of the 
American people.
    So I think the President has an opportunity, and only the 
President can lead in this regard. And I would respectfully 
suggest the first order of business should be to form a contact 
group who would give those whose help we're seeking a seat at 
the table on the political decision. And this includes the 
major powers in Europe, it includes the Security Council--not 
as a security council--and it includes our Arab allies, who 
have a great deal to lose, and the incoming Iraqi government. 
And I respectfully suggest that the President publicly call a 
summit of those folks. Get on the plane, go to Europe, pick a 
venue, meet--he could meet with the G-8 a little bit--meet, 
meet, find out what the deal is, how we get them involved.
    Second, the enormous logistical security requirements for 
elections are going to require a surge of security forces. It 
required that in Bosnia, it required that in Kosovo, it even, 
in a sense, requires that in Afghanistan. And we're not quite 
doing it the same way, but it required it. And the President 
should seek, I believe, agreement for NATO to take over 
multinational security forces under U.S. command. I know, 
fellows. You know. We go back a long way, Mr. Secretary, about 
30 years--you a staffer, and me essentially a staffer, a 29-
year-old United States Senator is equivalent to being a 
staffer, only staffers knew more in those days. And notice I 
said ``those days.''
    But the point is, we know there's never been a single 
serious plan NATO has initiated that we haven't carried over to 
Brussels. Never. Never. So as that old song goes, ``What's the 
plan, Stan?'' We ought to show up.
    Now, I have met with a lot of your former colleagues. I've 
met with a total now of seven four-stars, and I meet with them 
regularly in conferences. Every single one of them, reflecting 
various points of view in the military, believe if the 
President says, ``This is the deal I want,'' sits down, hammers 
it out at the NAC--authorizes you to hammer it out at the NAC--
we can get a NATO-led mission. It's only going to be 3,000 to 
7,000 forces over the next several months, but a NATO-led 
mission. That's an important, symbolic, and substantive change, 
in my view.
    So I believe that the President should ensure this new U.N. 
resolution you all talked about authorizes a NATO-led security 
force, supports the Brahimi plan for a caretaker government and 
elections, endorses a senior rep to be Iraq's primary 
international referee in what are going to be serious disputes 
between July 1 and the end of January 2005, when these 
elections are supposed to be held. Were this to occur, I 
believe we might find participation with countries such as 
Pakistan, Morocco, India--maybe even India, although I don't 
know now, in light of recent election results.
    And, once named, the incoming government should be invited 
to participate in drafting this resolution, in my humble 
opinion. Iraqis should see its members, not new ambassadors. 
And I have great respect--don't anybody in the press translate 
this as a knock on Ambassador Negroponte; it's not--but I don't 
want to see Negroponte's face, I don't want to see General 
Kimmitt, who's a great American--I don't want to see their 
faces ever again on Iraqi television. Let's see Iraqis' faces 
speaking the language without an accent on television. And I 
think we have to spare no effort to help the Iraqis field an 
effective security force.
    I notice you said, Mr. Secretary Wolfowitz, that the Iraqi 
forces are gaining some confidence. Even though it's water 
under the bridge, I don't know why we don't have a massive 
effort to train Iraqis using the officers that were originally 
made by the French and the Germans and others. We're already 
doing it in Jordan--American-trained Arab forces training the 
Iraqis, because I think you're right, this is an essential, 
overwhelming need. And I think we have to spare, as I said, no 
effort to help the Iraqis field this force. And we should be 
inviting European and American-trained Arab officers to 
participate in that training, beyond what we've done.
    And the last thing, Mr. Chairman, and I will end, the 
President, I think, also has to make a gesture as dramatic and 
consequential as the symbolic damage done when, in fact, the 
prison scandal broke. Mr. Chairman, I know you've heard me say 
this before but I believe the President should go to both these 
Secretaries and say, find me the remaining 100 or 200 most 
qualified men and women we have in the government that have any 
background in quasi-military-police work. Go vet every one of 
the 8,000 prisoners, release every damn one that's not a 
security risk, if there's a doubt. Be seen to be releasing 
them. Sit down with the interim government, ask them what 
plan--for permission, because we want to ask their permission, 
to bulldoze down that damn prison, bulldoze it to the ground. 
That will cause us big problems, finding room for 2,000 people 
somewhere. And ask them what they want to do with this symbol 
of tyranny. Do they want a new institution of their choice on 
that spot? The biggest school? A university? A hospital? What 
do they want? I think our gestures have to be as grand as the 
damage done. And I think we should state clearly that we're 
willing to bring American forces home once Iraqis--and you 
have--can handle their own security and there's a legitimate 
government.
    So, folks, despite the fact I am very, very concerned about 
the state of affairs, I still think, quote, ``this is 
winnable.'' But I do think it is not ``staying the course.'' It 
is ``changing the course'' in order to be able to stay to be 
successful.
    I apologize to my colleagues for not being here in time to 
make that at the beginning, and I'll hold my questions until 
the end.
    I thank you, appreciate you listening.
    The Chairman. Thank you, Senator Biden.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman. Welcome, 
gentlemen.
    Despite some of the progress we are making there and some 
of the positive signs, some of the generals on the ground have 
expressed great concern. And, in particular, an Army general 
who was posted in western Iraq, when asked whether he believes 
the United States is losing there, he said, ``I think 
strategically we are.''
    And an Army colonel who was based in Baghdad, said, 
``Unless we ensure that we have coherency in our policy, we 
will lose strategically.'' And he went on to say, ``We don't 
understand the war we're in.''
    And then a senior general went on to say, ``I do not 
believe we had a clearly defined war strategy, end state, and 
exit strategy before we commenced our invasion,'' and that, he 
said, ``It is doubtful we can go on much longer like this. The 
American people may not stand for it, and they should not.''
    So maybe somewhere in between what you're portraying and 
what they're portraying is the truth, but, nonetheless, there's 
cause for alarm, which I certainly hear from my constituents 
back in Rhode Island.
    But what I'd like to ask is that--just yesterday, King 
Abdullah of Jordan was asked the question, ``Do you see a link 
between the war in Iraq and the Palestinian/Israeli peace 
process?'' And he answered, ``They sort of feed off each 
other.'' The core issue in the hearts of everybody in the 
Middle East is the Israeli/Palestinian one. The core issue. 
They feed off one anther. They are related.
    And what I'd like to go back to is what the President said 
on February 28, 2003 in a speech before the American Enterprise 
Institute, where he said, ``Success in Iraq could also begin a 
new stage for Middle Eastern peace and set in motion progress 
toward a truly democratic Palestinian state.'' And he went on 
to say, ``America will seize every opportunity in pursuit of 
peace, and the end of the present regime in Iraq would create 
such an opportunity.'' He said it: the end of the present 
regime in Iraq would create this opportunity.
    And then, Secretary Wolfowitz, I'll also say, I gave you a 
shot in May 2003, right after the end of the war, when things 
were going very, very well, and I asked at a hearing, from the 
transcript, ``It seems to me that we have thrown a rock into 
the pool that is the Middle East. And, just for the sake of my 
question, if all goes well in restoring order in Iraq, what is 
our strategic vision of the ripples now going out from that 
rock we have thrown into the pool? What is the strategic vision 
in the Middle East now?'' And you answered, ``A clean piece of 
canvas.'' You said, ``I would say several things. I think some 
of them hopefully will happen even perhaps before some of the 
other results are achieved inside Iraq. I think one of the 
ripples is a positive impact on the Arab/Israeli peace process, 
and clearly we need it. We need to move that process forward. I 
think we have credibility, enormous credibility, not that we 
did not have it before. We have it more than we did before.'' 
Those are you words from May 2003, when things were going well.
    So my question is, why the paralysis--if this is so 
important, by your own words--why the paralysis on this 
important issue? As King Abdullah said, ``the core issue.''
    Mr. Wolfowitz. Let me ask Rich----
    Senator Chafee. I'll ask Secretary Wolfowitz, since I 
quoted him, if I could.
    Mr. Wolfowitz. OK, but I'm going to turn to my colleague in 
the State Department on this issue of what you call paralysis. 
But I would say this. I think that, in fact, part of our 
problem, as we said, as those quotes make clear, I think 
success in Iraq will have these effects. We are not--we're not 
at success, to put it mildly, and we need to get there. I agree 
very strongly with what both the chairman and Senator Biden 
said on that point.
    I think, if you go back to last year, when there was a bit 
of euphoria, I believe, in the sense that we really were 
getting success, I know I heard from Arab democrats that there 
was some sense of exhilaration in the Arab world about the 
prospects of change. And I don't claim to be expert enough to 
say it's cause and effect, but I think we--in the meeting in 
Sharm el Sheikh, we saw some signs of Egyptians and the Saudis 
stepping up to responsibilities to support the peace process. 
And, again, I can't say it's cause and effect, but I don't 
think it's helped the peace process that the enemy in Iraq has 
proved as resilient as it has.
    And, let's be clear, that enemy includes Saddam Hussein, 
who was out there funding attacks on Coalition forces right up 
until he was captured in December. It includes No. 6 on the 
black list, Izzat Ibrahim al-Duri, who is still at large and 
still funding attacks on American and Coalition forces with 
money that he's salted in banks in neighboring countries. It 
includes the former killers, as I mentioned in my opening 
statement, from the so-called--the M-14 branch of the Iraqi 
intelligence, the so-called anti-terrorism branch. George 
Orwell would have used that phrase. Anti-terrorism meant that 
they specialized in killings, hijackings, assassinations, and 
bombings. Those people are still out there, they're still 
killing people, killing Iraqis, killing Americans. Their goal 
is to prevent exactly that process that, I agree with Senator 
Biden, we need to move forward.
    If I could just----
    Senator Chafee. If you could, I'm talking about the 
paralysis. And there have been so many opportunities. After 
Akaba, in June, there was the long 7-week cease-fire. Abu Mazen 
came here to the Foreign Relations Committee and begged--and he 
met with the President--begged us to help him on the 
settlements, the wall, the prisoners held without charges, 
``Please empower me with my people.'' He went back empty-
handed. These are the missed opportunities. When the Geneva 
Accords came, in October of last year, there was a cold 
shoulder given to those. I believe this is what's hurting us in 
Iraq, not taking the opportunities--even as the President said, 
taking the opportunities that are presented to us, and 
energizing our adversaries in Iraq.
    Mr. Armitage. Senator, may I? There are others who would 
say that what happened to Abu Mazen was that we held him too 
close, and that's burned him. And he became----
    Senator Chafee. He wouldn't say that. He wouldn't say that.
    Mr. Armitage. Several of those who served with him when he 
was Prime Minister would say that, and gave us advice to be 
somewhat cautious. You're right, we have a 7-week window with 
the cease-fire. The difficulty with the cease-fire is the 
Palestinian Authority can have a cease-fire, but if they won't 
control Hamas, then it's for naught. And they're not 
controlling Hamas. They're not even trying to.
    We thought we were on the verge of something, and it's very 
frustrating, almost ``Perils of Pauline,'' the Middle East saga 
of a search for peace with the Sharon plan for disengagement 
from Gaza, where 80 percent of the people of Israel, by opinion 
polls, appear to be for it. But Likkud was not for it, and, 
hence, he was unsuccessful. We thought it was rather noteworthy 
for the first time since 1967 to have 21 Gaza settlements and 
four West Bank settlements turned over to the Palestinians. We 
weren't quite bullish on this, and now we're disappointed. But 
Mr. Sharon is making the refinements and modifications to his 
plan. He will eventually show them to us. We have not seen it, 
to my knowledge yet. Secretary Powell met at the Dead Sea with 
Abu Allah and Dr. Rice met with Abu Allah in Berlin. So 
there's--it's kind of like a duck on the water; it doesn't 
appear to be moving very much, but underneath there's a lot of 
churning going on. And we're doing a lot of it, some of the 
Palestinians are doing it, and certainly our Israeli allies are 
doing it.
    Senator Chafee. I'd just like to go further and say there's 
a lot of churning going on, but, in the meantime, the days are 
slipping by, the months are slipping by, the tide is turning. 
If you believe what King Abdullah says, he's geographically 
located, as he said, ``in between Iraq and a hard place,'' and 
he says this is ``the core issue.'' And I think my constituents 
just see paralysis on this issue. And maybe if you can level 
with us, is it an election issue that, a certain base that 
you've got to be careful of? What's the truth?
    Mr. Armitage. Well, the affection of the President for 
Israel and for that democracy has nothing to do with elections. 
It has to do with his view that Israel as one of the great 
democracies in the world, perhaps the most pure democracy. 
However, it was our President who was the only one who spoke up 
about a vision of two states living side by side. He's held 
that vision for 2 years now, he's not shying away from it, and, 
hence, he has encouraged Secretary Powell to meet with Abu 
Allah, and Dr. Rice to meet with him, as well.
    It's frustrating for us, as well as for you and your 
constituents, but it's most frustrating for the Palestinians 
who are having their houses bulldozed and for those 11 or 12 
IDF soldiers who were killed last week.
    Senator Chafee. Well, I'll conclude just by saying every 
visitor that I get said only the Americans can push this 
forward. I hear it every time. Only the Americans. And sadly, 
we're not exercising that power.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    Gentlemen, I know how hard you are working, and I know that 
the burdens that you bear are very heavy, but I have to say I 
was very disappointed in your opening statements, to be honest 
with you. Listening to you, one would never know what is 
happening in America, how people are so distraught over this. 
And I think if you looked at the faces of my colleagues, I've 
never seen us quite look this way. It's not partisanship. And I 
didn't get, as Senator Biden pointed out, where are you 
changing course? I don't hear it. And if there's one thing I 
want to say, it is to agree with my ranking member here, that 
this is the moment to do it, if ever there was a moment.
    Now, the essence of our country has taken an enormous hit 
in the world, to the point where American business people, Mr. 
Secretaries, are telling me and telling us that they've never 
seen such a negative view of America in many, many, many years. 
As they put it, one put it, one very successful businessman, 
the American brand is being pummeled. Now, some of it, I 
believe, is due to a go-it-alone policy that's been perceived 
as arrogant, and I won't go through it all, but we've seen it 
over and over. And then there's the prison scandal, which has 
really seared the soul of America.
    Now, some of the things that we saw, we have seen even 
worse by the terrorists, but our strength is that we're not 
like them, and they repel us because they have no respect for 
human rights. But all of us who have seen the original photos 
and then moving pictures, frankly, of torture--I need to ask 
you, Secretary Wolfowitz, in Newsday yesterday, Pentagon 
officials adamantly deny charges. In a New Yorker magazine 
article, the Defense Secretary Rumsfeld and other key officials 
had approved a plan to expand from Afghanistan to Iraq, a 
secret interrogation program that included rough treatment and 
sexual humiliation. Do you stand by that? Do you deny?
    Mr. Wolfowitz. Senator Boxer, we're trying to find out 
what, if any, possible truth led to that story. I'm aware of 
nothing that would substantiate that.
    Senator Boxer. So you don't deny it. You're saying you're 
still looking into it?
    Mr. Wolfowitz. No, we stand by our denials. When something 
comes out like that, and people claim that they have sources 
inside that reveal something, you have to try to find out.
    Senator Boxer. OK. Do you agree with Pentagon officials who 
basically said that those charges are wrong, that there was 
never a plan that was approved to expand from Afghanistan to 
Iraq a secret interrogation program that included rough 
treatment and sexual humiliation?
    Mr. Wolfowitz. To the best of our knowledge, yes, Senator.
    Senator Boxer. OK.
    Mr. Wolfowitz, you spoke eloquently about your desire to 
help the good people of Iraq. We were all stunned by those 
pictures of Abu Ghraib. And one of those pictures--I'll never 
forget any of them, but one of them that is haunting me is that 
of a beautiful Iraqi woman who is staring into the camera with 
dead eyes, and then, in the next shot, she is lifting her 
blouse, and she is exposing her nudity to the camera with the 
same dead eyes. Have you seen this photo, Mr. Wolfowitz?
    Mr. Wolfowitz. No, I haven't, Senator. I've seen some of 
the photos. Let me explain. Secretary Rumsfeld, when this thing 
began, put together a considerable task force to dig into the 
facts to find out what had happened to make sure that we get to 
the bottom of this. And I would underscore that the Army had 
already--the reason----
    Senator Boxer. Sir, if I might, I don't have time.
    Mr. Wolfowitz. Can I just----
    Senator Boxer. I only have 5 minutes left, and I would--I 
understand that you're looking into it, but I want to find out 
what you personally know. So if I might just continue to----
    Mr. Wolfowitz. I know enough----
    Senator Boxer. Mr. Chairman----
    Mr. Wolfowitz [continuing]. To be horrified at what has 
happened. I have not spent the 2-hours that Secretary Rumsfeld 
did looking at all the photos. I will look at the one you 
mentioned.
    Senator Boxer. Thank you. Given the Islamic rules for 
modest dress, even the removal of a head scarf is a major 
violation of faith for many Iraqi women. So the abuse that was 
inflicted upon these female Iraqi prisoners is not only 
physical abuse, but it is mental abuse.
    According to a recent article written by Tracy Wilkinson, a 
Polk Award-winning journalist for the Los Angeles Times, quote, 
``One woman told her attorney she was forced to disrobe in 
front of male prison guards. After much coaxing, another woman 
described how she was raped by U.S. soldiers. Then she 
fainted,'' unquote.
    Secretary Wolfowitz, have you looked into this particular 
claim that Iraqi women were actually raped by our soldiers?
    Mr. Wolfowitz. Senator Boxer, we're looking into all of 
this. And the behavior you've described is absolutely 
appalling, to treat any woman that way, Muslim or otherwise, 
and I share your horror at it. I very strongly do. It's 
absolutely contrary to everything we're trying to accomplish in 
Iraq.
    Senator Boxer. Well, I know you don't have the answers, but 
I would appreciate, in writing, if you could let us know how 
many Iraqi women have been raped in U.S. prisons.
    [The following information was subsequently provided:]

    Senator, we can not confirm that any women in Iraq that have been 
raped while in DOD custody. There have been multiple visits with the 
women in DOD custody by the Iraqi Governing Council and the ICRC and no 
allegations of rape have surfaced. There is, however, a finding in the 
Taguba investigation indicating that a male MP guard had sex with a 
female detainee. That finding was based upon a statement of a witness 
who did not see the actual event and did not know the identity of the 
woman. However, if the event is proven, given the position of authority 
of a guard over a detainee, a charge of rape could be sustained. The 
guard is currently facing court-martial on a variety of charges.
    Additionally, the Taguba report states there was also a single 
photograph uncovered by CID where a female detainee is shown exposing 
her breast. The facts and circumstances surrounding that event are not 
known at this time.
    Finally, we are aware of one incident in which a female detainee 
was assaulted (kissed) by male interrogator, working in concert with 
two other male interrogators. The detainee reported the incident to a 
female guard and an investigation ensued. The military personnel 
involved were disciplined.

    Senator Boxer. And we know that many of them are disowned, 
then, by their families. And Secretary Rumsfeld is on the 
record saying restitution would be provided for the victims. 
And could you tell us how far along we're getting in this plan 
and if we're looking particularly at these women, who, as I 
say, are, many of them, disowned by their families?
    Mr. Wolfowitz. I know that we are looking into how to do 
restitution the best possible way. There are legal issues 
involved, too, with respect to whether or not it might affect 
the trials of people that these people may have to testify 
against. I consider it very important to make restitution and 
do it as quickly as we possibly can and as generously as we 
possibly can.
    Senator Boxer. Secretary Wolfowitz, because I'm the only 
woman on this committee, sometimes I will put forth a lot of 
these issues. And it has come to my attention, and the 
attention of the women Senators, that there have been reports 
of 129 credible cases of sexual assault against our women 
military by our military in Iraq, Kuwait, Afghanistan, and 
Bahrain. And the rules today say that a woman who is a victim 
of rape in our military, she's allowed to use the military 
hospital, but she has to pay for an abortion if she chooses to 
end this pregnancy of violence. And I am asking you if you 
would consider supporting Senator Snowe and my bill that would 
say if a woman in our military is sacrificing her life and she 
is raped, that she can--she is not forced to pay for this 
abortion, that the military will, in fact, pay for it.
    Mr. Wolfowitz. I would certainly consider that, Senator.
    Senator Boxer. Thank you.
    Secretary Wolfowitz, in March 2003, you said the oil 
revenues of Iraq could bring between $50 and $100 billion over 
the course of the next couple of years, and you went on to say, 
``We're dealing with a country that can really finance its own 
reconstruction, and relatively soon.'' Do you still feel that 
way?
    Mr. Wolfowitz. If I might say, first, Senator, that was in 
the context of a hearing on the House side that--some days 
after the war had already begun, and I introduced those 
comments by emphasizing no one can predict what the cost of the 
reconstruction in Iraq will be. At that moment, we fully 
anticipated--anticipated is too strong a word--we were very 
fearful that, among other things, the oil fields of Iraq might 
be completely destroyed, so the bill could have been much, much 
greater even than it's turned out to be, and that caveat is 
frequently omitted.
    Let me note that, in the last year alone, Iraq has 
contributed some $21 billion in Iraqi assets to the running of 
the country and to the reconstruction of the country. Oil 
revenues are currently above target, partly because production 
has come back faster, also because of higher oil prices. I will 
get you the exact numbers for the record but I don't think, in 
the end, those numbers will turn out to be too far off the 
mark.
    [The following information was subsequently provided:]

    From its inception in May 2003 to 28 June 2004, the total cash 
inflow for the Development Fund for Iraq was $20.7 billion. The largest 
portion of this fund, $11.3 billion, has been drawn from Iraq's oil 
exports. The remaining $9.4 billion comes from repatriated Iraqi 
assets, Oil for Food money, and other Iraqi sources.
    $14.1 billion of this has already been spent by Iraqis towards the 
reconstruction of their country.

    Senator Boxer. So you don't think we need to put any more 
American dollars into Iraqi reconstruction.
    Mr. Wolfowitz. No, in fact, I think when we came up with 
the request for the supplemental, and I'm working from memory 
here, and I hope this doesn't--if my memory is wrong, we don't 
go back again and say I got it wrong--but it was--the estimate 
of Iraqi needs for reconstruction was something like $75 
billion, based on the World Bank needs assessment and other 
requirements that the World Bank didn't take account of, and 
that we said in testimony that we considered that an American 
contribution would on the order of the $20 billion that we 
requested and that it would apply initially----
    Senator Boxer. So just yes or no, will we have to put more 
American dollars into reconstruction in Iraq, in your opinion?
    Mr. Wolfowitz. We don't think that there will be any need 
for a supplemental of the enormous kind that we had last year. 
I would assume that there will probably be some kind of an 
American economic assistance program in the future, but Iraqi 
revenues are running----
    Senator Boxer. So you're asking us for $25 billion for the 
military, for the troops, nothing for reconstruction, and that 
will be it until--we won't need any more. Is that correct?
    Mr. Wolfowitz. First of all----
    Senator Boxer. You won't have to come back----
    Mr. Wolfowitz [continuing]. The $25 billion for the troops 
is--it's more complicated than--that's not the amount for this 
year. It's the amount to get us into early next year, when 
we'll be able to request a supplemental. We have, thanks to the 
approval of Congress, some $18.6 billion, as you know, in 
appropriated funds available for Iraqi reconstruction. In 
addition, as I had just mentioned, there's $20 billion just in 
the last 12 months in Iraqi funds--some of it for operating the 
government, some of it for reconstruction. There is some $15 
billion or so from international sources that Secretary Powell 
raised at the Madrid Conference. And we anticipate, I think--
I'm going to be careful with my numbers--very substantial Iraqi 
contributions----
    Senator Boxer. OK.
    Mr. Wolfowitz [continuing]. In coming years for their 
reconstruction.
    Senator Boxer. Mr. Chairman, maybe you followed all this. I 
don't know exactly what they're going to ask us for. Thanks.
    The Chairman. Thank you very much, Senator Boxer.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman. Gentlemen, glad 
to have you here.
    Secretary Wolfowitz or Armitage, just in following that 
line, is there a chance we're going to get some money back from 
the U.N. Oil-for-Food Program? There's been a huge controversy 
about the number of dollars, and we were tracking that, the 
subcommittee I was on during the time period that that was 
operating for those years, the billions of dollars of oil 
revenues that were flowing out of Iraq then that were supposed 
to go into food that appears as if now there were billions that 
were skimmed off of that, either by Saddam or people on the 
other end of this. Do we know where that is in its 
investigation? I mean, is there a chance there's going to be 
some substantial resources that should come back to Iraq for 
its reconstruction from that program?
    Mr. Armitage. Mr. Volcker, of course, is running the 
investigation for the U.N. Just as a sidebar, we have provided 
to the members of the committee, in an appropriate fashion, 
those documents which we had that might in any way refer to 
this.
    I think there will be, at the end of the day--my view is, 
you will find wrongdoing, and you will find moneys. And I hope 
the people who were involved, as I said in the House side the 
other day, are hung.
    But, having said that, I don't think the moneys will be 
substantial, in terms of billions and billions of dollars. I 
don't think it runs that high. But, you know, follow the trail 
and follow the money.
    Senator Brownback. Let me ask you, on this sarin gas and 
mustard gas issue that's come up--and I'm looking off of two 
news stories that I just want to quote to you of some 
individuals. This is the Reuters story yesterday, where David 
Kay is asked about this sarin-gas weapon. He says it appears to 
be--this is just his direct quote, `` `It was probably just 
scavenged from one of the 125-plus ammunition storage points 
that still remain,' Kay said.'' And then the article goes on to 
say, ``more forensic testing should determine with some 
confidence when it was produced.'' Now, he speculated that it 
was probably left over from the 1980's, produced either during 
the Iraq/Iran war or before the 1991 Gulf War. Now, that's 
David Kay's comments on this sarin gas that they found.
    Then this is General Mark Kimmitt. This is in a FOX News 
story on Monday. ``The Iraq Survey Group confirmed today that a 
155 millimeter artillery round,'' which, as I understand, is a 
pretty good-size shell, ``containing sarin nerve agent had been 
found.'' This is another quote from him, ``The round had been 
rigged as an IED, which was discovered by a U.S. Force convoy. 
The round detonated before it could be rendered inoperable, 
which caused a very small dispersal of the agent.''
    Then in this same story, they're citing a senior Bush 
administration official, which they do not give the name of, 
said, ``Two weeks ago, U.S. military units discovered mustard 
gas that was used as part of an IED. Tests conducted by the 
Iraq Survey Group, U.S. organizations searching for weapons of 
mass destruction, and others concluded the mustard gas was, 
`stored improperly,' which made the gas, `ineffective.' ''
    Now, we know that Iraq used sarin gas during the Iraq/Iran 
War. However, now Kimmitt--I'm going back to him--said ``the 
shell belonged to a class of ordnance that Saddam's government 
said was destroyed before the 1991 Gulf War. Experts believe 
both the sarin and mustard-gas weapons date back to that 
time.''
    Here's, again, Kimmitt, ``It was a weapon that we believe 
was stocked from the ex-regime time and thought to have been an 
ordinary artillery shell set up to explode like an ordinary 
IED, and basically from the detonation of that when it 
exploded, it indicated that it actually had some sarin in it. 
It was a binary type of shell in which two chemicals held in 
separate sections are mixed, after firing, to produce sarin 
gas.'' And then they, quote, ``Later, a former Iraqi nuclear 
scientist, Gazi George, is saying that Saddam stored these 
around the country.'
    Can you react? You had this question a little bit earlier, 
but it appears as if there are people that are commenting on 
this to some extent, and I would appreciate it if you could 
comment on either the sarin gas or the mustard gas, to what we 
know has actually taken place or what's happened with those to 
date.
    Mr. Wolfowitz. Senator Brownback, with your permission, I'd 
really like to reply for the record. It's just very important 
that we be precise about what we know and what we don't know, 
and there are some things we are still trying to find out about 
exactly the origin of those shells, whether it was a failure of 
the Iraqis to account for them or whether they were simply 
stray shells, and so forth. They're very key issues here, which 
I think would be important to give you a careful answer on.
    Senator Brownback. Can you answer whether or not we know if 
sarin gas or mustard gas has been used in the Iraqi theater 
within the last 2 weeks?
    General Sharp. Sir, the tests that came back were field 
tests done by two different independent type of tests in the 
field. They have a good degree of reliability, but not near 100 
percent. So right now, the shells and the substance are being 
sent back to the United States for conclusive tests back here.
    Senator Brownback. OK, and what did the field tests reveal?
    General Sharp. That they were sarin, sir. But, again, 
that's not 100 percent guaranteed.
    Senator Brownback. And then apparently in this one article, 
the two soldiers are showing signs of a reaction to a chemical 
weapon, that they're showing symptoms similar to a mild 
chemical-weapons exposure. Is that correct, as well?
    General Sharp. Yes, sir, that was correct. While they were 
transporting it back, they showed nausea and had some 
orientation problems. But they are well now, they have been 
treated, and they're back to duty.
    Senator Brownback. OK. Now, what about this mustard gas 2 
weeks ago reported by the Iraqi Survey Group?
    General Sharp. Sir, the information I have is as you have 
laid out, that they found it and that it's also being tested. I 
don't have any further information on that round.
    Senator Brownback. OK. Was there a field test as to whether 
this was mustard gas?
    General Sharp. I do not know, sir.
    Senator Brownback. OK, now that's by the Iraqi Survey Group 
that was reporting that. All right, but you don't know anything 
further about the mustard-gas one?
    General Sharp. No, sir, not the earlier one.
    Senator Brownback. OK. Do we--and, Secretary Wolfowitz, I'm 
presuming you're going to say the same answer, but I do want to 
ask this--do we know any of the sources of these shells? Not 
necessarily the gas, but the sources of these shells. Do we 
know anything about that yet?
    Mr. Wolfowitz. Not that I'm aware of, and that's one of the 
important questions to be answered.
    Senator Brownback. OK. There's a speculation in this 
article, from the Iraqi nuclear scientist, Gazi George was 
saying that lots of them have gone west to Syria and have been 
brought back with the insurgencies. And he was speculating this 
was a stepping up of the insurgency against the United States 
and against the Coalition forces. Do you have any reaction to 
that thought, or any that you can put forward?
    Mr. Wolfowitz. I'd say, at the moment, that's a 
speculation. It's another--it's a hypothesis that certainly is 
something we're looking at very hard, because it would be a--if 
it's a systematic pattern, then it's something that would cause 
us very great concern, obviously.
    Senator Brownback. And when you have a chance, I'm sure you 
will be issuing statements publicly about the full nature of 
whether this is sarin gas or mustard gas in this last instance.
    [The following information was subsequently provided:]

    The sarin nerve agent was found on 15 May in a 155 millimeter 
artillery round which had no particular markings. The round had been 
rigged as an improvised explosive device (IED) along a roadside, when 
it was discovered prior to detonation by a U.S. military convoy. The 
round detonated before it was rendered inoperable, which caused a small 
dispersal of the agent. The other shell, found on 2 May in Baghdad, was 
also a 155 millimeter round configured as an IED, and it tested 
positive for a sulphur mustard agent. Both shells are being returned to 
the United States for more extensive analysis and testing. Currently, 
there is no evidence linking the sarin IED with the mustard IED. These 
projectiles could be from a proving ground or a disposal site. The 
projectiles may have been deliberately not declared, or misplaced among 
conventional projectiles that were later looted. There is no indication 
that the anti-Coalition forces knew these rounds were chemical 
projectiles or understood their proper functioning. In the 1990s, Iraq 
had declared sarin-filled artillery shells, but said all were destroyed 
before the 1991 Gulf War. Some mustard shells were also declared, but 
UNSCOM was unable to locate or account for 550 of those projectiles.

    Senator Brownback. If I could ask Secretary Armitage, when 
do you anticipate that Saddam Hussein will be going on trial?
    Mr. Armitage. I saw speculation in the press from the 
Iraqis that it would happen before turnover. I think that's 
very unlikely. This is an Iraqi determination. They are having 
a small debate among themselves as to whether they ought to try 
Saddam Hussein first, or whether they should try him in some 
lesser lights first. We are in--the U.S. Government, the 
Department of Justice--in an advisory role to them to help them 
get their house in order so this will stand up to international 
scrutiny. Beyond that, there is no time set.
    Senator Brownback. This year?
    Mr. Armitage. There is no time set.
    Senator Brownback. We just don't know that.
    Secretary Armitage, if I could, you mentioned that you've 
made the trip in the region recently, and I know Secretary 
Powell has been over at the World Economic Forum, and I applaud 
all of those connections and move into the region. I've made 
that trip before, as well. I'm wondering how much OPEC is 
putting pressure back on us through gas prices because we're 
pushing democracy and open societies in the region. These are 
generally monarchies and dictatorships that are in the region. 
We are clearly standing for democracy and open societies. 
There's clearly a rub in the region of what's taking place. Are 
they pushing pressure back on us through oil production?
    Mr. Armitage. First of all, on OPEC, sir, it's a mixed bag. 
The Kuwaitis, for instance, did not go along with the idea of 
cutting back on production. As far as I know, the Saudis, a 
month and a half or so ago, said they were going to cut back, 
and then didn't. Now they are now saying that they may 
increase--they've got excess capacity, they may increase it. I 
think--this is a personal opinion--I defer to those on the 
Energy Committee, but this is as much psychological as anything 
else, the spike in prices to $41-plus a barrel. I think there's 
some argument to be made for the need for more refining 
capacity here in the United States. But, beyond that, I'm out 
of my league.
    The question of democracy and openness in the region is one 
that's moving every country in the region at varying speeds and 
in varying ways. Paul mentioned that even the Saudis and the 
Egyptians have had some rather far-reaching statements, and 
it's true. Other states have gone a lot farther, with women's 
rights, transparency, et cetera. This is why the upcoming G-8 
summit at Sea Island and its promise of some discussion of 
greater Middle East initiative and putting some wind in the 
sails of those reformers of the various countries is so 
important.
    Senator Brownback. I think it's one of the most dramatic 
moves toward democracy I've seen in that region at any time, 
and I certainly applaud that.
    Mr. Chairman, thank you.
    The Chairman. Thank you very much, Senator Brownback.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Mr. Chairman, first of all I want to commend you and 
Senator Biden for these series of hearings you've been holding 
with respect to Iraq. I think they have really focused on 
important, substantive questions, and I think that's obviously 
a very important responsibility of this committee, and I just 
want to underscore my appreciation to you and the ranking 
member, Senator Biden, for undertaking that responsibility.
    Secretary Wolfowitz--then I'm going to direct this, as 
well, to the other members of the panel, but let me start with 
you--as we look ahead and make our calculations about the path 
that lies ahead, it seems to me we have to have some sense of 
what the miscalculations were that have resulted in us 
confronting the situation we now have in Iraq. So the question 
I want to put to you--and then I'll do it to the others, as 
well--is, because you've been a central player in all of this, 
what were the miscalculations?
    Mr. Wolfowitz. You know, Senator, when people start listing 
the miscalculations, they rarely bother listing all the things 
that we calculated on that didn't happen, and I think, in part, 
didn't happen because of the way in which the military campaign 
was conducted, which is to say with enormous speed, faster than 
I believe Saddam or his people believed we could advance. I 
think that may be a reason why we didn't face the enormous 
destruction of Iraqi oil fields, for example. It may be a 
reason that we didn't face extensive urban fighting, as we had 
anticipated. Indeed, in anticipation of it, we decided on a 
plan that would emphasize speed over mass.
    One can go back and look at many things that maybe we 
needed to do differently, and we are doing that. And I agree 
with the spirit of your question, that if we want to set the 
course, going forward, then it's important to figure out if we 
made some misjudgments in the past. And I would say one that we 
believe was done a bit too severely was the policy of de-
Ba'athification. And that's, in fact, why Ambassador Bremer 
announced, just a couple of weeks ago, that we were going to 
look at modifying it.
    I must say that as soon as we talked about modifying it, we 
heard very, very strong expressions, particularly from the 
Kurds and the Shia, that we might be abandoning them and that 
we might be opening the door to bringing the Ba'athists back to 
power. So there's always a balance to be struck.
    I would say, of all the things that were underestimated, 
the one that almost no one that I know of predicted, with the 
exception of a retired Marine colonel named Gary Anderson, who 
wrote this in an op-ed in the Post, I believe it was April 2 of 
last year, was to properly estimate the resilience of the 
regime that had abused this country for 35 years, to properly 
estimate that Saddam Hussein would still be out there funding 
attacks on Americans until he was captured, that one of his 
principal deputies, Izzat Ibrahim al-Duri, would still be out 
there funding operations against us, that they would have 
hundreds of millions of dollars in bank accounts in neighboring 
countries to support those operations, that the old Iraqi 
intelligence service which had so much blood on its hands, 
which I believe is not reconcilable--we're not talking about an 
ordinary person who joined the Ba'ath Party in order to get a 
promotion as a teacher--those are the people we're trying to 
bring back in--but the real killers, who number in the 
thousands--were much tougher people, I think, than anyone 
imagined. And they are out there killing, and they are working 
with Mr. Zarqawi, who seems to have been associated with them 
from before the war. They're bringing in foreign fighters, as 
they did in the early stages of the war. And they may not be 
good in large-scale, open battle, but they seem to have a 
dangerous capability for urban guerrilla tactics, and that's 
what we're up against.
    I think the great strength we have against them remains the 
fact that the Iraqi people don't want these people back, and if 
they have confidence that they can stand up against those 
people, they do so. In fact, they do so even when they know 
they may be murdered for it, as the member of the Governing 
Council was, just yesterday, and as police chiefs are and as 
security officers are. The number of Iraqis that actually will 
stand up and fight for their country is considerable, and I 
think that is where success is going to lie for us, is 
empowering those people more rapidly. If anything, I would say 
we were slow in doing it maybe in part because we thought we'd 
have something like peacekeeping operations instead of a 
continuing war.
    Senator Sarbanes. Secretary Armitage.
    Mr. Armitage. No, I look at this question--or, to answer 
it, Senator Sarbanes, by saying, ``What would I do 
differently?'' And the single thing I would have done 
differently after the splendid military victory was to more 
rapidly have brought in the sheikhs, tribal sheikhs. I think 
that--I'll speak for myself--I've felt that, with the Shia and 
Sunni and Kurds and Turkmen and a couple of others, and we 
could deal with them in that way. It was wrong, I think. I 
think they're a tribal society in a way that I didn't fully 
appreciate, and I wish that I had been involved much more in 
bringing the tribal sheikhs into things earlier on. I think 
we'd be a lot farther down the pike now.
    Senator Sarbanes. General.
    General Sharp. Sir, as you know, as the military looks at 
the situation on the ground we continuously assess as to what 
changes need to be made based upon the circumstances that we're 
under. As you know, we're working very hard now to train the 
Iraqi security forces as a result of their performance in 
recent days. We're looking at leadership training and 
specialized training in order to be able to get the leaders and 
the people in the security forces to be able to stand up.
    On the military side, we continue to assess the 
capabilities of both the Iraqi security forces and our 
Coalition partners and us, and to determine how to best defeat 
the threat that's out there. So you see us adjusting 
boundaries, you see us integrating some of the Iraqi security 
forces and military into our military forces, and vice versa.
    We're standing up a new headquarters in order to be able to 
best work in the new environment with a strategic situation 
with Ambassador Negroponte going in. So we're standing up a 
headquarters there, with General Sanchez to work on the 
military and political level, and then General Metz working on 
the tactical and operational level. And we're sending, for 
example, General Petraeus back to, again, take all of the Iraqi 
security forces and make sure that we are focusing the efforts 
on those to get the Iraqis enabled to be able to take over 
responsibility for their own security.
    Senator Sarbanes. The difficulty I'm having here is, 
obviously, I would assume, none of you at the table calculated 
that we would be confronting the situation we are confronting 
there now. So the question becomes, what miscalculations? Let 
me ask a couple of specifics.
    Secretary Wolfowitz, you said that they were drawing money 
from the surrounding countries, that they had deposits in the 
surrounding countries and were now calling on those resources 
to carry out this insurgency that's taking place, if I 
understood you correctly. Is that right?
    Mr. Wolfowitz. I'm saying that Saddam and his gang have 
access to enormous resources, and they are using those 
resources to pay for hired killings.
    Senator Sarbanes. Now, those are coming from the 
surrounding countries----
    Mr. Wolfowitz. I'm not sure where they're coming from, 
Senator.
    Senator Sarbanes. Well, what cooperation are we getting 
from the surrounding countries?
    Mr. Wolfowitz. I think that----
    Senator Sarbanes. I see the King of Jordan said, just 
yesterday, that he thought Iraq needed a ``strongman,'' as I 
understand it, and that that was what is now needed in the 
current situation, which, of course, is very much at odds, as I 
understand it, with what you're projecting to do.
    Mr. Wolfowitz. Well, I would say we're getting very 
excellent cooperation from Jordan. We may have--I mean, it's 
the kind of ally which whom you can have differences of view 
that lead you to better policies. I think we need a lot more 
cooperation from Syria.
    Mr. Armitage. The question of Iran is a more interesting 
one, in a way, because, during the time of the Arbayeen, where 
Zarqawi was threatening to bring about civil war--publicly he 
threatened it--the Iranians were actually quite helpful, 
because they kept many of their pilgrims home, and they made 
fewer targets and a much more manageable situation.
    At the same time, however, we find them, in the south 
particularly, trying to buy clerics with their money. So it's a 
mixed view. Kuwait has been extraordinarily helpful, as well.
    Senator Sarbanes. What is the legal status of the U.S. 
contractors operating in Iraq, the non-military people that are 
in there, some of them apparently doing military-type 
activities?
    Mr. Wolfowitz. I'm not aware that it's different from their 
status as contractors for us in Kosovo or Bosnia. We make 
extensive use of contractors everywhere, and we are doing so in 
Iraq, and they operate under--if they're working for the U.S. 
military, they operate according to U.S. military regulations. 
And, of course, the status of everything in Iraq is under the 
overall authority of the CPA.
    Senator Sarbanes. So the U.S. military, in effect, has the 
responsibility for the conduct of the private contractors, is 
that correct?
    Mr. Wolfowitz. No, those contractors that are working for 
us, I would--but there are many contractors that are working 
for CPA, or are working on their own, or working for the Iraqi 
Governing Council. There are contractors all over the country.
    Senator Sarbanes. Now, is it your view that you don't need 
another Status of Forces Agreement after June 30, when you 
transfer sovereignty, in order to ensure the legal status of 
American forces?
    Mr. Armitage. Senator Sarbanes, as a legal matter, that 
would be the case. As a political matter, it might be something 
else again. The Security Council Resolution 1511, combined with 
CPA Order 17 gives us the sufficient legal cover, if you will, 
for Status of Forces Agreements. However, it clearly--if we do 
move forward, as we're planning to, with a new U.N. Security 
Council resolution, we'd also want to put this in that 
resolution, as well, as an extra bit of protection.
    Our view of SCR 1511 is not universally shared by our 
allies, sir.
    Senator Sarbanes. What will be the status of the private 
contractors after June 30, when sovereignty is transferred?
    Mr. Armitage. I've got to take it for the record, Senator 
Sarbanes. I don't know.
    [The following information was subsequently provided:]

                         United States Department of State,
                               Washington, DC 20520, June 17, 2004.

The Honorable Paul Sarbanes,
Committee on Foreign Relations,
United States Senate.

    Dear Senator Sarbanes,

    Deputy Secretary Armitage has asked that I respond to your question 
of May 18, 2004 regarding the status of private [military] contractors 
after June 30th, when sovereignty will be transferred to the Iraqi 
Interim Government. First, I would like to assure you that the State 
Department is well aware of the concerns that contractors have for 
their security operations after June 30th.
    At present, Coalition Provisional Authority Order 17 (attached) 
regulates the status of contractors. This Order is currently being 
reviewed to determine how it should be revised to reflect the June 30 
transfer of authority. The issue regarding the status of Americans who 
are working in Iraq, including contractors, is currently being 
discussed with Iraqi Prime Minister Allawi and the Iraqi Interim 
Government. In all of our discussions, we are examining how best to 
ensure the safety and security of Americans in Iraq now, and after June 
30.
    When a decision has been made revising Order 17, I will be happy to 
convey it to you.

            Sincerely,
                                     Paul V. Kelly,
                                       Assistant Secretary,
                                               Legislative Affairs.

Enclosure: As stated.

            COALITION PROVISIONAL AUTHORITY ORDER NUMBER 17

Status of the Coalition, Foreign Liaison Missions, Their Personnel and 
                              Contractors

    Pursuant to my authority as head of the Coalition Provisional 
Authority (CPA), and under the laws and usages of war, and consistent 
with relevant U.N. Security Council resolutions, including Resolution 
1483 (2003),

    Recalling that under international law occupying powers, including 
their forces, personnel, property and equipment, funds and assets, are 
not subject to the laws or jurisdiction of the occupied territory,

    Conscious that states are contributing personnel, equipment and 
other resources to the Coalition in order to contribute to the security 
and stability that will enable the relief, recovery and development of 
Iraq,

    Noting that states are sending Foreign Liaison Mission Personnel to 
Iraq,

    Conscious of the need to establish and confirm the status of such 
Coalition and Foreign Liaison Mission Personnel in respect of the CPA 
and the local courts,

    I hereby promulgate the following:

                         SECTION 1--DEFINITIONS
    1) ``Coalition Personnel'' means all non-Iraqi military and 
civilian personnel assigned to or under the command of the Commander, 
Coalition Forces, or all forces employed by a Coalition State including 
attached civilians, as well as all non-Iraqi military and civilian 
personnel assigned to, or under the direction or control of the 
Administrator of the CPA.
    2) ``Foreign Liaison Mission Personnel'' means those individuals 
who have been issued Foreign Liaison Mission personnel identification 
cards by the Iraqi Ministry of Foreign Affairs under the supervision of 
the CPA.
    3) ``Legal Process'' means any arrest, detention or legal 
proceedings in the Iraqi courts or other Iraqi bodies, whether 
criminal, civil, administrative or other in nature.
    4) ``Parent State'' means the state providing Coalition Personnel 
as part of the Coalition in Iraq or the state providing Foreign Liaison 
Mission Personnel.
    5) ``Coalition contractors'' means non-Iraqi business entities or 
individuals not normally resident in Iraq supplying goods and/or 
services to or on behalf of the Coalition Forces or the CPA under 
contractual arrangements.
    6) ``Coalition sub-contractors'' means non-Iraqi business entities 
or individuals not normally resident in Iraq supplying goods and/or 
services to or on behalf of Coalition contractors and in respect of 
Coalition or CPA activities under contractual arrangements.

       SECTION 2--COALITION AND FOREIGN LIAISON MISSION PERSONNEL
    1) CPA, Coalition Forces and Foreign Liaison Mission, their 
property, funds and assets of shall be immune from Iraqi Legal Process.
    2) All Coalition personnel and Foreign Liaison Mission personnel 
shall respect the ``Iraqi'' laws applicable to those Coalition 
personnel and Foreign Liaison Mission personnel in the territory of 
Iraq and the Regulations, Orders, Memoranda and Public Notices issued 
by the Administrator of the CPA.
    3) Foreign Liaison Mission personnel shall be immune from Legal 
Process.
    4) All Coalition personnel shall be subject to the exclusive 
jurisdiction of their Parent States and, they shall be immune from 
local criminal, civil, and administrative jurisdiction and from any 
form of arrest or detention other than by persons acting on behalf of 
their Parent States, except that nothing in this provision shall 
prevent Coalition Forces personnel from preventing acts of serious 
misconduct by Coalition personnel, or otherwise temporarily detaining 
Coalition personnel who pose a risk of injury to themselves or others, 
pending expeditious turnover to the appropriate authorities of the 
Parent State. In all such circumstances the national contingent 
commander of the detained person shall be notified immediately.
    5) In respect of those Coalition personnel who commit an act or 
acts in Iraq for which there are no criminal sanctions in the Parent 
State, the CPA may request from the Parent State waiver of jurisdiction 
to try such act or acts under Iraqi law. In such cases, no Legal 
Process shall be commenced without the written permission of the 
Administrator of the CPA.

                         SECTION 3--CONTRACTORS
    1) Coalition contractors and their sub-contractors as well as their 
employees not normally resident in Iraq, shall not be subject to Iraqi 
laws or regulations in matters relating to the terms and conditions of 
their contracts in relation to the Coalition Forces or the CPA. 
Coalition contractors and sub-contractors other than contractors and 
sub-contractors normally resident in Iraq shall not be subject to Iraqi 
laws or regulations with respect to licensing and registration of 
employees, businesses and corporations in relation to such contracts.
    2) Coalition contractors and their sub-contractors as well as their 
employees not normally resident in Iraq, shall be immune from Iraqi 
Legal Process with respect to acts performed by them within their 
official activities pursuant to the terms and conditions of a contract 
between a contractor and Coalition Forces or the CPA and any sub-
contract thereto.
    3) In respect of acts or omissions of Coalition contractors and 
sub-contractors as well as their employees not normally resident in 
Iraq, which are not performed by them in the course of their official 
activities pursuant to the terms and conditions of a contract between 
them and the Coalition or the CPA, no Iraqi or CPA Legal Process shall 
be commenced without the written permission of the Administrator of the 
CPA.

           SECTION 4--DURATION OF IMMUNITY FROM LEGAL PROCESS
    The immunity from Legal Process provided by the present Order to 
Coalition personnel and Foreign Liaison Mission personnel as well as 
Coalition contractors, sub-contractors and their employees not normally 
resident in Iraq operates only in respect to acts or omissions by them 
during the period of authority of the CPA.

          SECTION 5--WAIVER OF LEGAL IMMUNITY AND JURISDICTION
    1) The immunity from Legal Process of Coalition personnel, Foreign 
Liaison Mission personnel, Coalition contractors and their sub-
contractors as well as their employees not normally resident in Iraq is 
not for the benefit of the individuals concerned and may be waived by 
the Parent State.
    2) Requests to waive jurisdiction over Coalition personnel or 
Foreign Liaison Mission personnel shall be referred to the respective 
Parent State.
    3) Requests to waive the immunities with respect to Coalition 
contractors and subcontractors and their employees not normally 
resident in Iraq as set forth in Section 3 of this Order shall be 
referred to the respective Parent State with which the contractor has 
contracted.

                           SECTION 6--CLAIMS
    1) Third party claims including those for property loss or damage 
and for personal injury, illness or death or in respect of any other 
matter arising from or attributed to Coalition personnel or any persons 
employed by them, whether normally resident in Iraq or not and that do 
not arise in connection with military combat operations, shall be 
submitted and dealt with by the Parent State whose Coalition personnel, 
property, activities or other assets are alleged to have caused the 
claimed damage, in a manner consistent with the national laws of the 
Parent State.
    2) Third party claims for property loss or damage and for personal 
injury, illness or death or in respect of any other matter arising from 
or attributed to Foreign Liaison Mission personnel shall be submitted 
and dealt with by the Parent State whose Foreign Liaison Mission 
personnel, property, activities or other assets are alleged to have 
caused the claimed damage, in a manner consistent with the national 
laws of the Parent State.
                      section 7--entry into force
    This Order shall enter into force on the date of signature.

                             L. Paul Bremer, Administrator,
                                   Coalition Provisional Authority.

    Senator Sarbanes. Well, that would be quite a problem, 
could it not? Would they still be under the rules of the U.S. 
military?
    Mr. Wolfowitz. I repeat, they were under the rules of the 
Coalition Provisional Authority. And since that authority will 
transfer to the interim government, I assume they'll be under 
the authority of the interim government. And if there are 
issues about how they conduct themselves--for example, I think, 
obviously, one of your concerns is, what are they allowed to 
carry in the way of weapons? I think those will be laws and 
regulations written by the interim government. I think, 
Senator, that the policies and regulations of the Coalition 
Provisional Authority, which governs them now----
    Senator Sarbanes. One final question. Are these issues 
going to be worked out before the transition date? I mean, are 
these people just going to be left--I don't want to use the 
expression ``high and dry''--but left with a potential serious 
problem on their hands? I mean, what's going to happen?
    Mr. Wolfowitz. Senator, I believe that the laws and 
regulations of the CPA will remain the laws and regulations of 
the interim government unless further amended. And in the case 
of contractors, there may be some need for changes, which might 
be taken while the CPA is still in authority, or might be taken 
by the interim government.
    General Sharp. And, sir, if I may----
    Mr. Wolfowitz. It's not going to be a vacuum of law, 
though.
    General Sharp. CPA 17, which, according to the Transitional 
Administrative Law, will continue after 1 July, includes the 
rights and the authorities and the obligations of contractors, 
not just military SOFA-type of requirements. So those 
authorities are in CPA 17 authority also, so that would 
continue on.
    Senator Sarbanes. Well, my concern has not been alleviated 
here, and I think it's a matter that needs to be looked into 
very carefully; otherwise, you're going to have things 
occurring, and everyone's going to say, well, we never 
calculated for that to happen. That wasn't part of our 
calculation. We have to do some tough-minded calculations here.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator Sarbanes.
    Just to summarize, for the record, would you research--the 
witnesses research the answer to Senator Sarbanes question? I 
think you've given an answer, but it could well be that you 
might want to make additional comments.
    Mr. Armitage. Absolutely.
    Mr. Wolfowitz. Absolutely. No, you deserve and answer, and 
we'll get you one, Senator.
    Senator Sarbanes. Thank you.
    The Chairman. Thank you very much.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman. I would like to 
thank you for convening this meeting.
    We've been doing this now for over a year, and, at the time 
we started, we wanted to know, do we have a plan? Do we know 
what we're doing? And the American people wanted to know that 
we're not like a leaf meandering down a stream. And I am 
comforted by the testimony that we have had this morning. But 
my concern is that, are we really leveling with the American 
people? For example, we know--we were talking about troops 
commitments, and if we look at what we've done in Bosnia, if we 
look at what we've done in Kosovo, we've been there for quite 
some time. It seems to me that we ought to talk about what's 
the future going to be, and have a rough estimate about the 
commitment that we're going to be making, in terms of troops 
and the cost of it.
    I was somewhat comforted by the fact that you indicate that 
we might not be asking for more money for reconstruction. But 
my constituents are interested, Are we going to put more money 
into reconstruction in Iraq?
    The other issue that I am very concerned about is the issue 
of the involvement of religious leaders in Iraq, including 
Ayatollah al-Sistani, in terms of developing a transition plan.
    I think one of the things that we may have miscalculated--
you're talking about errors that you made--I think that one of 
the errors we made is, the militancy of Muslim fundamentalism. 
Several people said that--I think it was Senator Biden said 82 
percent of the Iraq people would like to see us out of there. 
It's like that was a change. Do we really know how many of them 
wanted us in there? I mean, they wanted to get rid of Saddam 
Hussein, there's no question about that, but did they like us 
any more than--you know, do they want a secular Western 
democracy in that country? And what about Muqtada al-Sadr, 31 
years old, and seems to have a great deal of support from some 
people--where is he getting his support? Is this an effort on 
his part to work with--I don't know, is he working with people 
up in Iran to have a Muslim type of regime where they control 
things? It just seems to me that there's a lot more going on 
over there than what we anticipated. The American people 
thought, and we were led to believe, we will be looked upon as 
liberators and that they'll be glad to have us there. But it 
appears to me that the sooner we get out, the happier they're 
going to be. And I'm just real concerned that--you know, people 
ask me what's going to happen come July 1, and I just tell them 
it's going to be a jump-ball. We're not really sure what's 
going to happen. We hope there are some things that are going 
to happen, and I just wonder if we're not being as candid as we 
should be with the American people about what we're into over 
there. And I think they would probably feel more comforted if 
maybe we leveled with them a little more than maybe what we're 
doing right now. And I would like you to react to that.
    Mr. Wolfowitz. Senator, I think we are being candid. We try 
to be candid, and things change. We had a plan that 
anticipated, I think, that we could proceed with an occupation 
regime for much longer than it turned out the Iraqis would have 
patience for. We had a plan that assumed we would have 
basically more stable security conditions than we've 
encountered. In response to both of those changes, we have 
considerably speeded up the transition to sovereignty. And I 
share Senator Biden's comments that I think we should put a lot 
of focus on successful elections. I think that's going to be 
one of the keys to changing the way Iraqis view us.
    With respect to the security problem, we have enormously 
speeded up both the speed and the level of effort in equipping 
Iraqi security forces. I think it's--I don't remember the exact 
numbers, I could get them for you, some of those early polls 
were very striking, because they had overwhelming percentages 
of the Iraqis polled--I think in the neighborhood of 70-plus-
percent--saying they wanted the Americans to leave, and equally 
large numbers wanted us to stay for at least 2 years. That's 
not a contradiction; it's people who genuinely welcomed us as 
liberators but did not want us owning their country or 
occupying their country. I think this label of occupying power 
is a very unfortunate one. It will be good, July 1, to be rid 
of it.
    Senator Voinovich. Actually, some people have exploited 
that, and that is why this transition to turn it over to them 
is very, very important. Do you believe that, because we're 
doing that, that that's going to lessen some of the ability of 
people like al-Sadr to ignite folks to be against us?
    Mr. Wolfowitz. Senator, you're absolutely right, although 
it is not going to be transformational on July 1. That is why 
Senator Biden is so correct when he says the key thing I think 
is going to be not when they have a sovereign appointed 
government, but when they have a sovereign elected government. 
The issue of Mr. al-Sadr, I think, is--everything that I see 
suggests this is a man who is very young, exploited, a very 
distinguished family name. Both his father and, I think, his 
great uncle were distinguished religious clerics and martyrs, 
but he's basically intimated a large part of the country by 
putting together gangs of young people with heavy weapons and 
an ability to intimidate people. And as our operation has begun 
to shut down those operations, what we're also seeing is a lot 
of Iraqis in the south, who I think were intimidated by him 
previously, coming out and saying, we've had enough of this 
lawlessness. And I'm told that AP has reported that Ayatollah 
al-Sistani has actually now come out publicly and said al-
Sadr's forces should get out of Najaf and Karbala. That's an 
early report. I would be careful with it. But certainly we're 
hearing many reports that as Iraqis see law and order being 
restored, they're coming out much more openly against al-Sadr. 
So I think, in that case, we're dealing with a fairly thuggish 
individual, who, with the power of the gun, was intimidating 
people. I think it is, by no means, as serious a problem as the 
much more ruthless former elements of the old regime and 
terrorists that we're dealing with up north.
    Senator Voinovich. Is he getting any encouragement from 
Muslims in Iran?
    Mr. Wolfowitz. My impression is that the Iranians are 
finding him an embarrassment. I don't know, Rich, if you would 
want to comment.
    Mr. Armitage. If I may, you used a sports analogy about a 
jump-ball, and I know this is not a game, it is very serious 
business, but if you will allow me, we've got a game plan, but 
we are going to have to audible from time to time. Muqtada al-
Sadr is a case of an audible. This is a thug, just as Paul 
described. He has been unable to garner popular support, Shia 
support, in the south. They are turning on him. And as I said 
earlier, Senator Voinovich, when our forces come in with wisdom 
and determination carefully there, they've been welcomed by 
people. The situation is very complex. It is not good, but 
there are some signs that we ought to look at, and that is one 
of them.
    The Iranians actually came to Baghdad, and they met with 
the British and they met with us to talk about Muqtada al-Sadr, 
because, as Paul suggests, they find him an embarrassment, and 
he is getting in their way.
    Senator Voinovich. Well, has any thought been given to some 
type of effort to--instead of having a kind of a democracy that 
we're hoping for, that we'll end up with something like we have 
in Iran?
    Mr. Armitage. We've been very leery of it, very watchful of 
it. And we're, thus far, quite satisfied that the most 
important cleric, Grand Ayatollah al-Sistani, has stated that 
he does not want a theocracy. If there's another surprise in 
this area, it was the more secular nature of Iraqi society than 
I had initially understood, though that is in no way a 
suggestion they're not faithful to their beliefs.
    Mr. Wolfowitz. In fact, Senator, I think, before you came 
in, I mentioned that there was a report recently of some 17 
local elections in southern Iraq where the Islamists were 
defeated in most of those elections.
    Senator Voinovich. I heard that, and I was, quite frankly, 
surprised at that. So that you believe that there is enough 
support for some type of secular Western type of democracy 
there?
    Mr. Wolfowitz. I think, Senator, most Iraqis don't want to 
go back to a tyranny, even the ones who are deeply religious. 
And if there's a fair degree of local autonomy, it wouldn't 
surprise me that in some parts of Iraq you find very 
conservative governments with respect to issues like what kinds 
of images you can show on television, for example. But I don't 
think most Iraqis would--if they're free to vote their 
conscience, would want to see a government that imposes a kind 
of tyranny they see in Iran. They've been through 35 years of a 
different sort of tyranny.
    Senator Voinovich. Well, certainly what has happened in 
that prison has really been ammunition for those who talk about 
us defiling their country.
    Mr. Wolfowitz. Terrible ammunition. But I hope that the way 
in which we deal with it will be an example, that this is a 
country that doesn't tolerate abuse and that punishes abuse, 
and that hopefully Iraq will be the first Arab country that has 
the same approach to those things.
    Senator Voinovich. I would just like to also say--you say 
you need this resolution from the United Nations, but you're 
not certain you're going to get it, and it just seems to me 
that one of the things--when we supported the $87 billion for 
Iraq, one of the conditions was that we would get support from 
other countries in terms of reconstruction, and we would get 
support from other countries in terms of reducing their debt to 
the country. Are we getting any--we've got some help, but it 
seems to me that it is not very enthusiastic.
    Mr. Armitage. Perhaps I misspoke. We're going to get a U.N. 
Security Council resolution. And the good news, from my point 
of view, is the consultations--the informal consultations, both 
in New York and, more recently, Secretary Powell's 
consultations with the G-8, indicate that all of our thinking 
is within certain acceptable bounds. So it's a matter of 
working out and accommodating everyone's views. So I'm 
absolutely positive we're going to get a U.N. Security Council 
resolution, without question.
    Senator Voinovich. Again, can you repeat how much 
reconstruction money have we got from other countries, and how 
many countries have reduced their debts or eliminated them 
since we've made the $87 billion commitment?
    Mr. Armitage. The international donors, I believe came up 
with $13.8 billion dollars, of which about a billion has been 
disbursed. We are into it for $20 billion, as you've indicated, 
sir. All the major debtors, except for Russia, I believe, have 
indicated a willingness to engage in substantial debt 
reduction. It hasn't happened yet, but that's the status, as I 
know it.
    Senator Voinovich. The question I have is that when we 
passed that--authorized the $87 billion, there was a 
requirement in there for a report. Have we ever received a 
report back from you yet on where we stand, in terms of that 
request? The report?
    Mr. Armitage. I don't know, and I'll find out.
    Senator Voinovich. Well, I would like to see it, because 
I've asked this question several times, and I would like to see 
exactly how much money are we getting from our allies and how 
much are they cooperating with us. Because, again, you get back 
to the streets of Ohio, and people are saying, we are Uncle 
Sugar. We're over there and we're taking care of everything, 
and where are the rest of the people that should be interested 
in what happens in Iraq as we are interested in it? Where are 
they?''
    Mr. Armitage. That's the neighbors, you bet. I'll find out 
where it is, Senator.
    [The following information was subsequently provided:]

                         United States Department of State,
                              Washington, DC 20520, March 11, 2004.

The Honorable George Voinovich
Committee on Foreign Relations,
United States Senate.

    Dear Senator Voinovich:

    Pursuant to Section 2215(3)(b) of the FY 2004 Emergency 
Supplemental for Iraq and Afghanistan (P.L. 108-106), please find 
enclosed a report on Iraq and Afghanistan.
    We hope you find this information useful. Please do not hesitate to 
contact us if we may be of assistance on this or any other issue.

            Sincerely,
                                     Paul V. Kelly,
                                       Assistant Secretary,
                                               Legislative Affairs.

Enclosures: As stated.

               Report to Congress on Iraq and Afghanistan

    This report is submitted pursuant to Section 2215(3)(b) of the FY 
2004 Emergency Supplemental for Iraq and Afghanistan (P.L. 108-106) 
(``the Act''). It details:

          1. ``The amount of debt incurred by the Government of Saddam 
        Hussein in Iraq, the impact forgiveness of such debt would have 
        on reconstruction and long-term prosperity in Iraq, and the 
        estimated amount that Iraq will pay, or that will be paid on 
        behalf of Iraq, to a foreign country to service such debt 
        during fiscal year 2004.''
          2. ``The efforts of the Government of the United States to 
        increase resources contributed by foreign countries and 
        international organizations, including the United Nations, to 
        the reconstruction and rehabilitation of Iraq and to increase 
        international participation in peacekeeping and security 
        efforts in Iraq.''
          3. ``The manner in which the needs of people with 
        disabilities are being addressed in the development and 
        implementation of programs, projects and activities funded by 
        the United States Government in Iraq and Afghanistan.''
          4. ``The progress being made toward indicting and trying 
        leaders of the former Iraqi regime for war crimes, genocide, 
        and crimes against humanity.''
          5. ``The efforts of relevant Iraqi officials and legal 
        advisors to ensure that a new Iraqi constitution preserves 
        religious freedom and tolerance of all faiths.''

                                 Report

                             I. IRAQ'S DEBT
    Although efforts to reconcile data numbers are ongoing, we estimate 
Iraq's external official debt to be approximately $120 billion, 
virtually all of which was incurred during the period of Saddam 
Hussein's regime. The IMF's Macroeconomic Assessment, done in October 
2003 for the Madrid Donor's conference, noted that Iraq is one of the 
most heavily externally indebted countries in the world. The 
Macroeconomic Assessment added that Iraq's fiscal situation would 
remain under strain for years even assuming increased oil production 
and domestic tax revenues and that Iraq would need ``generous 
restructuring'' of its external debt to achieve sustainability. The IMF 
is in the process of completing its Debt Sustainability Analysis for 
Iraq.
    The United States has been working to encourage the international 
community to forgive or at least substantially reduce the large amount 
of debt that Iraq accumulated under Saddam Hussein. On December 5, the 
President named former Secretary James A. Baker III as his Special 
Presidential Envoy to work with the world's governments at the highest 
levels in seeking to restructure Iraq's official debt. In December and 
January, Baker traveled to Europe (France, Germany, Italy, Russia, and 
the UK), Asia (Japan and China), and the Gulf (Saudi Arabia, Kuwait, 
the UAE and Qatar), and successfully secured commitments from the 
leaders of these nations to provide at least substantial debt reduction 
for Iraq in 2004. The United States will continue to work toward the 
goal of debt reduction for Iraq in 2004. The exact percentage of 
reduction is subject to further agreement among parties.

   II. INTERNATIONAL SUPPORT FOR RECONSTRUCTION AND PARTICIPATION IN 
                       PEACEKEEPING AND SECURITY
A. International Support for Reconstruction
    The United States has been successful in raising support from the 
international community for the reconstruction and rehabilitation of 
Iraq. The U.S. played a major role in organizing the highly successful 
Madrid Donors' Conference in October. Representatives of 73 countries 
and 20 international organizations attended the meeting as well as 
members of the Iraqi Governing Council. The official tally of the 
Conference's results showed final pledges of at least $32 billion, 
including our own pledge of $18.4 billion in grants from the FY 04 
supplemental; the highest ever obtained at an international pledging 
Conference.
    Non-U.S. pledges, around $13 billion, will be a mixture of grants 
and loans to be disbursed during 2004-2007. Not included in the pledge 
numbers for other donors are offers of trade credits, in-kind 
assistance, and technical assistance (including training).
    The World Bank and the United Nations Development Program have just 
established trust funds within an International Reconstruction Fund 
Facility for Iraq (IRFFI). Senior Iraqi officials, along with a U.S. 
Government team, will meet with other major donors in Abu Dhabi at the 
end of February to discuss the functioning of the trust funds and other 
aid coordination issues.
B. International Participation in Peacekeeping and Security
    The United States has broadened international military 
participation in Iraq. There are now 34 countries contributing 
approximately 24,000 troops to the stabilization of Iraq, including two 
multinational divisions led by the United Kingdom and Poland. In 
addition, the Iraqis themselves now contribute to their own 
stabilization. There are over 200,000 Iraqi police, military, and civil 
defense forces on duty. In total, 65% of security forces in Iraq are 
non-U.S.
    We continue to seek additional international participation in the 
security and stabilization of Iraq. We anticipate new contributions, 
including pledges by the Korean and Japanese governments to increase 
their current contingents that will add a total of 4,000 troops. 
Armenia, Tonga, and Bosnia-Herzegovina have also recently made formal 
offers of forces, and we are continuing discussions with seven other 
nations on their informal contribution offers.

                                  Iraq

         III. ADDRESSING THE NEEDS OF PEOPLE WITH DISABILITIES
    Department officials met with organizations representing the rights 
of the disabled during the summer of 2003. Discussions addressed the 
opportunity presented by reconstruction to ensure that the needs of the 
disabled are met in the new Iraq, both legally and in terms of 
infrastructure and services. These organizations reported that they had 
approached the Polish government with a proposal to conduct a 
conference in Warsaw in late 2003 that would result in a set of 
recommendations for the CPA. The Department forwarded this information 
to CPA representatives in Baghdad.
    The Ministry of Human Rights in Iraq, established pursuant to CPA 
order and opened on February 14, 2004, is mandated to protect and 
promote human rights. Concerns regarding the rights of the disabled and 
steps necessary to safeguard them have been brought to the Minister's 
attention. The USAID/Mission in Iraq has adopted a formal, written 
policy on the rights of the disabled and has begun to implement that 
policy. USAID is refurbishing the Kirkuk Rehabilitation Center, which 
principally serves Iraqi veterans and others who have lost limbs, and 
has worked to accommodate disabled travelers at the Baghdad and Basrah 
airports.

                              Afghanistan

    Through the Leahy War Victims Fund (LWVF), the United States 
supports the United Nations Development Programme's Comprehensive 
Disabled Afghan's Program (CDAP). The program is constructing five 
community rehabilitation centers using ADA accessibility guidelines 
that will serve 1,000-1,500 persons. It also provides technical 
assistance to the Government of Afghanistan to meet the needs of people 
with disabilities. The LWVF also supports international NGOs, such as 
Handicap International, which provides wheelchairs and wheelchair 
training to disabled persons in Kandahar. USAID is completing 92 
handicap-accessible schools and 220 handicap-accessible clinics, 
expected to be operational by June 2004.

                             IV. WAR CRIMES
    Our policy is to see Saddam Hussein and others who committed war 
crimes and crimes against humanity prosecuted by Iraqis. We are working 
closely with the Iraqis to help them create a fair, transparent and 
effective process, which will stand up to international scrutiny and 
conform to international standards of human rights and humanitarian 
law. The new Iraqi Government will decide how former regime officials 
currently in detention under USG or Coalition control will be tried, 
and how proceedings will be conducted.
    Mass grave sites have been discovered all over the country; to 
date, approximately 263 sites have been identified, of which 
approximately 40 have been confirmed. Hundreds of thousands of people 
are missing--current estimates are that between 300,000 and one million 
people remain unaccounted for from the period of Saddam's regime.
    The Iraqi Governing Council, with input from CPA and others, 
drafted the Statute creating an Iraqi Special Tribunal. Ambassador 
Bremer delegated to them the authority to promulgate the Statute; it 
was issued on December 10, 2003. We believe the Statute provides enough 
flexibility to achieve a fair process. Highlights of the Statute 
include:

  <bullet> Jurisdiction over crimes of genocide, crimes against 
        humanity, war crimes, and specified violations of Iraqi law, 
        committed between July 17, 1968 and May 1, 2003.

  <bullet> Judges, prosecutors, investigative judges, and the 
        Administrative Director shall be Iraqi nationals; however, the 
        Iraqi Governing Council can appoint non-Iraqi judges.

  <bullet> Non-Iraqis must be appointed to serve as observers/advisors 
        to each of the Chambers.

  <bullet> Penalties that may be imposed by the Tribunal shall be those 
        prescribed by Iraqi law.

  <bullet> Rights of the accused include a presumption of innocence, 
        entitlement to a public hearing, representation of counsel, 
        confrontation of accusers, right against self-incrimination and 
        right to remain silent.

                    V. PRESERVING RELIGIOUS FREEDOM
    President Bush recently reiterated our commitment to religious 
freedom in Iraq, calling in a nationally televised interview for an 
Iraqi constitution that ``recognizes minority rights and freedom of 
religion.'' Promoting an atmosphere of religious tolerance and insuring 
the individual right of thought, conscience, and religion in Iraq, are 
important elements in creating a stable environment in which democracy 
can flourish.
    It is essential that the documents that will form the foundation of 
the new Iraqi government enshrine the principle of religious freedom. 
The November 15 agreement between the Iraqi Governing Council and the 
Coalition Provisional Authority established, in accordance with UNSC 
Resolution 1511, a timeline and program for the restoration of Iraq's 
governmental authority and the drafting of a permanent constitution. 
The agreement calls for a fundamental law (currently referred to as the 
Transitional Administrative Law (TAL)), which will govern Iraq until it 
has ratified a permanent constitution, to include a provision 
guaranteeing religious freedom. CPA officials have repeatedly conveyed 
to Iraqis involved with the TAL drafting process our expectation that 
the final document will contain guarantees of religious freedom in 
accordance with international standards and Iraq's international treaty 
obligations.

    Mr. Wolfowitz. I would say there's $12 billion of Iraqi 
funds that have been applied to running the government and 
doing the reconstruction, and another $8 billion committed for 
the rest of this year.
    Senator Hagel [presiding]. Let me announce, for the benefit 
of the members here, there's a vote on. Chairman Lugar has gone 
to vote. He will be back, and he will continue this hearing.
    Senator Dodd.
    Senator Dodd. Thanks, Mr. Chairman. And maybe if someone 
would call over and see if they would hold it up a couple of 
minutes so we can get a line of questioning in here.
    Senator Biden. They've already said they would hold it a 
few more minutes. There's 6 minutes left.
    Senator Dodd. Well, thanks. And thanks to our witnesses for 
being here. And let me echo the comments, by the way, of 
Senator Sarbanes, about you, Senator Biden and Senator Lugar. 
These have been tremendously helpful, these hearings, and it's 
exactly what the Congress should be doing. In the absence of 
legislating, holding oversight hearings on critical issues, 
both domestic and foreign, are absolutely essential, and these 
have been worthwhile hearings. And I want the chairman and the 
ranking member to know how much all of us appreciate it very, 
very much.
    Let me begin by just expressing to you what I think is 
obvious, but probably needs to be stated again, and that is, 
anybody who ever thought this was going to be easy was deluding 
themselves. This is a difficult task. And so you all know that 
as we raise questions about these matters here, at least I 
think for all of us on this side of the dais, there is an 
appreciation of how complicated and difficult this mission is.
    Second, I think, without exception, all of us want you to 
succeed, want the administration to succeed, want this policy 
to succeed, that it's critically important that the present 
situation we find ourselves in--and the exact description, I 
think, that Senator Voinovich gave is one that is not narrowly 
held; there are a lot of people across this country who are 
very, very worried about how this is progressing, what the end 
game is, whether or not we're going to achieve even a part of 
our goals here, and the growing fear that we may even be, in 
some ways, in a worse situation if we're not careful at the end 
of all of this. So I raise that point with you.
    And to express what Senator Voinovich said, and it's my 
view, as well, one of the concerns I have is the lack of candor 
and transparency about what is going on. And let me, if I can, 
jump to this issue of the prison abuses, if I may for a minute. 
I'm very interested in knowing whether or not the State 
Department was aware of the situation at the prison. We know 
now that General Myers had asked CBS to delay using those 
photographs for several weeks. Was the State Department aware 
of this, Mr. Armitage?
    Mr. Armitage. If I may, we were aware that there were some 
alleged abuses, back in the January/February timetable, and 
Secretary Powell, as he said publicly, made this a subject of 
discussions with his colleagues, the principals, as well as the 
President.
    Senator Dodd. Were you briefed on it, though? Were you 
actually briefed on the Taguba Report?
    Mr. Armitage. No, we were not briefed on it, to my 
knowledge; we heard from the press that there were photos, 
about a week or so before they appeared.
    Senator Dodd. So were you aware that a request had been 
made to a major network to delay the release of those 
photographs?
    Mr. Armitage. I was aware, because the press person who 
told me worked for that network.
    Senator Dodd. The reason I raise it, we had Mr. Negroponte 
here, and all of us supported his nomination, and he appeared 
here on the 27th of April. The reports came out the following 
day. And I'm just curious as to why, in the interest of candor 
and transparency, that either in direct testimony or a response 
to questions, the designee to be the Ambassador to Iraq 
wouldn't have laid out to this committee a critical issue that 
was about to explode onto the public scene within 24 hours.
    Mr. Armitage. I don't think he knew anything about it. I 
don't think any of us in the Department of State had any idea 
what were on the pictures. I've told you the sum of our 
knowledge of this, that there were some photographs.
    Senator Dodd. But, beyond that----
    Mr. Armitage. I don't think he had any inkling.
    Senator Dodd. Because Senator Feingold asked John 
Negroponte very specific question about the human rights 
issues, and it would have been a perfect opportunity, if not in 
direct testimony, to say, by the way, we've got a problem here 
that you ought to be aware of, whether or not he could give you 
the details, but certainly to lay it out to the committee would 
have been helpful at that point.
    Mr. Armitage. I say, again, I don't think he knew anything 
about pictures, Senator Dodd.
    Senator Dodd. But he knew about the prison abuse.
    Mr. Armitage. I'll have to find out. We, in the Department 
of State, knew about, and I don't know how much he was read 
into it as he went through his confirmation preparations.
    Senator Dodd. Well, wouldn't he have been briefed?
    Mr. Armitage. He wouldn't have been briefed in New York, 
sir. I don't know if he was briefed down here on it.
    Mr. Wolfowitz. Senator, I think the whole world knew that 
there was prison abuse. Central Command announced the 
investigation, I think, January 16, and, I believe, in March--I 
don't know the exact date--they announced that criminal 
proceedings were being brought against some U.S. military 
personnel. The shocking part of it is when you see the pictures 
and you understand what is being talked about.
    Senator Dodd. I understand that, Mr. Secretary. I'm not 
trying to get down to the details. I'm just--about the candor 
and transparency. Now, I know when particularly a sensitive 
issue, like the Ambassadorship to Iraq is coming up, there's a 
Q&A period, and you go back and forth, and it goes to the point 
that Senator Voinovich is raising. This is where we begin to 
get ourselves in trouble. Sometimes it's not the act, it's the 
perjury that occurs. I'm not suggesting perjury was the case 
here, but it's usually being candid about what is going on, and 
how all matters are revealed, how they become--the public 
becomes aware of things. So what I'm trying to get at is 
whether or not John Negroponte was aware of the abuses, whether 
or not he had seen the photographs or not, whether or not, 
during the question-and-answer period of training and 
preparation for him to come up here, these issues were raised 
in any way.
    Mr. Armitage. I'll ask him.
    Senator Dodd. But you're not aware of it.
    Mr. Armitage. No, I'm not, sir.
    Senator Dodd. Let me, if I can, pick up very quickly on a 
question that Senator Sarbanes raised and the chairman wisely 
asked you to possibly amend answers, particularly with regard 
to contractors dealing with detainees or prisoners. How would 
you feel about just a direct prohibition of having contract 
employees involved in the interrogation of detainees and 
prisoners in Iraq? One of the problems, it seems to me here, is 
the lack of authority and direct control of some of these 
people. I guess there are 20,000 of them in the country. Do you 
have a quick response as to how you would feel about such a 
prohibition against contractors being directly involved in the 
interrogation of detainees?
    Mr. Wolfowitz. Senator Dodd, there are so many people 
trying to look into this and fix the problem, I wouldn't want 
to speculate. I do think it is absolutely essential--a lesson 
from this is not to have people involved in interrogation who 
aren't thoroughly trained and disciplined and know the rules 
and follow the rules. And if you could have a contractor that 
meets those qualifications, it might be better than having a 
less-well-trained uniformed person. But I think it absolutely 
brings home the importance of having disciplined, trained 
people doing the work.
    Senator Dodd. Mr. Armitage.
    Mr. Armitage. I don't know what the military manpower 
situation is, but to have this done without training and 
without oversight and supervision is not acceptable.
    Senator Dodd. Let me ask you about--there was apparently, 
in January of 2002, a memo from the legal counsel at the White 
House--Mr. Alberto Gonzalez, wrote a memo to the Department of 
State--wrote to the President and the Department of State, I 
guess--in which he says, ``In my judgment, this new paradigm of 
terrorism renders obsolete Geneva's strict limitation on 
questioning of enemy prisoners, and renders quaint some of its 
provisions of the Geneva Accords.'' Were you aware of that 
memo?
    Mr. Armitage. Yes, I was aware of it as I came here today, 
because I saw our General Counsel look at it. I don't remember 
seeing it at the time, and I've heard, and I will have to 
check, and I think you will want to check, that that quote was 
disavowed, that it was in an earlier draft of a memo that was 
being prepared and was not in the final draft, particularly the 
comment about ``obsolete.'' But you've now, or I've, adjusted 
my knowledge of this.
    Senator Dodd. Do you want to comment on what's your own 
reaction? I gather that the Secretary, the quote was, ``hit the 
roof'' on all of this. Now, this goes back to January 2002, 
more than 2 years ago. But it raises concerns on the part of 
many of us here that, in fact, prior to, actually, the 
commencement of hostilities in Iraq, that there was this 
preparation, a notion that we were going to sort of walk away 
from the rule of law. And I wonder if you might take an 
opportunity here, both of you, to comment on your general 
observations as to whether or not--whether he used the word 
``obsolete'' or ``quaint'' here, and I'm not going to--if they 
say that's an early draft--what is your view regarding the 
Geneva Convention, Geneva Accords, and whether or not the 
United States ought to be adhering to its principles and its 
letter?
    Mr. Armitage. Whether you're talking Geneva 2 or Geneva 3, 
it seems to me that what separates us and allows us to listen 
to a higher standard is, where principle is involved, or we're 
deaf to expediency. And so my view is, we ought to always do 
the principled thing, and we ought to embrace these. They are 
protections for us, as well as for others.
    Senator Dodd. Mr. Secretary.
    Mr. Wolfowitz. I agree with that, Senator. In fact, I think 
the U.S. military would view us as having a greater practical 
interest in the Geneva Convention than any other country 
because we count on them to try to protect our prisoners when 
they're detained. I would emphasize that if we're talking about 
January 2002, we're in the context of post-September 11, and 
the issue of how you try to obtain information that could 
prevent a repetition of the September 11 attacks on the United 
States was not at all in anticipation of a war in Iraq.
    Senator Dodd. I appreciate that. But you can certainly 
appreciate the fact that this is unsettling. This wasn't a memo 
from some freshman law student who may have an ideological 
point of view; this is the counsel to the President of the 
United States in the White House. Were you aware of this memo?
    Mr. Wolfowitz. No, I wasn't.
    Senator Dodd. Did the Department of Defense receive a 
similar memo?
    Mr. Wolfowitz. I can't tell you. I can find out.
    Senator Dodd. I would appreciate it if you would.
    [At the time of publication no response had been received.]
    Senator Dodd. General, do you have any quick comments on 
this?
    General Sharp. Sir, we are 100 percent behind the Geneva 
Convention and the importance of it.
    Senator Dodd. Thank you.
    Mr. Chairman, thank you.
    The Chairman [presiding]. Thank you very much, Senator 
Dodd.
    On this issue, as well as in the earlier one, if you would 
clarify for the record any further research you have on the 
counsel's memo, it is an important point, and we would 
appreciate your underlining that.
    Senator Coleman.
    Senator Coleman. Thank you. Thank you, Mr. Chairman. And, 
gentlemen, thank you for being with us today.
    These are challenging times, and we appreciate your 
efforts. There has been a lot of discussion about the course 
we're on, changing courses. General Sharp, I think you 
described the approach that I would like to see. It's not about 
changing course; we need to stay on course with the transition 
on June 30, we need to stay on course with elections at the end 
of the year and the start of the next year. But we have to 
continue--I think these are your words--continually reassess, 
based on the circumstances on the ground.
    Let me first just raise the issue of security. Obviously, 
the tragic killing of President Salim yesterday, can you talk 
to me a little bit about security, then, for folks on the 
Governing Council, American officials? Does that incident cause 
us to reassess circumstances on the ground and to change our 
course of conduct?
    Mr. Wolfowitz. Senator, Iraq is a dangerous place. I mean, 
I visited in late October, and was staying in the Al Rashid 
Hotel, and we were rocketed. One American was killed, and four 
Americans and one Brit were seriously wounded. It's going to 
keep happening. I think this enemy we're up against believes 
that if Iraq gets its own government, its own security forces, 
they're finished, and so they're going to be doing everything 
they can in the coming months--not just until July 1, but at 
least up until elections--to try to destabilize the country 
sufficiently to prevent that progress from happening.
    There's enormous heroism on the Iraqi side. These Governing 
Council members knew that they were targeted. One of their 
number, Akila al-Hashimi, was brutally murdered last fall, or 
late last summer, so they're real heroes. And, as I mentioned 
in my statement, some 350, by our count Iraqi security forces, 
police, civil defense corps have been killed fighting for a new 
Iraq, and my guess is the numbers are actually a lot higher. We 
keep very careful count, obviously, of our own numbers. I don't 
think we have the ability to do the same on the Iraqi side.
    Senator Coleman. One of the----
    Mr. Armitage. If I may, there's--something new will be 
introduced on 1 July, and that is that these Iraqi forces, who 
have fought, in many cases, valiantly, will no longer be 
fighting for the occupiers, they're going to be fighting for 
Iraq. And I think many who are expert in the Middle East, and 
in Iraq particularly, have noted that this is a new situation, 
and it's not as if the Iraqis don't know how to fight, but they 
will have a little something different to fight for.
    Second, on security, this is not generally what a State 
Department official would be talking about, but as we prepare 
for 140 State officers out there, we've got about 130 armored 
vehicles either there or on the way, we've got body armor 
ordered that will be there before 1 July, not normally things 
that State officers are having to do. But because the security 
situation is as it is, we have to take these precautions.
    Senator Coleman. One of the enemies obviously still active 
is al-Zarqawi. Help me understand. Do we know where his dollars 
are coming from? Do we know where his support is coming from? 
Do we--kind of a multiple question here--have a sense of how he 
is perceived by Iraqis?
    Mr. Wolfowitz. I think all we can say is there's money 
available both inside Iraq and some coming from outside. It 
goes to al-Zarqawi, among others. It comes from some of the 
same sources that fund al-Qaeda. Al-Zarqawi himself is called, 
I think, an al-Qaeda affiliate. I'm really not quite sure why 
we make these distinctions. He ran a terrorist training camp in 
Afghanistan, under bin Laden's direction, and then after the 
Operation Enduring Freedom, he fled Afghanistan, went to Iraq, 
has a number of ties to Iraqi intelligence, which seem to have 
grown thicker, although I emphasize--I should emphasize we know 
a lot less about these people than we would like to. They 
operate in great secrecy. It was a huge breakthrough when we 
captured Mr. Hassan Ghul, who was one of al-Zarqawi's senior 
lieutenants who was carrying a message from al-Zarqawi to one 
of his associates in Afghanistan. That's this remarkable letter 
that I think you've heard about and that I quoted in my 
testimony. We're pretty certain that al-Zarqawi has been 
working with former Iraqi intelligence officers and others in 
this fight in Fallujah, that he was probably there at least 
some of the time.
    And, unfortunately, the fact is that it doesn't take large 
numbers of people, especially if some of them are willing to 
commit suicide, to do enormous damage.
    Senator Coleman. Yes, about a month ago, we read the papers 
that Iraq was in the middle of an uprising, a civil uprising, 
al-Sadr on one side, Sunnis on the other. I don't see much of 
that. I mean, my sense is that we're killing al-Sadr's folks, 
and he is not replenishing. Give me a sense of the situation in 
Iraq, vis-a-vis, civil uprisings. Give me a sense of that.
    Mr. Wolfowitz. Let me make three points. No. 1, in al-
Zarqawi's infamous letter, where he expresses a sense of 
desperation that if they can't destabilize the country before 
it gets its own government, they will suffer what he calls 
``suffocation,'' he identifies his principal target as being 
attacks on the Shia in an effort to create a Shia/Sunni civil 
war. And that would explain a number of the attacks we've seen, 
including the horrendous bombings in southern Iraq on the 
Ashura holiday, and they've been totally unsuccessful in 
creating a Sunni/Shia civil war.
    No. 2, with respect to al-Sadr, we think it's a very 
different situation, that, in fact, as the Shia majority have 
come to understand, that there will be resolute action taken 
against him and his forces. Not only are we reducing his forces 
in number, but, equally importantly, we're getting more and 
more of the population coming out and speaking against him.
    On the worrisome side, I guess I would have to put on the 
table that up north, particularly in Kirkuk, which is a mixed 
Kurdish Arab city, we have had remarkable good luck over the 
last year in preventing what we've always feared could be a 
source of real ethnic violence. It's a little troubled right 
now, and it's one of the situations we're looking at closely. 
You know, we always get--we come up here, we try to emphasize 
some of the positive things that are happening. We're not 
trying to suggest, by any means, that this is a rosy scenario, 
but we do think that Iraq is moving forward toward self-
government and self-defense, and that's the key to winning.
    Senator Coleman. Do I have time for one more question, Mr. 
Chairman?
    The Chairman. Yes, you do.
    Senator Coleman. There was a statement by Ayatollah al-
Sistani recently saying it would be permissible--and this is 
his the statement--``permissible to demand the withdrawal of 
all military vestiges from the two cities and allow the tribal 
forces to perform their role in preserving security and 
order.'' What do you make of that statement?
    Mr. Armitage. We see a lot of statements attributed to 
Ayatollah al-Sistani, and if he made that one, I'm not sure--
but we've looked at it as a not-very-veiled reference that 
Muqtada al-Sadr ought to get out of Najaf and Karbala, himself, 
and particularly stop using holy places to store weapons and to 
foment violence.
    Senator Coleman. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Coleman.
    Senator Biden.
    Senator Biden. Thank you very much. The reason he's going 
to me, I didn't ask any questions yet. I apologize.
    General, let me ask you, if I may, to begin with, and this 
is a serious question, and I'll put it in context, because if I 
just ask it, it will sound strange. I remember when General 
Joulwan, in the Clinton administration, was put in charge of 
our effort in the Balkans. And I remember being in a meeting 
and he was asked, and I'm paraphrasing, do you have enough 
troops? And his response was, ``That depends on my mission, Mr. 
President. So what is my mission?'' President Clinton said, in 
effect, what do you think the mission should be? The general 
said, well, the mission is obviously force protection, No. 1. 
We have a mission to protect our own forces there. And, No. 2, 
do you want me, Mr. President, to go and capture the war 
criminals who have been indicted? Do you want me to guarantee 
the security of several-hundred-thousand people who have come 
down from the hills? Do you want me to disarm the populace? Do 
you want me to--and he went down the list. And he said, for all 
of those, I'll need x. And the President says, no, not all of 
those. So it's x-minus.
    So what is the mission? Is the mission of our force in 
Iraq, does it include civilian policing of Iraqi neighborhoods? 
Does it include fighting street crime, preventing kidnaping, 
catching thieves, as well as fighting insurgents? I mean, what 
is our mission? What's the mission statement you all have?
    General Sharp. Sir, the mission is to provide a secure and 
stable environment for Iraq. That encompasses several things 
right now. Clearly, killing terrorists and capturing 
terrorists. Second is working with Iraqi security forces to 
provide a safe environment for the people of Iraq in and among 
the cities. So, as you know, right now we patrol with Iraqi 
security forces, we train Iraqi security forces, and we are 
moving, in some cities, to be able to hand off a lot of that to 
the Iraqi security forces. So if you have to define----
    Senator Biden. Do you have enough forces for the mission?
    General Sharp. General Abizaid, General Sanchez, all the 
commanders on the ground--and I was there as recently as 3 
weeks ago--General Myers asked this very question to all the 
division commanders there, and their consistent answer was, 
across the board, ``yes,'' they have enough forces in order to 
be able to accomplish that mission, and are working hard to be 
able to get the security responsibilities handed off to the 
Iraqi security forces, and that's why you see----
    Senator Biden. Well, who are you going to hand them off--
excuse me for interrupting you--who are you going to hand them 
over to, general? There's no seriously trained Iraqi force now. 
I mean, this malarkey you guys came up with, that you've got 
200,000 trained Iraqis, I mean, every single solitary expert, 
including your guys that we met with in Iraq, said, it's going 
to take 3 years to train 40,000 Iraqi military, 3 to 5 years to 
get up to the 79,000 Iraqi police needed. And you point out 
you're doing a good job now, you're going out and trying to 
identify leaders to lead. You know, you haven't had those 
folks. So you really don't have except in some places--it's 
spotty--some places, you have folks whom you can rely on. And 
that's why, it's been pointed out to me by our military, the 
insurgents are smart enough to go blow up the police stations 
and blow up the policemen and blow up people who are in line 
signing up to become police officers and/or join the military. 
I mean, you know, these guys aren't stupid. That's their 
target. And I'm not suggesting there are not plenty of Iraqis 
who want to do this. But, right now, the military I speak 
with--you know that old thing, I know I'm going to be asked 
names, and, off the record, I'm happy to give you the names. 
There's a number of Iraqi Americans with families in Iraq who 
keep in touch with us. You know, I mean, all you've got to do 
is go to Detroit. And they say you still don't let your 
daughter out of the house, you're still not able to send her 
down to the corner store to get milk. You know, there is 
rampant crime. And all the evidence is, none of the Iraqis 
think that they have security. And it's not just insurgents. I 
mean, they're--everybody, like in Israel, is worried a bus is 
going to blow up.
    So I want to know for example, is disarming the militias 
part of the mission?
    General Sharp. Sir, let me----
    Senator Biden. All militias?
    General Sharp [continuing]. Talk to a couple of things. 
First off, to be clear, we are not going to hand off security 
on 1 July, writ large, across the country to the Iraqi security 
forces. As you point out, those security forces will not be 
nearly trained by 1 July. In fact, by 1 July, we'll have 
approximately 10 percent of the total required Iraqi police 
academy-trained, and another 20 percent trained by the shorter 
3-week program that our military does throughout the country. 
We will continue the--and are continuing to accelerate the 
training both in Jordan and in Baghdad and in Irbil and than at 
the different academies across the country. There's been a 
recent change where we have really started focusing on training 
mid-level leadership, specialized training, so that Iraqis who 
want to take security responsibilities have the capability to 
be able to do that.
    There is a CPA regulation out that says that you are not 
allowed to carry weapons without a card--you know, a weapons 
card. That has to be issued by the CPA or the correct 
authority. And as soldiers come and see people doing it, they 
are being arrested at doing it.
    Senator Biden. I believe you. If I could interrupt, in the 
interest of time, general. And by the way, I think you know, 
you're on the right track. I'm not being critical of what 
you're trying to do. What I'm trying to get at is, seeing 
someone with a weapon, and arresting them, is very different 
than aggressively----
    General Sharp. Yes, sir.
    Senator Biden [continuing]. Going and disarming the 
population. What about the militias? I don't mean just al-
Sadr's militia. What about the other militias that exist within 
the country? Is it part of the mission--I'm not saying it 
should or shouldn't; I want to know, though, is it part of the 
mission? Does a commander in the various regions in Iraq have, 
as a mission, to disarm the militias? Is that part of it?
    General Sharp. Sir, the militias, if they are active--let 
me start with--we actively go out to try to find weapons 
caches, and work on every tip that we get from the Iraqis to be 
able to get at--not just if we see weapons on the street, but 
the number of cordons and searches, the number of raids that we 
do, consistently brings in a lot of different weapons across 
the board. We are actively trying to get at all of those 
different weapons out there.
    Senator Biden. Do you have enough forces for that, general? 
I mean, we had 850,000 tons of open ammunition dumps that we 
didn't have enough soldiers to guard. So we obviously didn't 
have enough for the mission. I think that's right, 850,000 
tons, it may have been 900,000. We had helicopters, guys with 
night-vision goggles watching people go in and out, but we 
didn't have enough forces. Do we have enough forces now to be 
certain that--if there's any ammunition dumps that are still 
there, that we can either control them or destroy them?
    General Sharp. Sir, every time we find an ammunition dump 
out there, we assess, No. 1, how quickly can somebody take 
things out of that ammunition dump? If it looks like it's the 
type of ammunition and weapons that could go against Coalition 
forces, we immediately secure them. Is that to say that they 
are all completely secured across the country? No, there are 
some that have been covered up so that they could not be 
stolen. But we find ammunition caches every day, and they're 
using our forces to be able to try to destroy those and guard 
those.
    Senator Biden. Well, there are at least five major 
militias--the Da'wa Party, the Badr Brigade, the two Kurdish 
parties' militias al-Sadr's so-called army. Is it our policy, 
I'm not saying that we should or shouldn't, and part of the 
mission of Abizaid in Iraq to disarm the militias? That's my 
specific question for anyone to answer, including you, general. 
Is that part of the mission statement?
    General Sharp. Sir, the mission is to not allow any of the 
militia forces to be able to go against the rule of law in 
Iraq.
    Senator Biden. With all due respect, general, that's not an 
answer. The question is, do we specifically include in the 
mission statement the disarmament of the Da'wa Party's militia, 
roughly about 10,000 people, the Badr Brigade, roughly 10,000 
militia--by your numbers; is that part of the mission? I'm not 
suggesting it has to be. Is that a mission? Is that part of the 
mission?
    Mr. Wolfowitz. Senator, I think the correct interpretation 
of the mission statement that General Sharp just gave you is, 
that is not part of the mission unless it is necessary to bring 
them under control. And in the case of al-Sadr, it's proving to 
be necessary. In the case of the Kurdish militias, for example, 
it would give us--frankly, it would be a source of instability 
if we were to try to go out and forcibly disarm them. And, in 
fact, they have been a source of stability in many parts of the 
country--not one you want to rely on long-term, but the 
approach to those militias is to try, over time, to integrate 
them into new Iraqi security forces. And the real answer to 
disarming militias is to create an alternative security 
institution, and then the militias can go away.
    Senator Biden. Just a real quick adjunct to that. Are we 
using the Badr Brigade or the Da'wa militia, allowing them to 
independently engage al-Sadr in Najaf? Now, it's one thing to 
integrate the militias into a U.S. command structure so that 
there is some cooperation. And it's another thing--and I'm not 
saying one's right or wrong; it's just a different thing--to 
essentially give a green light to one of the militias to take 
on another militia in Iraq. With regard to Najaf and al-Sadr, 
are any existing Iraqi militia engaged, given the green light, 
to take on al-Sadr?
    Mr. Wolfowitz. You say engaged or given a green light. 
Engaged, they may do on their own. Green light means, I think, 
under our direction, our command, and----
    Senator Biden. No, not command. Just say, go to it, guys, 
any way you want. Not our command.
    Mr. Wolfowitz. Senator, that is precisely what we're trying 
to avoid, is----
    Senator Biden. That's why I'm asking the question.
    Mr. Wolfowitz [continuing]. We are trying to avoid it. I 
can't say that some--I mean, we're making a lot of--as 
Secretary Armitage has called them, audibles, and tactical 
commanders have to decide what is the best way to bring law and 
order, and I wouldn't want to rule out if, at some point, in 
order to deal with what you understand is one of our 
fundamental dilemmas in Najaf, which is----
    Senator Biden. I'm truly agnostic in this. I'm just trying 
to get at----
    Mr. Wolfowitz. I understand.
    Senator Biden [continuing]. What the deal is.
    Mr. Wolfowitz. And I'm trying to say, we're agnostic. The 
principle is to establish law and order in a disciplined way, 
and to do it without putting Coalition forces into the areas of 
the holy shrines in Najaf and Karbala. And that's why we're 
proceeding very carefully. We want Iraqis to do it as much as 
possible. We want regular Iraqi security forces to do it as 
much as possible. If some commander came and said, there's a 
militia force here that I would like to use, I'm sure it would 
be scrutinized pretty carefully, but I wouldn't rule it out as 
a possibility.
    Senator Biden. Mr. Secretary, you look like you've got your 
uniform back on.
    Mr. Armitage. No, I don't dare, but just--there have been 
some reports of the Badr Corps, as far as I know, independently 
have conducted some, what I'd call, low-level operations 
against the Medhi army.
    Senator Biden. Thank you.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Biden.
    Senator Nelson.
    Senator Nelson. Senator Biden, I'm not nearly as agnostic. 
I think we're going to have to have more troops.
    Senator Biden. Well, I'm not talking about the troops. I 
meant on the issue of whether or not we are engaging, using, 
and/or dealing with the militias of consequence in Iraq. That's 
what I meant. I wasn't making a statement. For purposes of the 
question, I'm agnostic on that issue. I'm not agnostic on the 
fact--as you may recall, I am literally the very first person 
here to call for significant increase in the number of American 
troops a year and 2 months ago.
    Senator Nelson. Well, as you have been a mentor to so many 
of us, I agree with you on that issue. And that is a predicate 
to ask this question. Given the fact that we have seen, for 
example, when were ready to take on Fallujah, parts of the Iraq 
Civil Defense force melted away--I know we are going through 
the training; I've been to one of the training camps for the 
police in Jordan--but when it came time for the ICDC to 
perform, they suddenly vanished. That's one of the reasons that 
I think we're going to have to have more troops, not less 
troops. And I was somewhat concerned when I saw, in the London 
Times of yesterday, that the shift of focus seems to be from 
talking about forces staying in Iraq as long as it takes to now 
that there's much of a focus on our forces leaving. And, 
specifically, the London Times is talking about that Blair and 
Bush are drawing up plans to speed the pullout.
    Mr. Secretary Wolfowitz, do you want to comment about that?
    Mr. Wolfowitz. I wouldn't believe everything I read in the 
London Times, or certainly not that one. We are looking at 
sustaining pretty high levels of U.S. forces, and certainly 
higher than we anticipated earlier, for some time. And I would 
add, we knew there were problems with the ICDC in Fallujah, the 
locally recruited one. The 36th Battalion of the ICDC, by the 
way, which was not a local battalion, did come to Fallujah, did 
do some pretty serious fighting. If you go up to Mosul, where 
General Petraeus' 101st Airborne Division trained ICDC, I 
think, more effectively than anywhere else in the country, they 
stood their ground and fought successfully and defended the 
government house in Mosul. So it's a mixed picture. What we 
believe is very important is that we think we know how to 
improve the picture in places like Mosul, from good to 
excellent, and in places like Fallujah, from terrible to, 
hopefully, at least moderate.
    Senator Nelson. How did they perform in Ramadi?
    Mr. Wolfowitz. Probably not very well.
    Senator Nelson. They melted away.
    Mr. Wolfowitz. And, in some cases, they helped the enemy. 
That's one of our problems.
    Senator Nelson. Mr. Secretary Armitage, you know my----
    Mr. Wolfowitz. Senator Nelson, if I might say, I mean, so 
everyone understands, Fallujah and Ramadi have been, since the 
beginning, the most difficult parts of the country with the 
most seriously embedded elements of the old regime there 
fighting us.
    Senator Nelson. Mr. Secretary, you know my personal 
affection and respect for you. I want to pick up on a question 
that Senator Dodd was asking, and follow that. The media has 
reported that Secretary Powell expressed concern about the 
prison abuses to Secretary Rumsfeld. Would you pick up on that 
and tell us what you know?
    Mr. Armitage. I don't think my job is to exactly say what 
Secretary Powell said to any of his Cabinet colleagues. 
However, since he himself has said that when he was informed of 
these by Mr. Kellenberger, of the ICRC, and laterally he 
actually received a report through CPA in February, he raised 
these with all the principals, not just Secretary Rumsfeld, as 
well as with the President.
    Senator Nelson. And that was when?
    Mr. Armitage. February.
    Senator Nelson. Let me ask you, regarding Iran, Iran has 
been making some noise regarding the U.S. presence specifically 
fighting the Shi'ites. What have we communicated to and with 
Iran on this subject?
    Mr. Armitage. I think yesterday or the day before, they 
made some very strong noises about this, opposed to any 
violence to any Shia. This was the loudest noise that they've 
made recently. We have communicated to them, in no uncertain 
terms, that the solution to the question of Muqtada al-Sadr is 
one that doesn't need their active involvement in any way. 
We've also said that we are watching their activities in the 
south, particularly provision of money to certain clerics who 
try to win favor, and we view it with disfavor, and they would 
be judged by their actions in the south.
    Senator Nelson. Would you feel comfortable, in this setting 
or closed setting, of sharing with us some of the specific 
communications and how it's been received by Iran?
    Mr. Armitage. We normally, except for the time--the recent 
event where the Iranians came to Baghdad and had a very 
businesslike discussion with the British and our representative 
about the question of Muqtada al-Sadr. We normally communicate 
through the Swiss, and I'd be glad to come up and show you the 
tone and tenor.
    Senator Nelson. And would you also, at that time--and I 
would welcome that--also talk to us about to what degree are we 
getting through to Iran that they should be stopping their 
nuclear program?
    Mr. Armitage. I'll be glad to discuss that now. We, along 
with our European friends, have--we have been skeptical from 
the beginning about their willingness to stop the nuclear 
program. Our European friends have been somewhat less 
skeptical. But, in recent months, given the difficulty that the 
IAEA has had in getting Iran to do what they said they'd do, 
ratify the additional protocol and throw open to inspection 
those things which need to be thrown open for inspection, and 
say there's a gathering feeling in Europe, that they're hiding, 
and they're holding something out.
    Senator Nelson. You are going to be getting a letter that 
Senator Ensign and I are now circulating for signatures on this 
subject. It's addressed to the President, but I'm sure that you 
all will weigh in on it. And this is something that I would 
like to followup in detail, perhaps in a closed session. The 
concern of the interests of the United States being threatened 
by a nuclear Iran, of course, is enormous.
    Could you tell us something about, Mr. Secretary, the 
corruption in the ministries in Iraq?
    Mr. Armitage. There is a lot of speculation in the very 
free Iraqi press about this. Anyone who's seen participating in 
the Governing Council is, at one time or another, as far as I 
can see, accused of these matters. There are some 
investigations which are ongoing, which I would prefer not to 
mention here and would refer you to IGs and others. But I think 
there's a lot of speculation that makes it seem that it's a lot 
higher than it is. Having said that, there's no question, some 
people have used their positions to enrich themselves or people 
around them have used their position to enrich themselves 
without, necessarily, reference to the principal.
    Senator Nelson. Either you or Secretary Wolfowitz, would 
you care to comment about the cutting off of the payments to 
Mr. Chalabi?
    Mr. Wolfowitz. That was a decision that was made in light 
of the process of transferring sovereignty to the Iraqi people. 
We felt it was no longer appropriate for us to continue funding 
in that fashion. There has been some very valuable intelligence 
that's been gathered through that process that's been very 
important for our forces, but we will seek to obtain that in 
the future through normal intelligence channels.
    Senator Nelson. Mr. Chairman, thank you.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. I appreciate the 
hearings you're having. I think the topics on the table are 
absolutely essential for us to explore.
    I have to say, I'm a little out of sync with some of my 
colleagues. I think there is a basic question that I think 
needs answering, and it is, are we ready for anything that 
looks like a credible transfer of sovereignty on June 30? I 
just don't understand how we can be so bent on it, when we 
don't know--we're told that sovereignty would include the 
ability of the Iraqis to formulate foreign policy and 
diplomatic relationships, and then I wonder how they're going 
to deal with the Iranians post-June 30. I don't understand what 
it means to transfer sovereignty when the command and control 
of prisons is not yet identified, if I heard a response to 
Senator Hagel's questions earlier-on and questions about 
contracting and projects, which, at least under Secretary 
Armitage's comments, said would be under the control of Chief 
of Mission that would assume the ultimate authority for all the 
projects and contracts as of July 1.
    Mr. Armitage. For U.S.-appropriated money, sir.
    Senator Corzine. Right. Well, are the Iraqis going to be 
able to make that distinction and understanding with regard to 
how that operates, either with regard to contractors or major 
projects that are going on? I think a failed transfer runs 
grave risks for the long-run potential of success of providing 
a stable and democratic Iraq over a period of time. And it may 
be good politics to make sure that we no longer have occupying 
power after our name, but if it is a puppet regime or if it is 
ineffectual, it may end up setting a framework for failure in 
the long term. So I'm really troubled by it, and I make that 
more of as a statement than--I do have serious questions about 
how they formulate foreign policy and diplomatic representation 
in conjunction with how you're going to deal with the Iranians 
if they get in.
    Mr. Armitage. Thank you, Senator Corzine. I followed very 
closely your very excellent questions to my colleague, Marc 
Grossman, and these are clearly a follow-on to that, so you've 
had these concerns for some time.
    You're dead right, as far as I can see, an ineffectual or 
faulty transition would be a disaster for us. A puppet would 
even be worse. The TAL annex, which is to be written bu Iraqis, 
is going to contain the duties and the responsibilities of this 
caretaker government until January 2005. It is not an elected 
government, which has been remarked upon by all concerned, 
including Ayatollah al-Sistani. And as it's not a truly 
representative government, it has to be somewhat careful and 
circumspect in what it actually does.
    Ambassador Brahimi envisions that this government will run 
the operations day to day. What does this mean in foreign 
policy? They'll send out diplomatic communications. They could, 
in theory, establish relations with Iran over time. I'm sure 
they will. All the other neighbors have relationships with 
Iran. They make their own autonomous judgments, they run their 
budgets, they take their money from the oil, and they 
distribute it to meet their budget needs. So in everything, I 
think, except the ability to make long-range, lasting 
agreements, which tie the hands of a legally elected or a 
democratically elected government, they will have full 
sovereignty.
    Now, that's not Rich Armitage's view. This is Secretary 
Brahimi's view. This, I believe, is the view of the leading 
Iraqis who want to be sovereign, but don't want to have binding 
agreements in the long-run signed by somebody who's going to be 
there for 7 months.
    Senator Corzine. Well, it may not be treaties and long-run 
policies, but it is the opening for dialog that might be 
contradictory to establishing security and stability on the 
ground in southern Iraq, as we were just commenting on in 
another dialog. I just think my point really gets at that this 
transfer of sovereignty doesn't feel, to this Senator, as 
fleshed out in detail in a way that the American people, or at 
least I could convey to the people that I represent, that it 
has been challenged. And I don't know whether there are any 
contingency plans if it doesn't work. You know, is there 
serious thinking about what happens if a lot of these 
questions, which are reasonable for indefinite answers at this 
point, although we are only 44 days from this so-called 
transfer. Are we dealing with contingencies if this comes 
unwound?
    Mr. Armitage. I would--at the risk of being seen in your 
eyes as a wise guy, I'd say I prefer to look at this somewhat 
like people look at the music of Wagner; it's better than it 
sounds. It may be better than it sounds, particularly if the 
people of Iraq buy it. That's what's important, by the way.
    Senator Corzine. I couldn't agree more.
    Mr. Armitage. And if the leading lights in Iraq, and 
intellectuals and the academics, if they see it as a way 
forward, which dramatically makes the points that we're not 
occupiers, we're liberators, and as soon as they stand on their 
feet, we'll remove ourselves as soon as they can provide for 
their own security.
    Regarding plan B, I guess is what we often hear, there have 
been a lot of speculations about what a team B might be, an 
expanded Iraqi Governing Council, the existing members can 
bring in some more to be a caretaker government. Each of these, 
in the words of our former Chairman of the Joint Chiefs of 
Staff, Hugh Shelton, ``have a lot of hair on 'em.'' This has 
got the least hair on 'em. And I think we really need to try to 
see this thing through, particularly as we've got such a 
distinguished and able diplomat as Lakhdar Brahimi, backed up 
by the United Nations.
    Senator Corzine. May I switch gears? I think I have time 
for another question.
    Yesterday, there was an article in the L.A. Times about a 
remarkable deal in Fallujah. A Fallujah Brigade now controls 
the city. I had a comment that, you know, I'd love to hear 
whether you all agree with, or don't. I know you can't believe 
everything in the papers. But Fallujah is, for all intents and 
purposes, a rebel town, complete with banners, proclaiming a 
great victory, and insurgents integrated into the new Fallujah 
Brigade. And, as we know, we haven't accomplished bringing to 
justice those responsible for the killing of the contractors. 
Is this a model? As I read in the testimony, ``Indeed, dialog 
in cooperation with Iraqi leaders about situations in Fallujah 
and Najaf, it's been essential in moving toward resolution in 
both places.'' Is this a model that we think is working? Is 
this something that we can look forward to, to be implemented 
in how we integrate militia into future security arrangements 
in the Iraqi forces?
    Mr. Wolfowitz. Senator Corzine, I think it's too soon to 
tell, and the marines on the ground would tell you it's too 
soon to tell. And one hears reports like the one you described, 
and one hears some more positive reports--for example, what 
General Latif was doing just in the last 2 days. It will not be 
acceptable for Fallujah to become, again, a sanctuary for enemy 
fighters, and there are a number of red lines that the marines 
have laid down, and we'll have to see how that brigade 
performs.
    If I could go back to the question you asked Secretary 
Armitage, I think it would help the American people a lot if 
you explain that July 1 is just the first step in a process, 
and one of the most important steps is the one Senator Biden 
correctly identified, which is elections. That's going to be 
one of the keys. I think it also helps if you think of it--at 
the risk of maybe--I don't mean this at all condescending--but 
when you're teaching a youngster to ride a bicycle, you don't 
keep your hand on the seat the whole time. At some point, you 
have to take it off. In fact, the Iraqis have been assuming a 
great deal of responsibility already. I think 11 ministries are 
under Iraqi direction. There are very talented Iraqis. Their 
Foreign Minister is a very impressive man--the current Foreign 
Minister. I don't know if he will continue in that job.
    At some point, and sooner rather than later, it's important 
for them to make their decisions, it's important for them to 
feel it's their country. I agree with what I think was the 
thrust of Senator Biden's comments, that that will make the 
situation safer for our forces while they're there, and make it 
possible for us to leave sooner rather than later.
    I think it might also help the American people to realize 
that we've been in a similarly uncertain process in Afghanistan 
since December 2001, when a virtually unknown man named Hamid 
Karzai was selected by the same Ambassador, Lakhdar Brahimi, to 
lead the Afghan transitional administration, and it's been 
successful--I think, remarkably successful, because that wasn't 
the end of the process; it was the start of a process, and that 
process has led to a successful constitution for Afghanistan, a 
process that will lead to elections in Afghanistan.
    But let's be clear, I mean, democracy doesn't mean----
    Senator Corzine. It's also been very flexible with respect 
to a time table, too. There have been slides and slippages and 
movements and changes.
    Mr. Wolfowitz. And we need to be prepared to call audibles, 
as Secretary Armitage said. But we also--the purpose of all of 
this is not to meet any timetable of ours; it's to develop 
confidence on the part of the Iraqis that we're not there to 
take over their country, we're not there to seize their oil; we 
will stay while they need us, but they need to step up and take 
responsibility. And when they do so, they will make some 
decisions that we don't like. You know, we have a terrific ally 
in South Korea, a democratic ally, that has its own views about 
security on the peninsula, its own views about how to deal with 
North Korea. We're much better off for having a democratic ally 
than having some American puppet that does exactly what we say.
    Senator Corzine. I would concur with the analysis with 
regard to Korea. I think it took, what, 50 years, 30 years? It 
took----
    Mr. Wolfowitz. It's still in--very much in the----
    Senator Corzine [continuing]. A very long time.
    Mr. Wolfowitz [continuing]. Walking stage, but you've got 
to walk at some point.
    The Chairman. Thank you very much, Senator Corzine.
    Senator Biden and I have just a couple of questions each, 
and then we will conclude the hearing.
    Let me ask this basic question. Many scholars who have 
appeared before our committee have talked about the whole 
proposition of whether Iraqis feel like they want to be Iraqis, 
as opposed to Kurds or Sunnis or Shi'ites or members of Arab 
tribes. And this becomes a crucial question at the point that 
sovereignty passes on to the Iraqi people. As we turn over more 
authority, as we will be doing, to Iraq, what is your own basic 
assumption about the nationhood status, as opposed to the 
worst-case scenario? In this worse-case scenario the Kurds or 
the Sunnis or others do not find the arrangements satisfactory, 
either in the interim period or in the constitutional 
formulation, and, as a result, want a carve-out, or want 
separatism, or want their own situation, and are prepared to 
fight about it and create if not a civil war, at least elements 
of instability purely by their desire to not be coopted?
    Mr. Armitage. This possibility certainly exists, and we're 
very alert to it. And during the whole discussion of 
federalism, we were alert to it--and federalism, which devolves 
power to more local communities, but one that's based not on 
ethnicity, but on location, is where we went. I think we're 
somewhat heartened that, thus far, even in the face of someone 
whose avowed intention was to bring about civil war--al-
Zarqawi--that we haven't had it. And even in very troubled 
places where the Sunnis had displaced the Kurds in various 
cities and taken their lands under Saddam Hussein's rule, the 
violence that one would expect to occur after that has been 
somewhat lessened, partially because IOM and others have been 
in there working hard, but partially, I think, because most 
Iraqis are willing to give it a ride and see where it goes.
    Mr. Wolfowitz. Senator Lugar, I had a--actually, it was the 
same day that we were in the Al Rashid Hotel when it was 
attacked. That evening, we had dinner with Abdel Aziz al-Hakim, 
the head of the SCIRI organization, the younger brother of 
Mohammed Baqir al-Hakim, who was brutally assassinated in Najaf 
last August. This was late October. And I said to him that I 
thought there was a lot that Iraqis might profitably learn from 
our Constitution about the rule of law, separation of powers, 
and so forth; that I thought that they had two problems that 
are uniquely Iraqi that we probably couldn't help them much 
on--one was the issue that you're alluding to, of regional 
separation, and the other, I said, is the role of religion. And 
I was, frankly, surprised when he showed enormous knowledge of 
our Constitution. He said, ``No, I think your Constitution has 
the answer to one and a half of our two problems,'' and he 
proceeded to explain that the answer, in his view, to 
maintaining the unity of Iraq is what they call ``regional 
federalism,'' federalism that's based not on a Kurdish bloc and 
a Sunni bloc and a Shia bloc, but, rather much more local 
autonomy. And I do think a key part of holding that country 
together is to convince Iraqis that it's not going to be held 
together in the old-fashioned way, it's not going to be held 
together by a brutal central rule from Baghdad, that people 
will have a great deal of local autonomy. And I think the 
second part is to convince them that, nonetheless, there are 
real benefits to being Iraqis, that there are real benefits 
that flow from that relationship. And a Kurdish friend of mine, 
who is a prominent leader in the PUK, said, some time ago, 
``There's no reason why I, as an Iraqi Kurd, shouldn't be able 
to be a leader of this country.'' I think the challenge is 
going to be to make sure that those sort of possibilities are 
open, and that it doesn't become a monopoly of a single group, 
whether it's the 65 percent Shia majority or the old Sunni 
Ba'athist minority or any other single group.
    The Chairman. It's a very important conclusion. And I think 
all of our hopes are that the Iraqis will continue to counsel 
with us, despite the polls that have been given that they don't 
really care for us, and that they want us out of there. I hope, 
at least in this respect, that there will be some consultation, 
for our benefit. We want a stable, whole Iraq, and we think 
that they will, too. But ultimately, as we've suggested, the 
Iraqis are going to have to decide what they want for 
themselves. There's a lot of debate still to go on within the 
country.
    Now, let's take the other side of this, that we don't have 
civil war, but, in fact, there is a sense of being Iraqi. The 
compromises are made and a degree of federalism is achieved. 
For some time to come, as the army is vetted and trained, as 
arms and equipment come to them from whatever source, there 
will be external dangers to this country. One of the reasons 
for Coalition security forces has been to make sure that no one 
else intruded. Well, we've tried to do this--whether it be 
preventing terrorists from Syria or Iran from joining the 
insurgency. But we also must contemplate--leaving aside 
terrorists--that other countries, surrounding countries, 
because they don't like the way things worked out in Iraq, 
decide to intrude, either formally or informally, covertly or 
overtly in the affairs of Iraq. At some point, the security 
situation takes on, then, a very different view. It's not 
simply the taking down of insurgents of unstable people in 
cities in Iraq, but it then becomes a question of Iraq as an 
area that becomes an incubator for terrorism, or a no-man's 
land or a nation that cannot become truly sovereign or self-
determined. What sort of thought have you given to this? In 
other words, pinning down the worst scenario case, how does 
Iraq remain Iraq, at least as far as we're concerned, as 
opposed to someone else's playground or a target of invasion or 
incorporation by others? We've been through this many times, 
discussing the Kurds, but they're not the only group that has 
thought of a greater expansion that doesn't know the 
boundaries, or doesn't respect them in the same way that we do. 
What kind of planning effort or thoughts on the security side 
come to this issue?
    Mr. Wolfowitz. I think--with respect to the danger of 
external invasion, I think this new Iraq can count on 
international guarantees of a kind that might not have been 
available in the past, and that certainly need a 400,000-man 
army--I shouldn't say it doesn't--hopefully, there can be 
arrangements that avoid having to have a 400,000-man army to 
protect it from its neighbors.
    With respect to what you, I think, talked about as, sort 
of, covert influences from outside, which is one of the 
problems we're dealing with today, most of those ultimately 
have to take the shape of an internal security threat of some 
kind. And I think what we're counting on is that, as Iraqis 
develop the capacity to provide for their own internal 
security, very few of them, I think, want to see Syria 
influencing things, or Turkey influencing things, or Iran 
influencing things, and certainly not doing it at the point of 
a gun.
    The Chairman. But we trust they will have the ability to 
repel that, I suspect. That's axiomatic, to make sure it 
doesn't happen.
    In the U.N. resolution that we're attempting to work with, 
should there perhaps be a clause that indicates that the 
international community would come to the rescue of Iraq in the 
event that there was an external effort to terminate this 
country or to invade it? In other words, you've mentioned that 
the international community would not look kindly on this. 
Well, that's quite true. But isn't this the time, really, to 
formalize what the international community is prepared to do 
about that? And by that, I mean the whole community, not just 
the United States.
    Mr. Armitage. I think my initial impression of that idea, 
Mr. Chairman, is that somewhere in the hortatory language of 
the--or the preparatory paragraphs, if you will, of the U.N. 
Security Council resolution, you could express views about 
territorial integrity and all of that, and the need to respect 
it, and how we'd view with disfavor anything against that. But 
in the operative paragraphs, I think you'd find it very 
difficult to keep the Security Council onboard with some sort 
of ironclad, ``We will do x if y happens.'' I think that would 
actually complicate matters if we put that in one of the 
operative paragraphs.
    The Chairman. Well, I agree it would. I'm just concerned 
about the fact that we have already had great difficulty with 
the Security Council, in terms of responsibility. And clearly 
if we are to attempt to move on to Iraqi sovereignty and a 
lesser United States role, and others have not stepped forward, 
despite all the invitations, it would be well to discuss this 
in advance.
    Mr. Armitage. Oh, indeed, it will be. I have no doubts that 
your comments will be viewed with great interest. I would note, 
Mr. Chairman, that, on Iraq particularly, we've had three 15-0 
votes in the Security Council since our one failure prior to 
the war. So there's a great deal of comity of views out there 
on the need to get it right.
    Mr. Wolfowitz. Mr. Chairman, it strikes me that what you're 
suggesting certainly should be the goal, going forward. I'm not 
saying tactically. I can't judge whether this next resolution 
will bear that load or not. But it seems to me putting that 
idea forward and moving toward it over time is certainly 
something that we ought to be trying to accomplish.
    The Chairman. Perhaps Ambassador Negroponte, in both of his 
hats, as it turns out, might offer this counsel during the 
course of his work at the United Nations, prior to his going to 
Baghdad.
    Mr. Wolfowitz. I might add, we're very lucky to have him.
    The Chairman. I agree.
    Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    Gentlemen, I've been impressed with this hearing, more than 
any other that we've had, or other committees have had, at the 
more willingness to acknowledge things that we miscalculated. 
And I think that gives the American people some confidence, 
because obviously everybody knows things aren't going as 
initially planned. And that's an oversimplification, because, 
up to now, there has been, steady as we go, we're doing great, 
things are OK. It's like I said to the Secretary, I think it's 
like that Calypso song that was popular years ago, ``Don't 
worry, be happy.'' You know, I mean, everything's fine. And you 
guys, today, more than any time that I recall here in the last 
several months, have said, well, you know, we need some 
changes, we miscalculated. For example, you said, Secretary 
Wolfowitz, you certainly are there--``We're going to be there 
longer, and with more forces than we thought initially,'' and 
so on.
    I say that as a compliment. That's not a backhanded 
criticism. I want to emphasize, but I think it leads people to 
say, OK, you know, these guys get it. They acknowledge there's 
got to be some changes.
    But what I don't get a sense of, because we didn't get to 
specifics, and maybe it exists, is, for lack of a better 
phrase, there seems to be a little bit of a lack of imagination 
right now about doing what I hope we all agree needs to be 
done. We've got to change the mindset here of the American 
people about the possibilities of success; the Iraqi people, 
about the genuineness of us wanting to hand it over to them in 
an orderly way so they can succeed; about the region, looking 
at our motives; about the Europeans and Asians, how they think 
of us. And I understand we can make a legal case that existing 
U.N. resolutions give us essentially a Status of Forces 
Agreement already, authorize us to do a number of things. But 
what I'd like to plumb for just a few minutes here is the use 
of the resolution, the purpose of the resolution, not only 
substantively, but diplomatically in a much larger sense. What 
do we want to communicate--not just factually accomplish, but 
strategically, in the diplomatic sense, accomplish? And it 
seems to me that one of the things that would be very important 
is to get a new U.N. resolution that specifically authorized a 
multinational force and, if possible, assuming we could do the 
preparatory work, under a command that was not specifically 
U.S. command, but, in fact, U.S. command. I can only think of 
one outfit: NATO.
    It would seem to me it would be useful if we were able to, 
in that U.N. resolution, be able to get named, essentially, a 
referee, so the only major figure with whom there was any 
discussion was not the Iraqi acting government and Mr. 
Negroponte, so there's somebody else in there--I mean, and not 
just generically, but somebody. It would seem to me to 
communicate this notion, Secretary Wolfowitz, that the 
elections are the grail we're holding out to be accomplished, 
that the more detail we can put into the resolution, the longer 
its political legs, the better our chances of success. In raw 
street terms, its going to be hard for these guys to be seen to 
cooperate with us in order to get it right, because of the 
nature of--a thousand reasons--culturally, all the way from 
there to the specific incidents at Abu Ghraib prison, and 
everything in between.
    And so in order to get those bigger pieces done in a 
resolution, it seems to me there is a practical need at various 
levels to give up some of the total control of the political 
situation and the political future of Iraq. That's why I've 
been toying with this thing. I've been banging it around. I 
know State is banging around other concepts. I suspect Defense 
is, as well, whether you call it an international support 
group, a board of directors, a contact group. But in order to 
do any of that, when I speak to these leaders, whether or not 
they're foreign ministers of our European friends and friends 
in the region, or the heads of state that I've had the 
opportunity to speak to, they all basically come back with one 
thing, ``Well, we want a piece of the action,'' meaning the 
political decisions. They want to actually sit down general, 
and you actually work out a document that specifies what role 
they would play in Iraq. I mean, it's not generic. It's very 
specific. I mean, you know, you don't fly spec everything, but 
it's very specific. That same kind of interchange, with 
whomever I speak with, whether it's the Brits, the Germans, the 
Belgians, the French, the Italians, the Jordanians, the 
Egyptians. They all are looking for a chance to sit at that 
table and actually bang out with us, OK, here's the deal. This 
is the political game plan. These are the steps, these are the 
objectives. As opposed to being asked to sign on to a well-
thought-out--arguably--plan that we've come up with that sets 
election dates, transition dates, you know, and so on.
    And so, for example , I was told, before I came in, one of 
the Secretaries indicated that we've already turned over de 
facto sovereignty to 17, 10, 12 Iraqi ministers.
    Mr. Armitage. Eleven.
    Senator Biden. Eleven. And so, for the voters, our citizens 
who are listening to this, by that it's kind of like turning 
over the Commerce Department to, you know, control of the 
Iraqis, turning over the HHS to whatever. I mean, we've done 
that in 11 of the 25 or so ministries, correct?
    Mr. Armitage. Yes, sir.
    Senator Biden. I think it would have been a pretty good 
idea if we had sat down with some of these other folks and 
said, how do we want to do this?--this, sort of, international 
board of directors. I'm not trying to make this rocket science 
here, but somehow we've got to get other folks in to get our 
face off of it. And so on July 1, or shortly thereafter, I 
don't want it to be an American-led occupation force. I want it 
to be something else other than American-led occupation force. 
It will be de facto American. We're going to be the only ones 
that have the troops there. Even if NATO comes on, we're 
talking a handful, in relative terms--three, four, five, six, 
seven-thousand folks over several months. And I don't trust 
``blue helmets'' going in there. I don't want to go through 
another Bosnia at the front end again.
    So I can't come up with anything other than NATO. But I'm 
convinced, if we don't come up with that, it ain't gonna work 
if it's just us. So that's why I think we need some specific 
mention of some entity where there's some political power, if 
you will, shared in the military occupation force. Am I making 
any sense? Not do you agree, but do you understand what I'm 
trying to get at?
    Mr. Armitage. Yes.
    Senator Biden. What are you thinking about along those 
lines?
    Mr. Armitage. Well, I'm listening to you very carefully, 
and some of the things you mention we've discussed and others 
have discussed, such as a P5 plus the neighbors as a contact 
group, for openers. One of the difficulties we've had is, 
Lakhdar Brahimi is working night and day to fashion this 
interim government, and he's not able to turn his attention to 
that. We've had discussions with him. Iraqis have had 
discussions with him. This is even more important. Or maybe you 
want it P5, plus neighbors, plus EU.
    Senator Biden. Yes.
    Mr. Armitage. We've recently had discussions with the EU on 
this. So I'm not sure that any of us are off the page. We're 
all on the same page. Whether we're going fast enough and are 
imaginative enough, I don't know. We've had discussions with de 
Hoop Scheffer, in NATO, about this. And I would characterize 
him as very interested--the Secretary General--in this matter. 
Not ready to take it on, doesn't think the body's ready yet.
    Senator Biden. But here's where I am.
    Mr. Armitage. But we don't let him walk away from it.
    Senator Biden. Well, look, and this is--I apologize, I'll 
finish this in a second, Mr. Chairman. A high-ranking and by 
definition, the Foreign Minister is high-ranking--a Foreign 
Minister of one of our major NATO allies was here in recent 
weeks. We had a private meeting with him, and I raised NATO----
    Mr. Armitage. I'll do the investigative work and figure out 
who this was.
    Senator Biden. You know, I mean, it's pretty obvious, but I 
don't want to--well, he told me, ``No, no, NATO, we can't do 
that, we can't do that.'' And I said, by the way, the President 
of the United States gets on a plane and went to your capital 
and said, Mr. Leader of this country, I want this. Could he say 
no? And he said, ``Don't do that.''
    The truth is, the only person that can do this now is the 
President. Every single solitary person, from four-stars to 
Under Secretaries to Secretaries, can't do it. They're going to 
get----
    Mr. Wolfowitz. Not even Deputy Secretaries.
    Senator Biden. Deputy Secretaries can't even do it.
    And you are an incredibly competent person. You can't do 
it, because they don't want to do this, they don't want to wear 
the jacket, they don't want to get into the deal, but they know 
they're going to have to get into the deal. And so does the 
Defense Department support the notion of literally creating a 
contact group that actually oversaw the political transition? 
Would you support that at Defense? Or have you talked about it?
    Mr. Wolfowitz. It's a general--let me put it this way. I 
certainly agree with the spirit of what you're suggesting, and 
we have been eager to get a larger NATO role. We'd love to see 
a larger NATO role. I appreciate what you said earlier on, that 
it may only generate three or four-thousand additional troops, 
but that it's symbolically important. I think it is important, 
by the way, on that point, for people to be realistic. I don't 
think anybody's going to want to put a lot of troops into Iraq 
and----
    Senator Biden. Absolutely not.
    Mr. Wolfowitz [continuing]. Until the killing stops.
    Senator Biden. Absolutely.
    Mr. Wolfowitz. We and the Iraqis are stuck. But I think the 
symbolism is important. I think, especially at this stage, we 
ought to be careful about deciding, ourselves, who's an 
appropriate contact group. The Iraqis have a lot to say about 
it, and----
    Senator Biden. Well, no--by the way, you know, in the 
beginning I said I would include the Iraqis in determining who 
that should be. I don't want to----
    Mr. Wolfowitz. I think the spirit of it, we agree. And one 
of the reasons--we agreed very strongly that anything that puts 
U.S. troops in the background instead of the foreground, that 
reduces the appearance that we're there as an occupying power, 
that reduces the appearance that we're there unilaterally, I 
think, improves our chances for success.
    Senator Biden. OK, well, I'll conclude Mr. Chairman, 
because--and I'll followup----
    Mr. Wolfowitz. Let me just say, you know I--I mean, more 
than 30 countries are there with us, and----
    Senator Biden. No, I know.
    Mr. Wolfowitz [continuing]. Those are the countries that 
really, I think, need to get pride of place in anything we do.
    Senator Biden. Look, I don't give a damn about anybody 
else's pride or place anymore. The only pride I'm worried about 
right now is the Iraqi pride, because unless we figure out how 
to satisfy the Iraqi pride, we're all in deep, deep, deep, 
deep, deep, deep, deep trouble. And so what I mean by Iraqi 
pride--which is a way for me to conclude, Mr. Chairman--is 
that, guys, the new President, the new Prime Minister, the new 
Vice President, they ain't gonna want to hang out with you. 
They're not going to want to hang out with you. You need to 
give them an excuse. You need to give them a strawman. You need 
to give them something for them to say, something's changed 
here. You're still going to have the same 140,000 American 
troops there. They're still going to be your guys, general, and 
it's still going to be their job. But you've got to have an 
excuse. You've got to have an excuse. Take it from a plain old 
politician, who got elected to this place when I was 29. I may 
not know much, but I know politics. You gotta give 'em an 
excuse. No kidding. I'm not joking about this.
    And so what happens here is, I think we think too much, to 
use a trite phrase these days, inside the box here. For 
example, if I could wave a wand, I'd find a NATO general who's 
not an American, who headed up the force in Iraq. He still has 
Jonesey looking over him. Jones still runs the show. He's still 
the Supreme Allied Commander. I'd want to see somebody in a 
bright, different-color uniform standing there. I don't care 
what country he's from. Because you've got to give these guys 
an excuse, fellows. If you don't--if you don't--I respectfully 
suggest this is not going to work. It's a little bit like when, 
God forbid, a woman feels a lump in her breast, she knows, God, 
the best thing to do is immediately go to the doctor, 
immediately get it checked out. Or a guy's having trouble, and 
they think it may be prostate cancer, he knows he should 
immediately get it checked out. But what do we do? Human beings 
go, aw, aw, it's OK. It's all right. Because if you go, you're 
afraid of the answer you might get. That's human nature.
    Well, you know, that's where most of our friends are, our 
European powers; they know they've got to get in the game, but 
they're going to do everything to not go to the doctor, and the 
doc has to show up at the house and say, you need the exam. The 
doc, his name is Bush. He's the doc. He's going to show up on 
the doorstep. He's going to say, look, we need this. You need 
this. I'm willing to deal. Not on the essentials. I'm willing 
to lay out and be part of a negotiation of how we move from 
here. But this is a deal.
    Because, for example, a question--when we talk about Iraqi 
forces, can Iraqi forces opt out of an operation? I don't worry 
about that, because I have no faith in their forces anyway. I 
worry when they can opt us out. Can a new Iraqi government say, 
whoa, boys. No, no, no, no, no. No Fallujah, no this, no that. 
That's a different question. I won't get into that now.
    But the point I'm making is, the President has to be the 
doctor here, fellows. Because each of these countries know they 
can't afford us to lose. And I strongly recommend, for what 
it's worth, that you'd better figure out--I don't mean you, 
particularly--the administration better get together in a game 
plan specifically--not generically--how we're going to get 
other people in. And I know--I have great respect for the 
troops that are there, Paul, from the 29 or 30 other countries, 
I really do. But come home with me. Nobody knows they're there. 
Come with me out to Missouri, where I was last week. Nobody 
knows they're there. When they leave, they don't even know they 
left. And so we've got to get some of the big dogs in the pit, 
even if they just hang out. Don't do anything, just hang out. 
Because you've got to change the face of this.
    Anyway, I appreciate your time. Thank you, Mr. Chairman. 
And, with your permission, gentlemen, I may just drop you--not 
even for the record, but I'd like to importune you on the 
telephone about some specifics that we haven't had a chance to 
get to here.
    Thank you.
    The Chairman. Well, thank you very much, Senator Biden.
    I agree with your earlier comment about the participation 
of the committee members today, the interesting questions that 
were asked, and the important responses that we received, which 
have furthered our understanding. We appreciate your time and 
your patience. I think this was a good example of congressional 
oversight, and it will continue tomorrow. We look forward to 
another hearing on Iraq with people outside of our government 
who may offer us some constructive advice.
    We thank you, and the hearing is adjourned.
    [Whereupon, at 1:05 p.m., the committee adjourned, to 
reconvene at 9:30 a.m., Wednesday, May 19, 2004.]
                              ----------                              


            Responses to Additional Questions for the Record


 Responses of Hon. Richard L. Armitage to Additional Questions for the 
              Record Submitted by Senator Richard G. Lugar

    Question 1. When the Senate calls up the State Department 
Authorization Bill, we hope to consider amendments that would target 
funds for Iraq. Until then, the Administration has indicated there are 
unfunded requirements to run the new U.S. Embassy in Iraq. 
Specifically, Secretary Grossman testified he would need between $1.1 
to $1.4 billion to operate the new mission.
          (a) Is this estimate correct?
          (b) Have you made a request for this funding to OMB?
          (c) Why has OMB not included this request for the U.S. 
        Embassy operations in the President's request to Congress for 
        additional funds?
          (d) I understand there are no reconstruction funds for 
        agriculture costs and several other areas are short funds. Will 
        any of the $25 billion contingency fund be available for such 
        unfunded reconstruction costs?
          (e) I note that a recent NSPD signed by the President 
        directed the Director of OMB to make requests for necessary 
        funding and authorities for Iraq. Have such requests been made?
          (f) How is State determining the allocations to be charged to 
        other agencies for operations in Baghdad, and how will that 
        affect the expenditures by the U.S. Embassy Baghdad?

    Answer. (a) Yes, the current estimated requirements for U.S. 
Mission Baghdad in FY 2005 are in that range. However, cost estimates 
remain subject to change due to the uncertainty of conditions in Iraq.
    (b) The full estimated requirements were not included in the 
regular FY 2005 budget request that was submitted through OMB last 
February.
    (c) The Administration will pursue a full FY 2005 supplemental 
request after Ambassador Negroponte and his team have had time to 
assess the actual needs and provide more precise cost estimates.
    (d) The President has requested the $25 billion contingency fund to 
meet DOD's requirements to continue operations in Iraq. None of the 
funding has been requested to provide further foreign assistance to 
Iraq.
    (e) No requests have been made by OMB for U.S. Mission funding and 
authorities in FY 2005 under the recent NSPD.
    (f) The Administration is not considering cost sharing at this 
time. It is believed that cost sharing should wait until all agencies 
have had an opportunity to budget for these costs. In the interim, the 
State Department will study how best to assign separate costs while 
paying for U.S. Mission activities and support.

    Question 2. Will Iraq continue to be a combat zone following the 
transition? If so, what will be our military objectives? How will this 
affect the role of the Ambassador and of the multinational force?

    Answer. Unfortunately, we expect that Iraq will continue to face 
serious security problems after the June 30, 2004 transition, and the 
Iraqis have said publicly that their security services are not 
adequately prepared to maintain security in Iraq. It is likely, if 
unfortunate, that violence will escalate in the short-term as 
transition nears as terrorists seek to derail the transfer of power and 
undermine the efforts of the Iraqi Government. The U.S. is committed to 
continuing our assistance, both military and otherwise, to support the 
Iraqi people as they work for an independent, united, democratic, 
prosperous and peaceful country.
    My colleagues at the Department of Defense would be better able to 
answer any questions regarding military objectives.
    The Ambassador (Chief of Mission) and the Commander of 
Multinational Force Iraq will work closely together, and with the 
Iraqis, on political-military issues. Joint State-DOD planning is 
underway which recognizes that the roles, missions, resources, 
responsibilities and authorities of our agencies are complementary, and 
must work jointly toward the goal of a stable and democratic Iraq.
    The security situation makes the closest partnership between the 
MNF-I and the Embassy all the more critical to our success. State and 
Defense personnel have formal joint teams in some 15 management 
sectors, including security, to establish the foundations of 
interagency teamwork at an operational level of detail. The Chief of 
Mission and the MNF-I commander will ensure the closest cooperation and 
mutual support in all their activities, in accordance with standing 
instructions from the President.
    On July 1, the Chief of Mission will assume full responsibility for 
the direction, coordination, and supervision of all USG Executive 
Branch employees and programs in Iraq, except for those under the 
command of the U.S. area military commander, and those seconded to an 
International Organization.
    The Secretary of State will be responsible for the continuous 
supervision and general direction of all assistance for Iraq. The Chief 
of Mission will provide policy direction for reconstruction projects 
funded by the Iraq Reconstruction and Relief Fund (IRRF). CENTCOM will 
take the lead on security assistance with the policy guidance of the 
Chief of Mission.

    Question 3. Have you appointed someone to look over prisoner issues 
following the transition from CPA? What will be the scope of his or her 
authorities?

    Answer. CPA, Multi-National Forces-Iraq (MNF-I) and the Iraqi 
Interim Government (IIG) have been working together to decide the way 
forward for prisoner issues following the transition. Our goal is to 
transfer all detainees to Iraqi authority as soon as possible, given 
Iraqi capacity constraints. CPA and MNF-I have been working to 
integrate Iraqi officials into detainee operations at all levels in the 
short-term, and are developing plans to build Iraqi capacity to take 
physical custody of the detainees in the longer term.
    Within the U.S. Government, the Department of Defense will remain 
the lead agency for detention operations and Major General Geoffrey 
Miller, Deputy Commanding General for detention operations, will 
continue to oversee detainee issues for MNF-I.

    Question 4. Would you provide a briefmg to the committee on your 
plans regarding this at the soonest opportunity?

    Answer. As previously stated in our response to question #3, the 
Department of Defense will continue to be responsible for detention 
operations following the June 30 transition. Thus, we would refer you 
to our colleagues in DOD to provide a briefing on plans for detainees.

    Question 5. A National Security Presidential Directive (NSPD), 
signed last week by President Bush, defined the roles of the State and 
Defense Departments in Iraq in more detail. It institutionalized some 
of the organizational mechanisms the Committee had been briefed 
previously. It institutes an Iraq Reconstruction Management Office 
(IRMO), whose director will be appointed by the Secretary of State . . 
. and a Program Management Office to provide acquisition and project 
management support.
          (a) Has Secretary Powell or Ambassador Negroponte made these 
        appointments yet?
          (b) What more can you tell us about this organization and the 
        people who will populate the jobs?

    Answer. We are in the process of selecting a Director for IRMO. In 
the interim, David Nash, the current head of CPA's Program Management 
Office, will serve as Director of IRMO.
    Under the supervision of the Secretary of State, IRMO will 
coordinate U.S. assistance activities in Iraq with a core staff of 
approximately 37. IRMO will principally develop and coordinate a 
strategic plan for U.S. assistance to Iraq, ensuring it remains 
consistent with overall U.S. policy goals. It will also coordinate 
implementation of the Iraq Relief and Reconstruction Fund, and prepare 
reports (e.g. 2207) for the Department, OMB, Congress, and others as 
appropriate.
    The Project and Contracting Office (PCO), a temporary organization 
created under the Department of Defense, will operate in Baghdad under 
Chief of Mission authority. PCO will implement the on-going IRRF 
projects for which the Program Management Office (PMO) has been 
responsible, and undertake such other reconstruction-related activities 
as the Chief of Mission, IRMO, or other agencies may request. IRMO and 
PCO will be staffed with individuals hired in accordance with Title 5, 
U.S. Code, section 3161 as well as agency detailees; many of them 
worked in similar jobs for CPA.

    Questions 6 a. and b. A key sentence in the NSPD states: ``The 
Secretary of State shall be responsible for the continuous supervision 
and general direction for all assistance for Iraq.''
          a. However, in a recent hearing before the Armed Services 
        Committee, Army contracting officials stated that once the 
        Embassy is opened, the Chief of Mission will set priorities for 
        contracts and requirements but the Department of Army will 
        handle program management and contracting. This sounds 
        confusing. Do you foresee any difficulties in this arrangement?
          b. Will the State Department handle contracting hereafter for 
        reconstruction aid in Iraq?

    Answer. The Chief of Mission, through the Iraq Reconstruction 
Management Office, will set priorities and requirements for all USG 
assistance programs in Iraq. Agencies implementing projects may let 
their own contracts or use the services of the Project and Contracting 
Office to carry out the assistance goals set by the Chief of Mission. 
Similarly, the Project and Contracting Office will implement the 
ongoing IRRF projects for which the Program Management Office (PMO) 
have been responsible, and undertake such other reconstruction-related 
activities as the Chief of Mission, IRMO, or other agencies may 
request.

    Question 6c. What will happen to contracts that have been let by 
CPA using other than U.S. appropriated funds, such as the DFI?

    Answer. U.N. Security Council Resolution 1546 (8 June 2004) states 
that DFI funds shall be utilized to satisfy outstanding obligations of 
the DFI after the transition.
    From early July 2003 to May 2004, the CPA allocated approximately 
$4.8 billion from the DFI for contracts relating to relief and 
reconstruction services. The resulting contracts will remain in full 
force and effect after the transition.

    Question 6d. Can you comment on the continuity and transparency of 
the oversight mission--Inspector General functions, etc.? Who will have 
primary responsibility for Inspector General Oversight, how does the 
CPA-IG factor into the process?

    Answer. The State Department Office of Inspector General, along 
with the Inspectors General of the Department of Defense, U.S. Agency 
for International Development and the Coalition Provisional Authority 
have been working with each other on an administration position to 
ensure effective continued oversight of Iraq-related activities. The 
State Department OIG, consistent with legislation, is responsible for 
oversight of all State Department Iraq-related activities and is 
actively engaged in initiating a number of Iraq-related projects. The 
CPA IG, consistent with legislation, will remain in place for six 
months post-June 30. The State Department OIG, as well as the other 
agency Inspectors General, will coordinate with CPA IG and with each 
other in order to ensure vigorous oversight over all Iraq-related 
activities of their respective agencies.

    Question 6e. A key sentence in the NSPD states: ``The Secretary of 
State shall be responsible for the continuous supervision and general 
direction of all assistance on Iraq.''
          What approach will the State Department take to reviewing 
        current reconstruction priorities and revising them as needed? 
        How will they make decisions regarding updated priorities? Is 
        there any truth to a rumor that State is holding up all new 
        programming until it takes the reigns?

    Answer. The State Department will undertake a thorough review of 
all reconstruction programs and priorities and will revise them as 
needed in consultation with Congress. The review will involve 
consultations with the Iraqis and the international donor community. 
The new Iraq Reconstruction Management Office (IRMO), one of the 
successors to the current Program Management Office, will play a key 
role in this review and will make recommendations to the Ambassador for 
revision of the, assistance program. The State Department is not 
holding up new programming. Programming has been following the spending 
plan revised and submitted to Congress on a quarterly basis.

    Question 6f. How is the Department of State determining the 
allocations to be charged to other agencies for operations in Baghdad, 
and how will that affect the expenditures by the U.S. Embassy Baghdad?

    Answer. The Administration is not considering cost sharing at this 
time. It is believed that cost sharing should wait until all agencies 
have had an opportunity to budget for these costs. In the interim, the 
State Department will study how best to assign separate costs while 
paying for U.S. Mission activities and support.

    Question 7. What setbacks have there been in planning for the 
transition? What do you attribute them to? What did you think went 
better than expected? What has surprised you in developments in Iraq?

    Answer. The security situation has affected our transition 
planning. It has raised the costs associated with many of our 
activities in Iraq, such as insurance, the airlift of goods and 
supplies due to road insecurity, and extra security measures for 
facilities and personnel.
    The interagency coordination, especially with DOD, has gone well. 
We are also pleased with the number of Foreign Service officers who 
heeded the call to service in Iraq.

    Question 8. How will differences of opinion between the new U.S. 
Embassy and the caretaker government be resolved?

    Answer. After June 30, the United States will interact with the 
Government of Iraq in the same way that we would with any sovereign 
government around the world. Ambassador Negroponte and his team at the 
U.S. Embassy in Baghdad will work closely with the Iraqi Government to 
pursue our shared goal of a stable, unified, and democratic Iraq. Given 
the circumstances, it is clear that our engagement will need to be 
broad-based and robust. It is in that spirit of partnership that 
differences of opinion, should they arise, will be discussed.

    Question 9. How confident are you that free and fair elections can 
be held for the 250 seat National Assembly by the end of January 2005, 
as planned?

    Answer. We expect that the elections timetable laid out in the 
Transitional Administrative Law (TAL) will be followed. Iraqis, working 
with the United Nations, have made good progress towards setting up an 
electoral, commission that will oversee preparations for the January 
2005 elections. Of course, the security situation will present 
challenges. But MNF-I and Iraqi security forces are taking into account 
the requirement for election security so that Iraq can hold free and 
fair elections by January 2005.

    Question 10. Are Iraqi political moderate voices emerging to lead 
political groups?

    Answer. Iraqis of all political stripes are forming groups to 
advance their views. More than 200 political parties have been 
identified to the National Democratic Institute, the International 
Republican Institute, and the U.S. Government. Many of these parties 
have a secular, moderate outlook. There are also parties which espouse 
extreme views, some of which are well organized, but polling in Iraq 
suggests that most Iraqis do not support these groups.

    Question 11. A poll conducted last week for the CPA indicates that 
respondents in Hillah have vastly different views from the rest of the 
country with respect to democracy, the TAL, how are we working with 
those groups to ensure they are being heard?

    Answer. While we follow Iraqi public opinion polls closely, we are 
aware that the results of individual polls in Iraq can vary 
considerably. Comparisons of different polls, and comparisons of polls 
over time, give more confidence in our understanding of Iraqi public 
opinion. CPA officials, several of whom are seconded State officers, 
have been actively engaged with the range of political groups in Hillah 
to ensure that the TAL is understood and that they understand the path 
it lays out to representative government. We believe the people of 
Hiliah are committed to democracy.
    Following the transfer of authority by June 30 to an Iraqi Interim 
Government, we expect to maintain a State Department diplomatic 
presence in a number of Iraq's regional centers, including Hillah, to 
support the new government's efforts to build democracy, establish the 
rule of law, and conduct elections as called for in the TAL.

    Question 12. The same poll indicated that 80% of the people wanted 
more information about the TAL. What are we doing to address that? Are 
we paying attention to these polls?

    Answer. We pay close attention to Iraqi public opinion polls. With 
respect to the TAL, since it is an Iraqi document, we believe Iraqis 
should take the lead in discussing its contents. We have been 
encouraging them to do so, and believe they are making good progress in 
a dialogue about their national governance.
    The National Conference of Iraqi leaders and other notables, which 
is set to meet in July 2004 to chose the members of an Interim National 
Council to advise the Interim Iraqi Government, will also represent a 
forum in which Iraqis will discuss the TAL.

    Question 13. The President two weeks ago enacted stricter sanctions 
toward Syria. Will that help or hurt our Mission in Iraq?

    Answer. Syria has a mixed record in supporting stability and 
security in Iraq. While we appreciate Syrian efforts to improve border 
security, we believe the Syrian Government could do more. We remain 
deeply concerned about terrorists and other fighters entering Iraq from 
Syria. To date, Syria has not taken any measures in response to the 
sanctions.
    We have a very direct dialogue with the Syrian Government regarding 
our concerns with their behavior. We believe that implementation of the 
Syria Accountability and Lebanese Sovereignty Restoration Act of 2003 
has further demonstrated the depth of our concern to the Syrian 
Government. We believe that Syria can contribute to international 
efforts in Iraq and continue to urge the Syrian government to cooperate 
to tighten border controls and to comply with its obligations under UN 
Security Council resolutions 1483 (2003) and 1546 (2004) with regard to 
the return of frozen Iraqi assets to the Development Fund for Iraq for 
the benefit of the Iraqi people.

    Question 14. There have been alarming reports of Syrian and Iranian 
cross-border influence in Iraq. Are these foreigners welcomed by 
Iraqis? Are they operating on their own or are they joining forces with 
other Iraqi elements? What plan do the Iraqis have to address this 
issue following sovereign transfer?

    Answer. While some Iraqis may have welcomed foreign fighters to 
Iraq, their presence is not welcomed by the vast majority of Iraqis. We 
are in contact with all of Iraq's neighbors to emphasize the need for 
stricter border controls to prevent the inflow of foreign fighters, 
terrorists and weapons and to combat smuggling. This is an important 
priority for the Iraqis, CPA, and Coalition forces.
    We have long been concerned about the activities of some Iranian 
officials in Iraq. Although we have seen reports, we have little 
credible evidence to date of direct Iranian support to insurgent or 
terrorist groups attacking Coalition forces.
    We have repeatedly warned the Iranian government, publicly and 
privately, against activities in Iraq that might be destabilizing. We 
will continue to ensure that the Iranian government is aware of our 
views and encourage it to support the establishment of a stable, free, 
democratic Iraq.
    We have also communicated our concerns about the inflow of fighters 
through Syria. We are working with the Syrians to increase the density 
of forces along and surveillance over that border. The Syrian 
government understands the importance we attach to this issue, and has 
taken steps to improve security along its border with Iraq. By its own 
admission, however, Syria acknowledges that measures to date have not 
been completely effective.
    We will continue to use Coalition military assets as appropriate to 
enforce border controls, while supporting the establishment of 
professional Iraqi security and border forces. Improving border 
controls is a focus of our overall effort to train and equip Iraqi 
security forces.

    Question 15. What are we hearing through diplomatic channels from 
Iran and Syria with respect to their intentions as neighbors of Iraq?

    Answer. We would be happy to brief you or your staff in closed 
session on the substance of our contacts with Iran and Syria regarding 
Iraq.
    Some of Iran's public statements with respect to Iraq have been 
positive, but we remain concerned that the activities of some Iranian 
officials in Iraq are not consistent with statements from Tehran. We 
have repeatedly warned the Iranian government, publicly and privately, 
against activities in Iraq that might be destabilizing.
    Iraqi officials, including several members of the Iraqi Governing 
Council, have visited Syria and have had useful meetings with President 
Asad and other senior officials. Syria, like Iran, maintains a 
diplomatic mission in Baghdad. We have encouraged Syria to take a more 
constructive tone in its public statements about Iraq and have noted 
the unhelpful language on Iraq employed by the state-run media. We 
maintain an ongoing dialogue with Syria on a range of Iraq issues--from 
the return of frozen Iraqi assets to securing Syria's long and porous 
border with Iraq.
    We will continue to ensure that the Iranian and Syrian governments 
are aware of our views, understand the negative consequences of 
activities supporting the destabilization of Iraq, and encourage them 
to support the establishment of a stable, free, democratic Iraq.

    Question 16. Egypt, Kuwait, and Saudi Arabia and others have 
language skills and resources which they have offered and which could 
be helpful to reconstruction in Iraq. Have we accepted such offers by 
neighbors to assist in Iraq?

    Answer. Regional governments and firms have not only language 
skills and resources, they also have lower overhead, lower potential 
security costs, and more invaluable in-country experience than most 
European and American counterparts. In addition, they have cultural 
familiarity and local know-how. Kuwait has provided $200 million in in-
kind humanitarian assistance to Iraq, such as a water pipeline that the 
Kuwaitis built to Basra. Kuwaiti firms are directly involved in 
reconstruction, including local provision of services to contractors 
and others. They have also provided at least $2 billion in direct 
support for the U.S. military, other coalition forces, and key regional 
allies in Operation Iraqi Freedom, such as oil for Jordan. They are 
paying for 88% of the U.S. military's operational fuel needs, and have 
shown appreciation for the idea that reconstruction depends on 
security. They pledged $500 million for Iraqi reconstruction, and have 
deposited $10 million divided equally between the UN and World Bank 
trust funds.
    Saudi Arabia has also helped with oil for Jordan to replace Iraqi 
oil. For Iraq, they have provided refined petroleum products for 
humanitarian use. They constructed and staffed a field hospital in 
Baghdad. They pledged $500 million at the Madrid Donors' Conference for 
Iraqi reconstruction and have offered substantial debt reduction to 
Iraq.
    Egypt has provided diplomatic training to Iraqis and made a major 
investment in telecom infrastructure. In addition, they have made 
offers of training for Iraqi doctors, nurses, and other Iraqi civil 
servants, and are also exploring ways to train Iraqi police.
    Other regional countries have been actively engaged in 
reconstruction, including Jordan (police training), UAE ($215 million 
pledge), Qatar ($100 million), Turkey ($50 million), Oman ($3 million), 
and even Iran ($5 million). Iran has also pledged an economic package, 
which includes credit facilities, restoration of religious sites, 
tourism and pilgrimage, technical and advisory services, trade, 
investment, market transition from the current Cost Plus Award Fee 
(CPAF) contract to a Firm, Fixed Price (FFP) structure. The U.S. 
Mission Task Order will incorporate the ability to sever portions for 
local competitive award for construction, commodities, and other 
opportunities that will directly enable commerce with the people of 
Iraq.

    Question 17. As you know Kellogg, Brown, and Root is providing 
logistics support in Iraq to the Coalition Provisional Authority and to 
U.S. Forces via the LOGCAP III contract. The committee has been told 
you plan to also use KBR to support the logistical needs of the U.S. 
Mission in Iraq. How do you plan to control the costs?

    Answer. The CPA and Department of State have taken significant 
action to reduce cost under the existing Task Order as well as the 
proposed U.S. Mission Task Order. The Department of State assigned a 
senior Program Manager to Baghdad responsible to work in real time with 
executive and management levels of the U.S. Mission to Iraq, Department 
of State contracting authority, and LOGCAP to ensure that only 
requirements of the Embassy become the responsibility of the U.S. 
Mission Task Order;
  <bullet> The Department of Defense dedicated a full-time Defense 
        Contract Management Agency (DCMA) office consisting of a senior 
        military commander, senior civilian manager, an Administrative 
        Contracting Officer (ACO), Property Manager, and Planner who 
        are solely responsible to administer the current and follow-on 
        Task Order;
  <bullet> The Department of Defense dedicated several full-time staff 
        members from the Defense Contract Audit Agency (DCAA) to 
        provide oversight;
  <bullet> The Coalition Provisional Authority (CPA) developed and 
        issued a vehicle identification card that has stopped 
        unauthorized users from obtaining fuel;
  <bullet> Oversight has reduced unauthorized users of the Dining 
        facilities (DFAC);
  <bullet> The Department of Defense and the Department of State are 
        cooperating in a proven logistics system consisting of a 
        Requirements Review Board (RRB), Area Support Group (ASG), and 
        Award Fee Board (AFB) that augment CONUS-based Department of 
        State, DCMA and DCAA to continually monitor KBR performance, 
        cost, and asset management.
    As the Department of State management and administrative team 
assume their assignments they will undertake additional oversight 
measures. Once stability increases in the area, the U.S. Mission Task 
Order can access, and humanitarian assistance. Overall, the U.S. 
government has encouraged offers of help from regional countries, and 
is actively soliciting further regional support in a variety of areas.

                                 ______
                                 

Responses of Hon. Paul Wolfowitz to Additional Questions for the Record 
                 Submitted by Senator Richard G. Lugar

Updated as of June 3, 2004
    Question 1a. On November 19, 2003, Admiral Nash of the CPA Program 
Management Office announced at a contractors convention in Crystal 
City, that RFPs would be issued on January 1, bids would be received on 
February 1 and awards be made on March 1. He stated that contractors 
would be expected to mobilize in a short period of time following the 
award of the contracts. However, reports by USAID and CPA officials in 
Washington and Baghdad last week indicate that the only construction 
work that has been done through these PMO-managed contracts were for 
bases to support the U.S. military. And further, that NO work has been 
done in the seven major reconstruction sectors through these PMO 
contracts.

  <bullet> Why was Congress led to believe that funds we appropriated 
        on an urgent and emergency basis last Fall would have an impact 
        this quickly?

    Answer. Reports regarding construction work being done only in 
bases to support the U.S. military are untrue. To date, under the major 
design/build contracts, we have 104 project sites where construction is 
occurring in the Public Works, Oil, Transportation, Electricity, 
Security, and Buildings Sectors. The RFPs were issued on January 6, the 
bids closed on February 5, and contracts were awarded in mid-March. 
These contracts were solicited and awarded in a remarkably short time. 
The design/build contractors are already mobilized and operating in 
Iraq. More than 7,000 Iraqis are employed daily in work related to the 
104 project sites.
    Initially, we had to work to overcome early planning obstacles in 
developing the detail requirements for contracts, identifying 
eligibility requirements for prime and subcontractors, and maintaining 
the integrity of full and open competition for all contracts as 
required by Congress. As of May 26, we have obligated $3.7 billion in 
contracts for the reconstruction program. This puts us on schedule with 
the program goals at this time.

    Question 1b. Were PMO cost estimates made by USAID development 
experts or by contractors used to working in a benign environment?

    Answer. Estimates for PMO's list of 2,311 construction projects, 
which are funded by Iraqi Relief and Reconstruction Fund (IRRF) FY 04, 
were made by a team of 15 engineers who worked in the PMO in Baghdad. 
The estimates were made based upon data and information provided to 
this team by Iraqi Ministries and their CPA senior advisors. Where 
possible, the team experts visited officials and military units around 
the country to corroborate data. Due to conditions in country at the 
time, estimates were ``burdened;'' that is, they included project 
security, overhead, contingencies, and other costs.

    Question 1c. To what extent has the slow-moving assistance affected 
Iraqi capabilities, particularly the security forces?

    Answer. Equipment shortages--especially of body armor, Kevlar 
helmets, and communications equipment--contributed to the poor 
performance of police and Iraqi Civil Defense Corps during fighting in 
April, particularly in areas west and south of Baghdad and in Sadr 
City. Other factors, such as inadequate training and poor leadership, 
also affected their performance. There were some exceptions, however, 
and the Iraqi Civil Defense Corps (ICDC) is now reconstituting. It 
should be noted that when police stations were attacked by dozens of 
insurgents with rocket-propelled grenades (RPGs) and crew-served 
weapons, the police had little capability to fight back, nor should 
they be expected to, when facing a military-style assault. Even if they 
had been fully equipped, they are not military forces and were thus 
ill-suited to the situations they faced.

    Question 1d. Has the lack of delivery of concrete assistance 
increased Iraqi disillusionment and anti-American sentiments?

    Answer. No. There has, in fact, been concrete assistance: $5 
billion in contracts have been awarded in an open competitive process. 
Our prime contractors have been mobilized and are operating in Iraq. To 
date, under the major design/build contracts, we have 104 project sites 
where construction is occurring in Public Works, Oil, Transportation, 
Electricity, Security, and Buildings Sectors. We are currently 
employing more than 7,000 Iraqis daily in work related to these 
construction contracts.

    Question 2a. (Regarding use of Iraqi Funds): The April 5 Section of 
the 2207 Report received by Congress indicated that only $2.3 billion 
of the $18.4 billion we appropriated last November has been obligated. 
I understand that last Saturday, the Program Review Board at CPA 
recommended a $2 billion transfer from the Development Fund for Iraq 
(DFI) for a myriad of purposes, including:

  <bullet> $500 m to the Joint Task Force--CJTF-7
  <bullet> $125 m to a ``revenue stabilization fund''
  <bullet> $180 m for real property compensation claims
  <bullet> $200 m for food basket/public food distribution
  <bullet> $315 m for electricity sector
  <bullet> $460 m for oil infrastructure rebuilding
  <bullet> $65 m for agriculture infrastructure

          How will CPA program this $2 billion in DFI money by the end 
        of June if it has taken five months to move $2.3 billion in 
        appropriated funds?

    Answer. This allocation builds on the Iraqi budget initiatives 
described in the DFI appendix of the Section 2207 Report, dated April 
5, 2004. There is no requirement to expend this $2 billion by June 30. 
While the execution of each of the approved program items will vary, 
most expenditures will occur post June 30.

    Question 2b. Is it official U.S. policy and strategy approved by 
OMB to use the DFI before U.S. appropriations?

    Answer. No. The people of Iraq face a vast array of pressing needs 
for infrastructure and social development projects. In sectors such as 
oil, electricity, and agriculture, the nation's needs clearly exceed 
the sector allocations of the Iraqi Relief and Reconstruction Fund 
(IRRF). The recent PRB allocation funded additional projects for the 
relief and reconstruction of Iraq and did not affect the status of 
individual projects funded by the IRRF.

    Question 2c. Is this an effort by CPA to avert normal developmental 
programming process and congressional notifications?

    Answer. No. The recent PRB allocation did not affect IRRF-funded 
projects. If it had, the Congress would have been notified, if 
required.

    Question 2d. What will CJTF-7 be using the $500 million for? CERP?

    Answer. CJTF-7 is still reviewing how this allocation will be used.

    Question 2e. How are these funds being accounted for and reported 
on? Could you please provide for the committee a full accounting of all 
the DFI expenses to date?

    Answer. These allocations are accounted for and reported on in the 
same manner as all other DFI funds. Both the PRB decisions and DFI 
expenditure information are available on CPA's Web site.

    Question 3. Regarding oversight of the $87 billion of appropriated 
funds support for Iraq, what are your views on the effectiveness of 
Department of Defense criminal investigative support of the 
expenditures of U.S. appropriated funds in Iraq? Will the Defense 
Criminal Investigative Service maintain a presence in Iraq? If not, why 
not? If so, how large will the office be?

    Answer. The criminal investigative support provided by the 
Department of Defense Office of Inspector General (OIG) has been 
significant since the CPA was established. A rotating team of three 
Special Agents from the Defense Criminal Investigative Service (DCIS), 
the criminal investigative arm of the OIG, is stationed in Baghdad 
coordinating investigative matters relating to allegations of bribery, 
contract irregularities, counterfeiting, embezzlement, and the sale and 
smuggling of illegal weapons and explosive devices. This past year, 
DCIS agents, working with Military Police, Iraqi police, and the CPA 
Ministry of Finance, broke up an Iraqi dinar counterfeiting operation 
and seized counterfeit currency worth more than 100 billion dinars ($50 
million).
    The OIG plans to maintain a presence in this area. Its current 
plan, contingent upon the availability of funding, is to establish a 
Resident Agency in Qatar or Bahrain comprised of 10 investigative and 
support personnel.

    Question 4. What are the plans to turnover former Iraq regime non-
cash assets; e.g., automobiles, boats, etc, to the Iraqi people? How 
and when will the Iraqi real estate that the Coalition Provisional 
Authority and U.S. forces have occupied be returned to the Iraqi 
people?

    Answer. The return of non-cash assets from the previous regime has 
been handled thus far by the Department of the Treasury, which leads an 
interagency working group on this issue. After the transition to Iraqi 
sovereignty, the Iraqi Interim Government (IIG) will be responsible for 
arranging the return or sale of these assets in accordance with UN 
Security Council Resolution 1483. Once the IIG takes office, the United 
States will begin to negotiate the modalities of turning over property 
occupied by the CPA or Coalition forces to the Iraqi people.

    Question 5. Were you aware that on March 26 this committee asked 
for a briefing on detainee treatment issues? Do you know why the 
Foreign Relations Committee was told repeatedly through the month of 
April that this issue could not yet be briefed?
          (a) Will MNF-I continue to hold Iraqi prisoners after we turn 
        over sovereignty? Under what authorities?
          (b) Official reports from CPA indicate that 500 courts are 
        operating in Iraq. Presumably if you have courts, you have 
        jails in which to put the guilty parties. Are jails being run 
        by Iraqis? Are we supervising or advising in any capacity? If 
        so, is this a CPA or a military function, or a contractor?

    Answers. (a) MNF-I will continue to hold Iraqi security detainees 
following turnover of sovereignty under the authority of UNSCR 1511, 
which is not affected by the transfer of sovereignty. These detainees 
have committed offenses against or pose imminent threats to Coalition 
forces.
    (b) The Iraqi penal system is being run by Iraqis with Coalition 
assistance, and is separate from the MNF detention facilities. CPA 
personnel, both civilian and military, are advising Iraqi judicial and 
penal authorities. After 30 June, these advisors will become liaison 
officers and work for the U.S. Ambassador. They are not contractors.

    Question 6. What is the administration doing to ensure that the 
Ba'ath Party is not organizing clandestinely to seize power again, as 
it did in the 1960s? Is there a focal point of the opposition? Are 
Iraqis, other than exile officials, engaged on this?

    Answer. It is highly unlikely that the Ba'ath Party will be able to 
organize clandestinely and regain power in Iraq as it did in the 1960s 
for at least three reasons. First, de-Ba'athification only applies to 
one percent of the former Ba'athists. All others will have an 
opportunity to participate in a more prosperous and freer Iraq than 
that which existed under Saddam Hussein's tyranny.
    Second, of the remaining one percent of Ba'athists, we have 
captured or killed a majority of those who were complicit in the crimes 
of the previous regime. Those who have been captured will eventually be 
tried by Iraqi judges for their crimes against the Iraqi people. 
Without this leadership, it is improbable that the Ba'athists would be 
able to regain power.
    Finally, and most importantly, the Iraqi people have made clear 
that they do not want to return to the era of hopelessness and fear 
that the Ba'ath Party represents. This is true across denominational 
and ethnic lines. Even in the Sunni Triangle, Coalition forces continue 
to receive useful intelligence from Iraqis that has enabled successful 
operations against the members of Saddam's intelligence and ``Special 
Services'' apparatus that continues its efforts to terrorize the Iraqi 
people and impose their tyranny upon them.

    Question 7. What setbacks have there been in planning for the 
transition? To what do you attribute them? What did you think went 
better than expected? What has surprised you in developments in Iraq?

    Answer. The security situation has hampered our ability to conduct 
site surveys for the proposed regional teams and impedes the facility 
with which we can visit the various Iraqi ministries outside the Green 
Zone. Ultimately, it hinders our understanding of future requirements 
both at the regional team locations and within the various Iraqi 
ministries themselves, but we are confident we will overcome the 
challenges.

  <bullet> The level of interagency support and involvement has been 
        exceptionally positive.
  <bullet> In order to hammer out the details of the OPLAN, we have 
        held a number of conferences and workshops in which DOD, DOS, 
        Department of Justice (DOJ), Department of Homeland Security 
        (DHS), the Federal Bureau of Investigation (FBI), U.S. Agency 
        for International Development (USAID), other U.S. departments 
        or agencies and troop-contributing nations have all 
        participated.
  <bullet> Differences in institutional philosophy and vocabulary alone 
        could have caused this effort to fail, not to mention the 
        competing stakeholder equities involved, but the OPLAN and the 
        Memoranda of Agreement and Understanding reflect the 
        willingness of all the parties to roll up their sleeves, set 
        aside parochial differences, and make sure no detail is 
        overlooked in standing down the CPA and standing up the U.S. 
        Mission.
  <bullet> DOD and DOS have set up transition planning teams, and 
        particularly at the forward element in Iraq, team members are 
        working seven days a week to make this transition as seamless 
        as possible.
  <bullet> The loss of contracts for equipment for the Iraqi Security 
        Force cost us some time. This is now getting back on track.
  <bullet> There have not been that many surprises with regard to 
        planning for the transition, just a lot of hard, demanding 
        work. The Iraq Transition Planning Team is working diligently 
        to ensure that the June 30 transition from CPA to U.S. Mission 
        will involve as few moving parts as possible, that the U.S. 
        Mission will have the best possible personnel, logistics, 
        contracts, etc, in place when Iraq's sovereignty is restored on 
        30 June.

    Question 8. How confident are you that free and fair elections can 
be held for the 250 seat National Assembly by the end of January 2005, 
as planned?

    Answer. We are confident that the Iraqi Interim Government will be 
able to hold free and fair elections as planned by the end of January 
2005. Iraq's leaders have thus far been able to meet the deadlines to 
establishing a representative Iraqi government since the November 15 
Agreement last fall, including the signing of the Transitional 
Administrative Law in March and the establishment of the IIG by June.

    Question 9. Are Iraqi political moderate voices emerging to lead 
political groups?

    Answer. Iraqi political moderates are emerging in leadership 
positions. Recently 17 local elections were held in the heavily Shi'a 
Dhi Qar province. In almost every case, secular parties or independents 
outpolled Islamist parties. Combined with recurring poil results, this 
strongly suggests that Iraqis want democratic moderates rather than 
extremists as leaders.

    Question 10. A poll conducted last week for the CPA indicates that 
the respondents at Hillah have vastly different views from the rest of 
the country with respect to democracy, the TAL, how are we working with 
those groups to ensure they are being heard?

    Answer. The results of the poll need to be treated with some 
caution given the small numbers sampled and the conditions under which 
the poll was conducted. The total number of respondents to this poll 
was 1,111 across Iraq. The number of people surveyed in Hillah was only 
114. The reliability of the Hillah results is in doubt, however, 
particularly regarding questions about the Transitional Administrative 
Law (TAL). Nevertheless, the comprehensive range of democratic 
initiatives, including the women's center based in Hillah and USAID's 
Democracy Dialogue Activities (DDA), provide not only a flexible means 
to respond to such issues but also a forum for the Iraqi people to 
voice their concerns.
    While the TAL is very important as underpinning the path to 
democracy for Iraq, it will expire once a new government is elected. As 
a result, it is likely that the Iraqi public will increasingly focus on 
tangible outcomes at the end of the transition process, including a 
permanent constitution and a democratically elected government.

    Question 11. The same poll indicated that 80% of the people wanted 
more information about the TAL. What are we doing to address that? Are 
we paying attention to these polls?

    Answer. We are undertaking a very intensive program to inform the 
Iraqi public about the TAL. This program uses a wide range of methods 
and approaches, including television, newspapers, distribution of 
booklets and leaflets, focus groups, seminars, public forums, and town 
hail meetings across Iraq. One example is the USAID's Democracy 
Dialogue Activities (DDA) program, which serves to encourage civic 
participation and increase Iraqis' understanding of the TAL. Over 7,000 
DDA program sessions, led by more than 500 Iraqi facilitators, have 
already been conducted in Iraq.
    Given the political environment and fear in which Iraqis lived 
under the previous regime, the level of civic literacy is not high in 
Iraq. The Iraqi people are learning about, and discussing, political 
concepts that many Iraqis have not experienced in their lifetime. The 
comprehensive program being undertaken was developed with these 
challenges in mind.

    Questions 12 and 13. The attacks on U.S. and Coalition forces have 
continued for months. Will Iraq continue to be a combat zone following 
the transition? If so, what will be our military objectives? How will 
this affect the role of the Ambassador and of the multi-national force?

    Answer. Iraq will continue to be a hostile fire zone following the 
transition. Our military objectives will remain the establishment and 
maintenance of security and stability in Iraq, which will remain the 
mission of MNF-I, as described in UNSCR 1511. The security environment 
will not directly affect the role of the Ambassador, but it will 
clearly affect the Ambassador's ability to further U.S. national goals 
and objectives.

    Question 14. The committee was briefed on a poll last week that 
suggested most Iraqis feel safe in their own neighborhoods, and that to 
them security did not mean attacks on Coalition forces, but rather 
crime--muggings, theft, lawlessness, etc.--and that they felt that the 
best way to bring that about was not more troops, but more police. Are 
we training enough police? Do we have the right assistance authorities?

    Answer. Training the Iraqi police to allow them to assume full 
responsibility for maintaining security in Iraq is the Coalition's 
highest priority. Currently, there are more than 90,000 Iraqi police 
either on duty or in training, 29% of which has either completed 
training or is in training. We anticipate having the entire Iraqi 
police force retrained by June 2005 at the latest.

    Question 15. What is your assessment of the progress of U.S. forces 
and political authorities in Iraq in calming the Moqtada Sadr uprising? 
Is [sic] To what extent is he likely to challenge the sovereign Iraqi 
government after June 30, 2004.

    Answer. Moqtada Al-Sadr and his supporters have advocated violence 
against Coalition Forces and moderate Iraqis since the liberation of 
Iraq. But Mr. Al-Sadr has never had more than a couple thousand armed 
followers, and his actions in and around Najaf cannot be considered an 
uprising. Over the weeks that he has operated in the area, the local 
population has repudiated his positions and demanded his departure. 
There has been no Shi'a revolt in answer to his call. Moreover, many of 
his urban followers from Baghdad have returned home, thereby leaving 
him with a destructive but limited band of armed fighters. His utter 
lack of political and military success should be predictive of his 
ability to challenge the Interim Iraqi Government when it takes office 
this July. We do not expect him to be a political factor after 
Transition.


    Question 16. No security arrangement or SOFA has been signed. What 
rights and protections will U.S. military and civilian personnel in 
Iraq have with respect to Iraqi laws?

    Answer. In fact, the security arrangement for Coalition forces 
operating in Iraq has already been instituted. Article 59 (C) of the 
Transitional Administrative Law states that the elected Iraqi 
Transitional Government ``shall have the authority to conclude binding 
international agreements regarding the activities of the multinational 
force,'' and that ``nothing in this Law shall affect rights and 
obligations . . . under UNSCR 1511 . . . which will govern the 
multinational force's activities pending entry into force of those 
agreements.'' Article 26 (C) ensures that CPA orders and regulations 
``shall remain in force until rescinded or amended by legislation duly 
enacted and having the force of law.'' This includes CPA Order #17, 
which provides SOFA-like protections for Coalition Forces, and will 
stay in effect until an international agreement is negotiated with the 
sovereign Iraqi government.
    If a civilian contractor is accused of criminal conduct in Iraq, 
such accusations would be handled through a complaint made to the local 
Iraqi Police. If the contractor was acting within the scope of his/her 
official employment under the terms and conditions of a contract with 
the Coalition forces or CCPA, then he/she would be immune from the 
Iraqi legal process under the terms of CPA Order #17, which remains in 
effect after June 30th. The parent country of the contractor maintains 
the right to waive this immunity, however, and if the civilian 
contractor outside the scope of his or her official employment, the 
individual would be subject to Iraqi law.

    Question 17. There have been alarming reports of Syrian and Iranian 
cross-border influence in Iraq. Are these foreigners welcomed by 
Iraqis? Are they operating on their own or are they joining forces with 
other Iraqi elements? What plan do the Iraqis have to address this 
issue following sovereign transfer?

    Answer. There is evidence to suggest that some of these foreign 
fighters have linked up with former regime elements to conduct 
terrorist attacks against Coalition forces and the Iraqi people. 
However, these foreigners are generally not welcomed by the Iraqi 
populace, and Coalition forces continue to receive useful intelligence 
regarding the activities of these foreign terrorists. Although the 
Iraqi Interim Government (IIG) is too new to have developed a detailed 
plan addressing this issue, the incoming Prime Minister of the IIG, 
Ayad Allawi, has indicated that he will make combating these forces a 
priority after the transfer to sovereignty.

    Question 18. Egypt, Kuwait, Saudi Arabia and others have language 
skills and resources which they have offered and which could be helpful 
to reconstruction in Iraq. Have we accepted such offers by Arab 
neighbors to assist in Iraq?

    Answer. We have accepted several offers of assistance from Iraq's 
neighbors. Jordan has been training Iraqi police for several months, 
and we have accepted a similar offer from Egypt. The Germans have been 
conducting forensic training for Iraqi police in the United Arab 
Emirates, and Turkey has been helping to train border police. 
Additionally, employees of the Central Bank of Iraq have been taking 
classes on modern banking in Kuwait.

    Question 19. [Deleted.]

    Question 20. This committee remains greatly concerned regarding the 
corruption surrounding the implementation of the United Nation's Oil 
for Food Program. In our efforts to empower Iraq ministries and turn 
sovereignty over to the people of Iraq, why has the CPA refused to 
release funds to the Iraqi Governing Council so that they may employ 
the U.S.-based accounting firm KPMG to conduct a local investigation? 
In its stead, the committee has learned that the CPA has used Iraqi 
funds to hire another accounting firm (Ernst & Young) to do an 
investigation. Why?

    Answer. In furtherance of its stewardship responsibilities on 
behalf of the Iraqi people under international law and United Nations 
Security Council Resolutions, the CPA is obligated to ensure that an 
Iraqi entity carries out a full and independent investigation of 
allegations of misconduct associated with the OFF Program. As the 
highest public audit organization in Iraq, the Iraqi Board of Supreme 
Audit (BSA) is uniquely placed to provide impartial oversight of such 
an investigation. It is the only body under Iraqi law authorized to 
conduct audits of government-wide financial practice and in any event 
would have been obliged under its charter to investigate these matters. 
Under international good governance practice, such investigations of 
misconduct should be conducted by an independent body. In addition, the 
BSA is a permanent institution staffed with qualified public servants 
who can provide continuity of oversight. The IGC is a political, not an 
investigative body. Moreover, the IGC will cease to exist after June 30 
and therefore is not in a position to continue to oversee the 
investigation.
    With regard to the selection of Ernst & Young, the BSA conducted a 
full and open competition to select the firm. The BSA is serving as the 
Contracting Officer's Representative for this contract and will issue 
tasks to the contractor and monitor progress to ensure compliance with 
the terms of the contract.

                                 ______
                                 

 Responses of Hon. Richard L. Armitage to Additional Questions for the 
            Record Submitted by Senator Joseph R. Biden, Jr.

    Question 1. Can you elaborate on what limitations in authority the 
interim government will have? What powers will the interim government 
exercise? What powers will it NOT hold? Who will hold them?

    Answer. The Iraqi Interim Government (IIG) will be the fully 
sovereign government of Iraq no later than June 30. Iraqis are 
discussing now, in the context of the Brahimi-led process, what the 
particular powers of the interim government will be. We expect that the 
Iraqi Interim Government's primary tasks will be to administer the 
country's day-to-day affairs, and prepare for and hold elections no 
later than January 31, 2005, as prescribed in the Transitional 
Administrative Law, for, the Transitional National Assembly. It is 
anticipated that the IIG will have the authority to conduct foreign 
relations, including establishing diplomatic relations. Indeed, the 
U.S. intends to re-establish diplomatic relations with Iraq soon after 
the transition.
    Some Iraqis have said that decisions that have long-term 
implications should be reserved for an elected Iraqi government. Such 
limitations are for Iraqis to decide in the context of the ongoing 
consultations being led by Ambassador Brahimi. That said, we believe it 
is critical that economic reconstruction efforts continue and it will 
likely be important for the Iraqi Interim Government to have the 
ability to enter into at least some international agreements, including 
with respect to diplomatic relations, Iraq's sovereign debt, engagement 
with the International Financial Institutions, and international 
assistance. Iraq's independent central bank will manage monetary 
policy.

    Question 2. How important is the issue of sovereignty to other 
members of the UN Security Council as it relates to deliberation on a 
new UN resolution? What specific agreements and disagreements do we 
have with other members on the Council on the question of sovereignty?

    Answer. The issue of sovereignty was a common theme among all 
Security Council members ``wish lists'' for a new resolution, as is 
clearly reflected in the unanimously adopted Resolution 1546. 
``Sovereignty'' (i.e., the new government's full governing authority 
and responsibility for Iraq) is one of the themes of this resolution 
and is reflected throughout, including in addressing the Multinational 
Force (MNF). As stated in the resolution, the MNF's presence in Iraq is 
at the request of the Interim Iraqi Government (IIG). The resolution 
also states that the MNF's mandate will terminate prior to the 
completion of the political process if requested by the Government of 
Iraq.
    Resolution 1546 reflects consultation and cooperation with Security 
Council members, the Iraqis--both in Baghdad and New York--as well as 
with Coalition members and countries in the region.

    Question 3. How likely do you think it is that Coalition forces 
will be asked to leave after June 30th? How certain are you of this?

    Answer. We are confident that the Iraqis will not request the 
Multinational Force (MNF) to leave after June 30. Iraqis remain 
committed to holding elections by no later than January 31, 2005, and 
international security-related assistance will be important in making 
this goal achievable. They also realize, and have said so publicly, 
that their security services are not adequately prepared to maintain 
security in Iraq.
    Security is critical to the success of Iraq's political transition 
process. UNSCR 1546 both reaffirms the authorization for the MNF under 
unified command to, among other things, enable the Iraqi people to 
implement freely and without intimidation the timetable and program for 
the political process, and notes that the presence of the MNF in Iraq 
is at the request of the incoming Iraqi Interim Government (IIG). 
Annexed to the resolution is a June 5 letter from Iraqi Prime Minister 
Ayad Allawi requesting a new UNSCR on the MNF mandate to contribute to 
maintaining security in Iraq.
    Both Allawi and Foreign Minister Hoshyar Zebari have publicly 
stated the need for the MNF remain in Iraq. In his June 3 address to 
the UN Security Council, Zebari said: ``Since April] last year, we have 
been working very hard to re-establish Iraq's security, military, and 
police forces. However, we have yet to reach the stage of being able to 
maintain our own security and therefore the people of Iraq need and 
request the assistance of multinational forces to work closely with 
Iraqi forces to stabilize the situation. I stress that any premature 
departure of international troops would lead to chaos and the real 
possibility of a civil war in Iraq. This would cause a humanitarian 
crisis and provide a foothold for terrorists to launch their evil 
campaign in our country and beyond our borders. The continued presence 
of the multinational force will help preserve Iraq's unity, prevent 
regional intervention in our affairs and protect our borders at this 
critical stage of our reconstruction.''
    In addition Allawi, as recently as June 20, said: ``Until our 
forces restore their full capability, we will remain in need of the 
support and backing of the friendly multinational forces and also Arab 
and Islamic countries.''
    In light of statements from Iraq's new leadership, and the 
continuing and increasing Iraqi-MNF security partnership, we do not 
foresee the Iraqis requesting the MNF to leave.

    Question 4. What is the CPA's current assessment of the Iraq 
ministries' capacity to assume political and economic responsibilities 
for governing Iraq by July 1, 2004? How is the CPA helping build Iraq's 
national ministries in such areas as ensuring accountability, 
transparency, and due process?

    Answer. The U.S. is confident in Iraq's ability to transition to a 
sovereign nation by June 30, 2004. Our advisors are working diligently 
with all Iraqi ministers and their staff in preparation for transition 
to the Iraqi Interim Government (IIG).
    Our programs include building financial market structures, 
developing transparent budgeting and accounting arrangements, and 
increasing the capacity of the Ministries of Finance and Planning to 
manage public resources. The U.S. assists the IGC and appointed 
ministries and plans to offer continuous support if desired by the IIG, 
both political and economic, after the June 30th transition.

    Questions 5 and 6. Senate Foreign Relations staff has been told 
that there are plans to keep roughly 200 American and coalition partner 
advisors in the various Iraqi ministries.
          Please describe these plans in detail. What ministries are 
        involved? How many per ministry? What will their roles be in 
        each ministry? Will they have oversight? Will they answer to 
        Iraqi or American officials?
          Will the presence of these individuals diminish the sense of 
        Iraqi sovereignty? Will this be seen as just one more example 
        of any meaningful change on June 30th by ordinary Iraqis?

    Answer. Virtually all of Iraq's ministries have indicated to CPA 
that they will continue to require the specific subject area expertise 
offered to them by some 200 of the foreign ``advisors'' now in Iraq. 
The role of these ministry liaisons will be to offer a wide-range of 
technical assistance to Iraq's ministries. The U.S. currently intends 
to offer 146 American experts to Iraq's ministries. It is our hope that 
other governments and international organizations will plan to offer 
technical experts as well. The Iraqi Government alone will decide 
whether to avail itself of such international offers of development 
assistance.
    The ministry liaison officers will answer to Iraqi officials, who 
will choose to accept or reject the assistance offered. Sovereign 
governments throughout the world welcome our offers of technical 
assistance. We expect Ministers of the Interim Iraqi Government to make 
clear to the Iraqi people that they will be running the affairs of 
their individual ministries. The substantial reduction in the number of 
advisors and the assumption of governing authority by the Iraqi Interim 
Government will signal a clear change to the Iraqi people on June 30.

    Question 7. Senate Foreign Relations staff has been told that there 
are plans to keep roughly 200 American and coalition partner advisors 
in the various Iraqi ministries. How will these advisors be able to 
help in areas such as ensuring accountability, transparency, and due 
process? What oversight authority will these folks have, particularly 
with respect to American reconstruction funds?

    Answer. The State Department currently plans to provide 
approximately 200 advisors (from the U.S. Government and Coalition 
partners) to Iraqi ministries, at their request, to provide counsel and 
assistance during this interim period of government. Each advisor will 
bring relevant experience to his or her assignment, and will work with 
their Iraqi counterparts to promote accountability, transparency, and 
due process, while helping the ministry identify and address critical 
priorities. The U.S. Government also provides support and advisory 
assistance to the Iraqi Commission on Public Integrity.
    Regarding oversight over the spending of U.S. Reconstruction funds, 
implementing agencies will have this responsibility, not, the advisors. 
Advisors will, however, be consulted to ensure the appropriate 
prioritization of spending of U.S. reconstruction funds.

    Question 8. What is the CPA's current assessment of the Iraq 
ministries' capacity to assume political and economic responsibilities 
for governing Iraq by July 1, 2004?

    Answer. The U.S. is confident in Iraq's ability to transition to a 
sovereign nation by June 30, 2004. Our advisors are working diligently 
with all Iraqi ministers and their staff in preparation for transition 
to the Iraqi Interim Government (IIG).
    Our programs include building financial market structures, 
developing transparent budgeting and accounting arrangements, and 
increasing the capacity of the Ministries of Finance and Planning to 
manage public resources. The U.S. assists the IGC and appointed 
ministries and plans to offer continuous support if desired by the IIG, 
both political and economic, after the June 30th transition.

    Question 9. What are we doing to prepare for the January elections? 
On what basis will voter rolls be drawn--food ration cards [which were 
only given to male heads of households], a census, some other 
mechanism?

    Answer. Preparations for the January election will be carried out 
by an independent Iraqi electoral commission, which the United Nations 
is working to set up. We are working to ensure the commissions will 
have sufficient financial resources and will provide security 
assistance to that commission to help it carry out its work.
    The Iraqi electoral commission will have to decide the exact 
methods by which it will conduct the January 2005 elections after 
consultations with the Interim Iraqi Government and the United Nations. 
Although we are aware of various proposals to draw up voter rolls, we 
do not expect a census to be taken by January 2005.

    Question 10. Do you agree with Ms. Perelli's assessment that we are 
in danger of falling off track for elections in January 2005?

    Answer. As Ms. Perelli, the leader of the United Nations' electoral 
assistance mission to Iraq, has stressed, security will be necessary to 
ensure the credibility of the election process, beginning with the 
establishment and staffing of election administration and continuing 
through polling day. In particular, security will be necessary to 
ensure that political parties and candidates can campaign effectively, 
and that election officials and voters are able to safely journey to 
polling places and to ensure that once votes are cast they are securely 
transported and reported.
    Ms. Perelli is currently working with Iraqi officials to help set 
up an Iraqi electoral commission that will prepare for the January 2005 
elections. We believe that this commission will adhere to the timetable 
for elections laid out in the TAL. We are working to ensure the 
commission will have sufficient financial resources and will provide 
security assistance to ensure that the commission can carry out its 
mandate.

    Question 11. How do the continuing security problems impact on 
elections preparation? How much improvement do we need in the security 
situation to permit elections? How do you plan to achieve it?

    Answer. As Ms. Carina Perelli, the leader of the United Nations' 
electoral assistance mission to Iarq, has stressed, security will be 
necessary to ensure the validity of the election process, beginning 
with the establishment and staffing of election administration and 
continuing through polling day. In particular, security will be 
necessary to ensure that political parties and candidates can campaign 
effectively, and that election officials and voters are able to safely 
journey to polling places and to ensure that once votes are cast they 
are securely transported and reported.
    Security is a major issue for the UN as it plans for resuming 
operations in Iraq. We are working with the Iraqis, the MNF, potential 
contributors, and the UN to develop appropriate protection capacity and 
procedures for UN staff. Together with the UN, the U.S. continues to 
solicit troop contributions for this dedicated force within the MNF. 
The UN is working with us to encourage contributions.
    MNF-I and Iraqi planning also are taking into account the 
requirement for election security. I am also hopeful that the general 
security situation will improve before the elections as the Iraqi 
security forces mature. Greater security will likely mean larger 
numbers of voters will participate and give the election greater 
credibility amongst Iraqis.

    Question 12. What role do you see the United Nations playing after 
June 30th? Specifically, what should be its responsibilities?

    Answer. The President has clearly stated his commitment to support 
the UN's role in Iraq. UNSCR 1546 states that the UN shall play a 
leading role in the political process and carry out various 
humanitarian, legal and economic reconstruction activities ``as 
circumstances permit.'' UNSCRS 1483, 1511, and 1546 clearly identify 
all of the activities the UN has been charged to pursue in Iraq.
    The UN has made a significant contribution to the political process 
through the work of its Special Advisor Lakhdar Brahimi and the 
electoral assistance mission led by Carla Perelli, and of course 
through the work of the Secretary-General's late Special Representative 
(SRSG) Sergio de Mello before them.
    Carina Perelli and the Electoral Assistance Mission of the UN are 
working with the Iraqi Independent Electoral Commission on elections 
preparations, including staff recruiting, political party formation, 
voter registration activities, budgeting and planning, and elections 
security. Together with the UN, we are committed to providing all 
available assistance to support the preparations for and the holding of 
elections scheduled to be held by no later than January 31, 2005.
    With regard to the UN's other activities, it has continued to carry 
out limited humanitarian and reconstruction programming from outside 
Iraq, via national staff who are in country, since the August 19, 2003 
attack on UN headquarters in Baghdad. We appreciate the efforts of the 
acting SRSG, Ross Mountain, and the UN Assistance Mission to Iraq 
(UNAMI). The UN has an important role to play in reconstruction and 
development in Iraq, through the UN Development Group's Trust Fund (the 
Fund). The United States is among the countries contributing to the 
Fund.
    The UN has stated its intent to reestablish its international 
presence in Iraq. In order that it may do so, we are working with the 
Iraqis, the Multinational Force (MNF), potential contributors, and the 
UN to develop appropriate protection capacity and procedures for UN 
staff. Consistent with UNSCR 1546, the U.S. continues to solicit troop 
contributions for a dedicated unit within the MNF charged with 
providing security for the UN in Iraq. The UN is working with us to 
encourage contributions, although no specific contributions have yet 
been identified. I would be happy to provide details of this diplomatic 
outreach in a closed session.
    The Secretary General has recently stated that he intends to name a 
new SRSG to Iraq in the near future. We welcome this and hope to see a 
new SRSG named as soon as possible. It is important for the UN's 
leading role in Iraq.

    Question 13. What will we have to give to the United Nations and 
other major powers in order to receive their assistance?

    Answer. The President has clearly stated his commitment to support 
the UN's role in Iraq. The Coalition Provisional Authority and the 
Multinational Force (MNF) provided security and other support for the 
important work of UN Special Adviser Lakhdar Brahimi and continues to 
provide similar support for the electoral assistance missions led by 
Carina Perelli. We are committed to support the UN as it reestablishes 
an international presence in Iraq to, among other things, assist the 
Iraqi Interim Government (IIG) in holding direct democratic elections 
by no later than January 31, 2005. As part of this assistance, the 
United States has approached several countries to contribute troops to 
the MNF for the specific mission of protecting the UN in Iraq. We are 
prepared, as appropriate, to provide these countries with the same type 
of support that we have provided to other members of the MNF.
    More broadly, several countries, including those currently in the 
MNF have expressed the need for an invitation from the IIG and the UN 
Security Council in order to contribute troops and other security-
related assistance. Iraqi Prime Minister Ayad Allawi and Foreign 
Minister Hoyashr Zebari have since offered such an invitation publicly, 
including most recently on June 20. Furthermore, the UN Security 
Council voted unanimously in favor of UNSCR 1546, which among other 
things, calls on the international community to provide security-
related assistance to the MNF and to Iraqi security services.
    In addition to security-related assistance, UNSCRS 1483, 1511 and 
1546 call for a central role for the United Nations, including in the 
political process, and for the international community to provide 
humanitarian and economic reconstruction assistance to Iraq.

    Question 14. Do you support the naming of an international figure, 
reporting either to the Contact Group or to the U.N. Security Council 
to be Iraq's primary international partner, to help referee political 
disputes, and to be the international point person on elections? If 
not, why not?

    Answer. UNSCR 1483 requests the Secretary General to appoint a 
Special Representative (SRSG) for Iraq whose independent 
responsibilities shall involve reporting regularly to the Security 
Council on his activities, coordinating activities of the United 
Nations in Iraq, coordinating among UN and international agencies 
engaged in humanitarian assistance and reconstruction activities in 
Iraq, and assisting the people of Iraq through humanitarian, political, 
legal and economic reconstruction.
    Since UNSCR 1483, we have sponsored two additional UNSCRs--1511 and 
1546--which further structure the UN's role in Iraq, particularly in 
the political process (e.g. elections). In addition, we have joined the 
international community in continuing to urge the Secretary General to 
name a new SRSG.
    We appreciate the UN's significant contribution to the political 
process, despite the security situation, through the work of its 
Special Advisor Lakhdar Brahimi and the electoral assistance mission 
led by Carla Perelli, and of course through the work of the late SRSG 
Sergio de Mello before them.
    In addition, we appreciate the efforts of the acting SRSG, Ross 
Mountain, and the UN Assistance Mission to Iraq (UNAMI), who, 
subsequent to the August 19, 2003 bombing, have had the difficult task 
of carrying out limited humanitarian and reconstruction programming 
from outside Iraq, via national staff who are in country.
    We welcome the Secretary General's recently stated intent to name a 
new SRSG to Iraq in the near future. We hope to see a new SRSG named as 
soon as possible, preferably before June 30, as it is important for the 
UN's leading role in Iraq--both substantively and symbolically. The UN 
has a central role to play and we look forward to continuing to work 
with them to this end.

                                 ______
                                 

Responses of Hon. Paul Wolfowitz to Additional Questions for the Record 
               Submitted by Senator Joseph R. Biden, Jr.

                         iraqi security forces
    Question 1. On March 21st, Jerry Bremer signed CPA Order 67 which 
created a new Iraqi Ministry of Defense. The order contained the 
following paragraph:
    ``In light of the current emergency situation within Iraq, and 
consistent with Iraq's stated desire to join other nations in helping 
to maintain peace and security and fight terrorism during the 
transitional period pursuant to the provision of United Nations 
Security Council Resolution 1511, all trained elements of the Iraqi 
Armed Forces . . . shall at all times be under the operational control 
of the Commander of Coalition Forces for the purpose of conducting 
combined operations and providing other support in accordance with CPA 
Orders 22 and 28, respectively, and any future relevant CPA Orders. The 
interim Minister shall exercise administrative control over elements of 
the Iraqi Armed Forces that are under the operational control of the 
Commander of Coalition Forces.''
          1a. Order 67 includes no explanation on when the ``current 
        emergency'' situation will end. After Iraqi sovereignty is 
        restored on June 30 will the Commander of Coalition Forces 
        continue to have operational control in Iraq? If not, who will 
        control Iraqi security forces? When will a security agreement 
        be worked out with the Iraqis? What do you imagine such an 
        agreement will look like?
          1b. How will disagreements between the Iraqi political or 
        security leadership and American military leadership be 
        brokered? For example, what happens in the event of future 
        Fallujas should U.S. commanders order our forces to intervene 
        but the Iraqi caretaker government objects?

    Answer. After the transfer of governance authority to the Iraqi 
Interim Authority, the Commander of Multinational Forces Iraq (MNF-I) 
will have operational control of all forces under his command, as he 
does now. The difference is that the Iraqis will become full partners 
in the MNF-I. The partnership between MNF-I and the Iraqi Ministries of 
Defense and Interior will be facilitated by the Ministerial Committee 
on National Security and includes direct coordination between the MNF-I 
and Iraqi ministers and commanders. Iraqi military personnel will be 
integrated at all levels of the MNF-I and subordinate organizations. 
Tactical methods will evolve to place more and more responsibility on 
Iraqi forces and gradually transition to Iraqi responsibility for local 
and then regional control. Iraqi security forces under the Iraqi 
Ministry of the Interior (police, Department of Border Enforcement and 
Facilities Protective Service) will be under the control of the Iraqi 
Minister in concert with local MNF-I commanders. The Secretary of 
Defense has said we look forward to negotiating a security agreement 
with the Iraqis as soon as a duly-elected Iraqi Transitional Government 
is in place, which is foreseen for early next year. (The anticipated 
Iraqi Interim Government, to take authority not later than 30 June, 
will not have a legislature to ratify international agreements.) The 
agreement will likely resemble the many other security agreements we 
have with other countries around the world.

    Question 2. Last month Secretary Wolfowitz told the House Armed 
Services Committee that one of the fundamental elements for stabilizing 
Iraq is ``building capable Iraqi security forces.'' You continued, 
``The picture there is mixed. We have lessons learned--important 
lessons learned from the last few weeks.''
  <bullet> What are the ``lessons learned'' that you referred to? How 
        are these ``lessons learned'' being implemented?

    Answer. Recent performance by Iraqi Security Forces (ISF) was 
mixed; some performed well and some did not. Common denominators among 
forces that did not perform well were:

  <bullet> Lack of proper equipment
  <bullet> Lack of an Iraqi leadership figure
  <bullet> Having to chose between tribal loyalty and loyalty to the 
        immature Iraqi government and security forces.
  <bullet> Incomplete training
  <bullet> Insufficient Coalition mentors

    Factors that successful Iraqi forces had in common were:

  <bullet> Completion of training programs
  <bullet> Equipped with appropriate vehicles, radios, weapons and 
        individual gear
  <bullet> Close integration with Coalition forces
  <bullet> Effective chains of command and leadership
  <bullet> Unit cohesion developed from having worked together for some 
        time.

    Since the dramatic increase in insurgent activity in early April, 
many of the security forces have begun to stabilize, and numbers are on 
the rise once again. In general ISF units, like any other security 
forces, need time to work together and develop confidence in their 
capabilities. Many ISF units have bad limited opportunity to do so.
    We have developed a series of actions designed to get the security 
forces on track as quickly as possible. Within the police (Iraqi Police 
Service (IPS)) and the border police (Department of Border Enforcement 
(DBE)) services we are re-training and replacing police that failed to 
perform and increasing the number of trained police by increasing 
training throughput of current training programs and opening additional 
academies. Initiatives within the Iraqi Civil Defense Corps (ICDC) 
include creating a strike platoon within each battalion, mentoring ICDC 
battalions through Coalition augmentation and integrating ICDC more 
fully into Coalition operations. With respect to the Iraqi Armed Forces 
(IAF), we are completing training and deployment of the initial IAP 
battalions and the construction of their new garrison facilities. We 
are employing former Iraqi officers as liaison officers to the 
Coalition to build a cadre of good Iraqi leadership and heavily 
embedding Coalition trainers as mentors. Our newest initiative is the 
fielding of a brigade-sized Iraqi National Task Force (INTF) in 30 
days, expanding to division sized within 90 days.
    Initiatives across all of the security services include providing 
DFI funds to get ISF on line and reconstituted, increasing hazardous 
duty pay and other incentive pays for security sector and increasing 
emergency CERP funding. Overall training and equipping priority is to 
the INTF, IPS, ICDC and DBE in order.

    Question 3. Senators Lugar, Hagel and myself were told almost a 
year ago in Baghdad that it would take 5 years to train an Iraqi police 
force of 75,000, and 3 years to train an Iraqi army of 40,000.
          a. Specifically, what is the plan to recruit and train 75,000 
        police and 40,000 soldiers? Who will do the training? Where? 
        How long are the training sessions and for how many trainees at 
        a time? How long will it take to field fully trained police and 
        military forces? How many international police trainers are now 
        working with the Iraqi security forces? Who is providing them?

    Answer. The endstate goal for police is 89,000, and for the Iraqi 
Armed Forces (IAP) it is 35,000. With respect to the IAF, there is no 
recruiting problem. Potential soldiers are recruited country-wide with 
the intent of gaining an ethnicity mix that approximates that of the 
four main constituencies (Shia, Sunni, Kurd, Turkoman). The first four 
battalions were trained at Kirkush Military Training Base and have been 
deployed to their garrison locations in Iraq. Training was conducted by 
Vinnell Corporation. Vinnell has completed training of NCO cadre, and 
the Jordanian Army has completed training of officer cadre; these cadre 
will then train the rest of the IAP under the guidance of the Office of 
Security Transition. The fifth battalion entered recruit training last 
week. These formally trained officers and NCOs then form the cadre for 
their new battalion and conduct basic training for new recruits at 
Kirkush. USCENTCOM will also employ 500 former Iraqi officers as 
liaisons to the Coalition to help build a cadre of good Iraqi 
leadership. We plan to field a total of 9 brigades (3 divisions) by 
early October 2004. Throughout the process, Coalition trainers will be 
embedded into IAF units and serve as mentors. Units are typically 
employed at the platoon and company level and are OPCON to the 
Coalition divisions in their region. Ten of these 27 battalions will 
become part of the Iraq National Task Force (INTF) and can be used for 
counter insurgency tasks, but focus is on external security. There is a 
possibility, with the recent emphasis on accelerating training for the 
10 battalions of the INTF, that the entire IAP may not be fully 
operational until on or about 1 December.
    With respect to the 89,000 member police force, the primary issue 
is not meeting this numerical goal, since there are currently 83,000 
police on the rolls. Our challenge is to fill the force with properly 
vetted and reliable police forces. We are currently reviewing the 
police force. The Iraqi Ministry of the Interior has adopted policies 
and procedures to dismiss Iraqi Police Service (IPS) personnel with 
unacceptable performance records and to identify and reward those who 
have performed well. There is a three-tier training program consisting 
of a 3-week transition integration program (TIP), an 8-week formal 
academy training and leadership training. TIP training is taught by the 
local Major Subordinate Command in the region. There are currently 15 
locations where the training is conducted. TIP training throughput has 
been increased to 2825 every 3 weeks, and we are transitioning 
responsibility for the conduct of much of this training to local 
Iraqis. Our goal is to train 43,000 by the end of December 2004. 
Academy training is currently conducted in Ahman, Jordan and in 
Baghdad. At the Jordan Academy training throughput is being increased 
from 1000 to 1500 per month (starts August). In Baghdad training 
throughput will increase from 500 to 1000 per month (starts June). We 
plan to have trained 36,000 trained by June 2005. Approximately 280 
international police trainers from various countries are providing 
instruction at the Jordan Academy, and the Baghdad Public Safety 
Academy has about 160 U.S. military and three civilian and two UK 
civilian instructors.
    A reconstitution plan is currently underway at Irbil Academy, where 
basic leadership is being taught to mid-level supervisors who will then 
conduct train-the-trainer classes for the remainder of police stations 
requiring reconstitution (Najaf, Kut, Falluja, Karbala). The first 171 
leaders graduated from a 1-week course last week. (10 each will return 
to each police station in Karbala and Najaf). Two additional courses 
are scheduled. Following completion of this training, graduates will be 
required to sign a code of conduct. 10,000 junior, mid level and senior 
level police officers will be trained by December 2004 at a variety of 
locations based upon Irbil model.
    In addition, selected IPS will participate in a $200M specialized 
training program. Program consists of:

  <bullet> Basic Criminal Investigations--1200 IPS
  <bullet> Internal Controls--200 IPS
  <bullet> Intelligence--100 IPS
  <bullet> Counterterrorism (CT) Emergency Response Unit and National 
        CT--250 IPS
  <bullet> CT Investigations--150 IPS
  <bullet> Post Blast Investigation--144 IPS
  <bullet> Drug Enforcement--200 IPS
  <bullet> Police Recruitment--20 IPS

    Courses are scheduled to begin at the Adnan Facility in Baghdad in 
mid-June. The IPS will also receive riot control training and the 
associated equipment for three 400-man riot control battalions.
    The International Police Advisor program will provide a critical 
mentorship and advisory function. We have deployed 276 of a planned 500 
IPAs, to Iraq but, because of the non-permissive security environment, 
most of them are unable to deploy outside Baghdad to actually work in 
police stations.

          Recruitment/Logistics/Transportation--27
          CPA Ministry of Interior--IPS--36
          IPA Operations Staff & Admin--28
          Region I (Basra)-8*
          Region II (Tikrit)--41
          Region III (Mosul)--11
          Region IV (Ramadi)--13
          Region V (Babylon)--11
          Region VI (Baghdad)--95
          TDY Other Unit Cs)--4

    * Approximately 90 additional IPAs are scheduled to arrive in Iraq 
in mid-May.

          b. Given that the Iraqi police will not be capable of 
        providing general law and order on the ground for at least a 
        couple of years, what do we do in the meantime to provide 
        security?

    Answer. As the date approaches for the transition of authority in 
Iraq, efforts to build up Iraqi capacity to assume security 
responsibilities must continue and be further intensified to provide a 
foundation for Iraq's political transition. Priority of resources 
(including funds, trainers and equipment) has been shifted to the Iraqi 
Police Service (IPS) and Iraq Civil Defense Corps (ICDC) to ensure that 
both are fully funded, well trained and well equipped, as they will 
share the task of Iraq internal security.
    There is currently a requirement for 89,000 Iraqi Police, based 
upon a 1:300 ratio of police to population. The current goal is to have 
the required amount of IPS personnel trained by June of 2005.
    Following the 30 June transition, the IPS will report to the 
Ministry of the Interior (MOI), and Commander, Multi-National Forces-
Iraq (CDRMNF-I), will exercise tactical control only for specific 
operations and will closely coordinate with the MOI for operations 
outside of this purview. The ICDC will provide support to the police 
and defend against threats to Iraq's internal security. The Iraqi Armed 
Forces (IAP) will provide support for internal security tasks beyond 
the capacity of the internal security forces and assist in performing 
security and stability operations at least, while Iraqi Security Forces 
(ISF) are under the direction of CDRNNF-I.
    The current training regimen for IPS personnel is an 8-week Police 
Training Academy, 3-week Transition Integration Program, and 10-month 
field training program. The principles taught at the various training 
programs will continue to be assessed and reinforced by the embed 
advisor/mentorship program. International police advisors will 
continued to be crucial to the success of the continued development of 
the IPS.
    Currently, IPS is conducting joint patrols with Coalition/U.S. 
forces in select areas with some success. As the rapport matures 
between Major Subordinate Commands and IPS leadership, we can 
reasonably expect this to become more effective in the near future. As 
IPS becomes more effective in assigned security roles and gain the 
confidence of the local populace; the primary role for civil security 
operations will transition in phases. As respective conditions are met 
the transition of security operations will encompass security 
responsibility transfer to local control, regional control and 
strategic overwatch by multinational forces, respectively.
    Way Ahead: Continue combined operations with a phased transition to 
the area/regional support role for military quick reaction forces, IAF 
and ICDC support, and Coalition liaison or embedded advisor presence. 
Commander, USCENTCOM, will continue to certify the readiness of ISF, 
upon completion of training and maturation milestones, to conduct 
effective operations with minimal support from other multinational 
forces. In addition, mutual support across the security spectrum will 
remain key to the strategic vision of a secure and stable Iraq in which 
ISP ultimately assumes the lead role.

          c. What role should the Iraqi security forces play in dealing 
        with insurgents? Is it realistic to expect them to fight Iraqi 
        insurgents in most cases?

    [There was no response to this question at time of publication.]

          d. What about the idea of engaging our allies in the Arab 
        world to build on the police training model in Jordan to open 
        up several regional training centers staffed by Americans, 
        Europeans, and Arab-trained officers who would train Iraqi 
        security forces on an urgent basis? What, if anything, is the 
        administration doing to make this happen?

    [There was no response to this question at time of publication.]
                                militias
    Question 4. Last month, when a decision was made to go after 
Muqtada Al-Sadr, Coalition spokesman Dan Senor cited al-Sadr's militia, 
the Mahdi Army, as one of the primary reasons. And yet the Coalition 
has not decided to go after other militias.
  <bullet> Does the CPA have a consistent policy on militias? If so, 
        what is this policy?
  <bullet> What role are these groups playing in providing security? Do 
        we welcome their role in some instances?
  <bullet> Do you have a plan to bring them under a new minister of 
        defense and interior, or disarm and disband them? Where are you 
        on implementing the plan?

    [There was no response to this question at time of publication.]
                         coalition force levels
    Question 5. Military experts have been arguing for more troops for 
months of course, many since before the war even started. Force 
protection should always be the number one priority, but I am concerned 
that we're not putting enough emphasis on--or do not have enough troops 
on the ground to provide--security for the Iraqi people. If our mission 
is the stabilization of Iraq, then I can draw no other conclusion than 
that we do not have enough troops as evidenced by--
          1. The reluctance of Iraqis to join the political process.
          2. The proliferation of militias.
          3. The growing number of private military contractors and the 
        rising costs of security in reconstruction spending.
          4. A surge in violence in April.
          5. The inability of the Iraqi security forces to provide law 
        and order.

          a. What is the specific mission statement of our armed forces 
        in Iraq? Does it include civilian policing--fighting crime, 
        preventing kidnappings, catching thieves?

    Answer. The Multi-National Forces-Iraq (MNF-I) conducts offensive 
operations to defeat remaining non-compliant forces and neutralize 
destabilizing influences in Iraq in order to create a secure 
environment In direct support of the Coalition Provisional Authority 
(CPA). MNF-I organizes, trains, equips, mentors and certifies credible 
and capable Iraqi security forces in order to transition responsibility 
for security from Coalition forces to Iraqi forces. Concurrently, 
conducts stability operations to support the establishment of 
government, the restoration of essential services and economic 
development in order to set the conditions for a transfer of 
sovereignty and operations to designated follow-on authorities.
    Although this mission statement does not specifically include 
kidnappings, preventing crimes and catching thieves, the enforcement of 
the law as written by the CPA and enforced by MNF-I makes these implied 
tasks to subordinate units under MNF-I and espouse into subordinate 
unit missions and commanders' intent at all levels.

          b. Do our commanders in the field have the forces needed to 
        successfully carry out the civilian policing mission? Have they 
        told you what they need to do that? Have you asked them?

    Answer. Coalition forces are in a training and advisory capacity 
with the Iraqi Police Service (IPS), and we perform local joint patrols 
with them. However, the goal is not for Coalition forces to perform the 
police mission, but for IPS to perform that mission with our support 
and training. The limitations on training and equipping IPS are not 
related to either the number of IPS personnel or the number of 
trainers. We have set up training programs that put IPS personnel 
through a variety of general and specialized training, and have 
maximized the available facilities to do so. In the days of Saddam 
Hussein, the Iraqi police did not have the training we normally assume 
of police forces--they had little to no training in the gathering of 
evidence or other skills associated with civilian policing in the 
Western world. Because of that, the training requirements for IPS are 
extensive and we are maximizing the throughput with the available 
resources. Previous testimony has indicated the limited availability of 
military police resources, and we are maximizing the availability of 
what we have to perform military police missions; this does not include 
day-to-day civilian policing.

          c. Can you provide detailed information on how many foreign 
        troops are there in Iraq and when their deployments are 
        scheduled to end? What commitments do we have for the future?

    Answer. The Coalition currently has 24,273 soldiers from 34 nations 
contributing forces to Operation IRAQI FREEDOM. Unfortunately, Spain, 
Honduras and the Dominican Republic have elected to withdraw their 
forces. Once their redeployment is complete the force will drop to 
about 22,900.
    Most nations have limited their formal commitments to 6-month 
intervals. Under this 6-month framework, the majority of the formal 
commitments will expire between December 2004 and February 2005. Two 
notable exceptions are the United Kingdom and Poland, who have agreed 
to stay as long as required.
    While we have few formal commitments for the period beyond February 
2005, many countries have made public and private statements that lead 
us to believe they will remain for the foreseeable future. However, 
there are two or three countries we believe may withdraw their forces 
if they were to have either a change in government or a terrorist 
attack on home territory.
    The Republic of Korea has agreed to provide about 3,000 soldiers. 
Preparations for their deployment are ongoing. We are also examining 
offers for smaller sized units from Azerbaijan, Tonga and Georgia, but 
these have not yet resulted in formal commitments of forces.
                     reconstruction and contracting
    Question 6. Recently, Stuart Bowen, the Coalition Provisional 
Authority's Inspector General, told Reuters that in the wake of the 
spate of violence directed at contractors, the security and insurance 
costs might be in the range of 25 percent of costs. To make matter 
worse, there was a disturbing recent report on the National Public 
Radio's ``Marketplace'' that indicated that up to 20 percent of our 
reconstruction dollars could be lost to corruption. With contractors 
being kidnapped and murdered, most NGOs and many contractors are either 
hunkering down or pulling out and reconstruction efforts are being 
hampered.

          a. What is your best estimate for the amount of 
        reconstruction funds that are being spent on security and lost 
        to corruption? Are Mr. Bowen's estimates credible? What is your 
        response to the ``Marketplace'' allegations?

    Answer. The level of security required in Iraq is a unique aspect 
of moving and building there. Based on proposals submitted by 
contractors, security costs are estimated at 10 to 15% of construction 
costs. Contractors are currently in the early stages of submitting 
vouchers for security so the actual costs are not available at this 
point.
    This estimating and stating of security costs is an inexact science 
at best until the construction is complete and the costs are paid. We 
are working hard to control all costs but the environment is in charge 
of how much it costs for security. It will change over time and the 
costs (percentages) could go up, stay the same or go down. Predicting 
security costs even based on past data from other sources may be very 
misleading. This information is not ``knowable'' in advance like the 
cost of cement or pipe.
    Security remains a top concern. But despite the challenges, it is 
important to move forward with efforts to help bring essential services 
to the people in Iraq. We firmly believe that the construction efforts 
and the jobs created through the contracting process will help 
stabilize the country and contribute to security. Security will impact 
the pace and the cost of construction but it will not stop 
construction. Despite the security concerns, all of our contractors 
have personnel on the ground and are executing plans for deployment of 
resources to meet their obligations. With the beginning of our major 
construction, we have an overall PMO security contractor who will 
assist the Coalition in defining the security requirements for our 
construction contractors.
    In addition, we will establish security operations centers in 
various locations throughout Iraq. These centers will be information 
nodes receiving reports and sharing security information. Our security 
contractor will be integrated closely with the construction 
contractors' security, coalition military, and Iraqi security 
authorities.

          b. What is your response to the ``Marketplace'' allegations?

    Answer. As for the construction funds ``being lost to corruption,'' 
we are participating fully with all oversight agencies to prevent this 
from happening. We have auditors from the General Accounting Office, 
the Army Audit Agency, the Defense Contracting Audit Agency, the U.S. 
Department of Defense Inspector General, and the Coalition Provisional 
Authority Inspector General, among others, overseeing and reviewing the 
entire contracting award process to ensure that our actions remain 
open, competitive, and transparent.

          c. Who will be in charge of contracting after June 30? What 
        role does State have now? What role will it have? What will 
        DOD's role be in contracting post June 30?

    Answer. When CPA dissolves, the United States will be represented 
by the Chief of Mission who will be responsible for direction, 
coordination, and supervision of all U.S. Government, employees, 
policies, and activities in country, except those under the command of 
an area military commander or employees of an International 
Organization. The Department of the Army will continue to serve as the 
Executing Agent, providing contracting and program management support. 
A temporary organization called Army Project and Contracting Office 
(APCO--formerly Program Management Office) within the Department of the 
Army has been established to provide acquisition and contract 
management support.

          d. How much of the $18.4 billion in reconstruction funds has 
        actually been spent in Iraq as opposed to obligated? How long 
        will it take to spend the entire $18.4 billion? Why is it 
        taking so long to spend this money? If any part of the problem 
        lies with Congress, have you requested a fix?

    Answer. While there were some initial delays in contracting for the 
various reconstruction projects, the Coalition Provisional Authority is 
executing these funds now.

  <bullet> As of May 26, 2004, $7.6 billion (41 percent) of the $18.4 
        billion was committed, and $3.7 billion (20 percent) was 
        obligated.
  <bullet> Since DOD has awarded the, PMO construction contracts in 
        March, execution has been accelerating.
  <bullet> Expenditures will lag obligations. Expenditures are recorded 
        as work is completed.
  <bullet> Iraqi Relief and Reconstruction Fund (IRRF) funds are 
        available through FY 2006, and some major projects may take 
        that long to complete.

    Initial delays were caused by:

  <bullet> The requirement to submit the financial plan required by 
        section 2207 of the Supplemental Appropriations Act for the 
        Reconstruction of Iraq,
  <bullet> The Supplemental Appropriations Act requirement that IRRF-
        funded contracts be awarded through full and open competition, 
        and
  <bullet> The need to definitize requirements to a level so that the 
        contract/task order could be awarded.

    We are using our normal acquisition process to ensure fair and open 
competition.
    This is a deliberative process so that we can preclude protests 
that would result in further delays in execution (e.g., NOUR USA LTD 
protest that has affected equipping the New Iraqi Army and the Iraqi 
Civil Defense Corps).
    For those projects for which the Department of Defense is 
responsible for executing.

  <bullet> DOD awarded 10 construction contracts to support the 
        security, electrical, water, transportation, communications, 
        and public buildings. These contracts were executed under an 
        accelerated and fully open competition.
          Proposals for these solicitations were due on February 5, 
        2004, and all contract awards were made by March 26, 2004.
          These contracts are cost plus award fee, indefinite delivery, 
        indefinite quantity (IDIQ) with a 2-year base period with three 
        1-year options.
          Projects will be executed via task order as specific 
        requirements are prioritized. These contracts combined with the 
        current construction contracts underway will serve as the 
        majority of the capacity to accomplish the construction work 
        identified in the section 2207 report.
  <bullet> For the non-construction contracts,
          DOD is defming the contract requirements as quickly as 
        possible and is issuing those contracts on a case-by-case basis 
        based on when the items are required.
          DOD sent a special contracting team led by Brigadier General 
        Steve Seay to Baghdad to assist in the definitization of 
        requirements--especially those for Iraqi security forces; the 
        ministries know what they want, but they need assistance in 
        translating these needs into requirements for contracting 
        purposes.
                               corruption
    Question 7. In February, Ambassador Bremer signed CPA Order number 
57 which created Inspectors General in each Iraqi ministry, which 
``report to the relevant ministers and shall respond to requests or 
inquiries submitted by the Coalition Provisional Authority. In cases 
involving allegations of misconduct by the relevant minister, and 
Inspector General shall report to'' Jerry Bremer.

          a. Which requests or inquiries has the CPA made of the 
        various IGs? Has Ambassador Bremer made any requests to 
        investigate Iraqi ministers?

    Answer. The CPA has initiated no requests to the Ministry IGs to 
investigate Ministers.

          b. Have the IGs been tasked to look into the specific 
        allegations contained in the Marketplace series of similar 
        allegations?

    Answer. No.

          c. Can you relay to us the reporting, if any, that these 
        Inspectors General have conveyed to the CPA?

    Answer. None.

    Question 8. Could you provide the committee with a detailed summary 
of the activities thus far of the Iraqi Commission on Public Integrity? 
Have the Annual Iraqi Financial Statements yet been made public?

    Answer. Activities relating to the Iraqi Commission on Public 
Integrity can be classified into several categories:
    Selection of Commissioner and Iraqi Staff.--A Commissioner has been 
appointed. Approximately 100 Iraqis have applied for positions in the 
Commission, and they are currently undergoing background 
investigations.
    Code of Conduct and Financial Disclosure Programs.--A Code of 
Conduct and financial disclosure regulations have been drafted. These 
drafts have been briefed to the Commissioner and await his input and 
approval. The signing of the Code of Conduct is a condition of 
employment for all governmental employees. The actual Code of Conduct 
was developed with Iraqi involvement. The training, distribution, and 
tracking aspects of the Code of Conduct Program is under development in 
union with the Inspectors General of each ministry. The program has 
been set back, however, by the recent loss of the coalition program 
coordinator. The Financial Disclosure Project was briefed to the 
Commissioner. Modifications will be made to secure certain financial 
information so that it can not be used by criminal elements to target 
the governmental worker or set kidnapping ransoms and to ensure 
confidentiality of certain information while balancing the need for 
transparency. The information that will be required has been made 
public, but the actual rules and regulations have not been released.
    Training.--Coalition subject matter experts have been building 
courses of action in numerous areas. An investigative training plan has 
been developed, and upon the transfer of funds to the International 
Criminal Investigation and Training Program (ICITAP), trainers will 
deploy to conduct high intensity training in undercover activity, 
including the use of electronic surveillance equipment, to detect, 
identify, infiltrate, and prosecute all levels of public corruption. 
Educational programs are being developed to train Iraqis in basic and 
advanced accounting and auditing techniques to enhance detection and 
investigation. Additional educational initiatives are directed at grade 
school civics education curricula. A public relations campaign is under 
development to encourage local citizen cooperation in the fight against 
corruption and to promote a sense of pride in government work by 
drawing upon the region's rich cultural, religious, and historical 
history for integrity and honesty. Training on the nature and scope of 
the Commission has been provided to all prosecutors, investigative and 
trial judges.
    Investigations.--A hotline for the anonymous reporting of corrupt 
activity should be rolled out in 30 to 45 days. Because no Iraqi staff 
is in place, no investigations have begun.
    Funding.--A total of $15 million in supplemental and $20 million in 
DFI money has been secured to stand up, equip, train, and maintain the 
Commission. An Anti-Corruption Working Group has been established to 
maximize coordination, cooperation, and training and to reduce 
duplication of efforts among the three pillars of the anti-corruption 
initiatives (i.e., the Iraqi Commission on Public Integrity, the Board 
of Supreme Audit, and the Inspectors General in each of the 
ministries). Efforts are underway to develop alternative funding 
sources for FY 2006 and beyond.
    Security.--A safe and secure building from which to operate the 
Commission on Public Integrity has been located and rebuilt. Final 
interior refurbishing is expected to be complete in 10 days. A rapid 
deployment training program to investigate and prosecute criminals who 
threaten employees, witnesses, and judges involved in uncovering 
corruption will be developed by June 15th. A witness/employee 
protection location has been identified and will be refurbished. This 
location will also be an emergency secondary base of operation in case 
of a destructive attack on the main site. Long term witness protection 
has been coordinated with the U.S. Marshals. We are attempting to 
purchase armored cars from neighboring countries to reduce the six-
month minimum lag time between order and delivery.
    Regarding whether or not Annual Iraqi Financial Statements have yet 
been made public: they have not been made public because they have not 
been prepared.
    Question 9. In September 2003, Ambassador Bremer signed CPA Order 
number 30, which reformed employment conditions for state employees. 
According to the order, ``Public Service Employees who fail to report 
to work for five consecutive days or ten days in a month, except as 
authorized by their senior supervisor or as a result of verifiable 
medical incapacitation, may be dismissed from their employment.''

          a. How many employees have been dismissed for reason of 
        failure to report to work since the order was signed?

    Answer. To our knowledge, no employees were fired as a result of 
CPA Order #30.

          b. A May 13, 2004 Economist article entitled, ``Without 
        peace, reconstruction stalls'' says that ``the foreign ministry 
        will not re-open until the autumn. Its 1,400 officials work for 
        only two days a week, due to shortage of space.'' How is CPA 
        order 30 reconciled with the foreign ministry's apparent two 
        day work week?

    Answer. The Economist article is wrong. The Ministry of Foreign 
Affairs works six days a week and is fully engaged in the hard work of 
reopening and restaffing Iraq's embassies abroad and formulating and 
articulating a new foreign policy for a new, democratic Iraq. Foreign 
Minister Hoshyar Zebari has endorsed a new Corporate Management Plan 
jointly developed by CPA and the Ministry's senior staff that 
establishes sound, modern management principles for the Ministry. It is 
true that there are space problems at the Ministry due to the looting 
of the main Ministry building following the liberation of Baghdad, but 
the renovated main headquarters building will open in a few months. 
Some of the more junior staff do only work part-time while the 
renovation is underway, but the Ministry is very actively engaged in 
its important tasks.

                                 ______
                                 

 Responses of Hon. Richard L. Armitage to Additional Questions for the 
            Record Submitted by Senator Russell D. Feinglod

    Question 1. At the same time that Congress passed an $87 billion 
supplemental spending bill requested by the administration, primarily 
for Iraq, last year, Congress also created an Inspector General for the 
Coalition Provisional Authority to ensure that massive sums of U.S. 
taxpayer dollars were not lost to waste, fraud, and abuse. But only a 
fraction of the billions appropriated for reconstruction programs in 
Iraq has been obligated thus far. When Congress created the IG for the 
CPA, we did so because we recognized that the amount of money involved 
in reconstruction was so great that we needed an IG on the ground in 
Baghdad, not an office in Washington that viewed Iraq as one operation 
among hundreds that needs oversight. What will become of the CPA IG 
given the fact that the funds he was suppose to oversee have barely 
begun to be obligated? The law says that the IG's office will terminate 
six months after the authorities and duties of the Coalition 
Provisional Authority cease to exist. It seems to me that the 
authorities and duties, in terms of the reconstruction effort, do not 
cease to exist on June [30, 2004.] Will the CPA IG be subsumed into the 
State Department's IG office or is some other arrangement under 
consideration? I asked this question of Secretary Grossman last month, 
but I still do not have an answer, so I am trying again.

    Answer. We expect the Coalition Provisional Authority's Inspector 
General (CPA/IG) to remain in place for six-months following June 30, 
2004, and to sunset on December 31, 2004, in accordance with 3001(o) of 
Public Law 108-106. The State Department's Inspector General (DOS/IG) 
has detailed six people to the CPA/IG, both in Iraq and Washington, and 
is in the process of developing plans for work to be initiated after 
June 30, 2004, which is commensurate with expanded Iraq-related duties 
to be assumed by the Department.
    As to the oversight responsibility for Iraq reconstruction funds, 
it is our understanding that each Inspector General (for the Department 
of State, U.S. Agency for International Development, Department of 
Defense and others) will acquire oversight responsibility as each 
parent agency acquires responsibility for programs previously under the 
purview of the Coalition Provisional Authority. The Secretary of State 
will, however, assume responsibility for the continuous supervision and 
general direction of assistance for Iraq.

    Question 2. As I understand it, the International Committee of the 
Red Cross and Red Crescent alerted senior officials at both the 
Department of Defense and the Department of State about alarming abuses 
of Iraqi prisoners directly in mid-January. Press reports indicate that 
the ICRC communicated concern directly to both Secretary Powell and 
Deputy Secretary Wolfowitz. So regardless of whether other reports made 
it onto the desks of the right people, the message was delivered at 
very high levels at that time. I would like to ask both Secretary 
Armitage and Secretary Wolfowitz, what action did your respective 
Departments take after the ICRC delivered that very troubling message?

    Answer. ICRC President Kellenberger visited Washington in January 
and discussed detention issues with Secretary Powell, Deputy Secretary 
of Defense Wolfowitz and National Security Advisor Rice. Senior 
administration officials meet with Kellenberger every time he visits 
Washington, a reflection of our high regard for the International 
Committee of the Red Cross. In response to a question from the 
Secretary on detainees in Iraq, Kellenberger told the Secretary that 
the ICRC had concerns about the treatment of detainees in Guantanamo, 
Afghanistan and Iraq and mentioned that a report was being prepared on 
Iraq. He did not mention specifics or ask for any specific action. The 
ICRC provided its confidential report to CPA and U.S. military 
authorities in Baghdad in February 2004, covering the organization's 
visits to prisons in Iraq from March to November of 2003. The U.S. 
Mission in Geneva obtained a copy of the report and transmitted it to 
the Department on March 5, 2004. Secretary Powell received an internal 
memorandum describing the allegations of the report on March 11, 2004. 
He was also informed that serious investigations were taking place. The 
system appeared to be working and we understood that issues were being 
dealt with at the local level. Our colleagues in the ICRC also appeared 
to share the view in late March and April, both in Washington and 
Geneva, that the February Report was being taken seriously at the local 
level and that steps were being taken locally to address the concerns 
raised.
    The Department of Defense and the Department of Justice are 
conducting various investigations arising from the allegations of abuse 
at Abu Ghraib prison and elsewhere. The Department of State has 
maintained a regular dialogue with the ICRC and other international 
organizations and NGOs at the working level regarding these issues; 
Secretary Powell and others ensure that the concerns the ICRC raises 
are carefully considered in interagency discussions.

                                 <all>

</pre></body></html>
